<html>
<title> - NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 113-27]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-27

 
                          NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 59                                 S. 155

                           S. 156                                S. 219

                           S. 225                                S. 228

                           S. 285                                S. 305

                           S. 349                                S. 371

                           S. 476                                S. 486

                           S. 507                                S. 615



                                     

                             APRIL 23, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
81-301                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84e3f4ebc4e7f1f7f0ece1e8f4aae7ebe9aa">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
CHRISTOPHER A. COONS, Delaware       ROB PORTMAN, Ohio
BRIAN SCHATZ, Hawaii                 JOHN HOEVEN, North Dakota
MARTIN HEINRICH, New Mexico

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
DEBBIE STABENOW, Michigan            MIKE LEE, Utah
CHRISTOPHER A. COONS, Delaware       LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 JOHN HOEVEN, North Dakota
MARTIN HEINRICH, New Mexico

Ron Wyden and Lisa Murkowski are Ex Officio Members of the Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Boxer, Hon. Barbara, U.S. Senator From California................     3
Heinrich, Hon. Martin, U.S. Senator From New Mexico..............     2
Kolb, Ingrid, Director, Office of Management, Department of 
  Energy.........................................................    26
Manchin, III, Hon. Joe, U.S. Senator From West Virginia..........     3
O'Dell, Peggy, Deputy Director for Operations, National Park 
  Service, Department of the Interior............................     5
Portman, Hon. Rob, U.S. Senator From Ohio........................    32
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    35

                              Appendix II

Additional material submitted for the record.....................41++++


                          NATIONAL PARKS BILLS

                              ----------                              


                        TUESDAY, APRIL 23, 2013

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order.
    I have a short statement. I'll then turn to my colleagues 
who are here for any opening statements they might have. We're 
graced with the presence of Senator Boxer, and we look forward 
to hearing her remarks.
    This afternoon the subcommittee on National Parks is 
holding a hearing to consider 14 bills. All but 1 of these 
bills were considered by the subcommittee in the last Congress. 
Because we already have a legislative record for these bills 
the format for today's hearing is a little more compact than 
usual as we only have witnesses representing the 
administration, who will testify today.
    Our goal is to update the hearing record and allow 
committee members an opportunity to ask any questions they may 
have. Because of the large number of bills on today's agenda, I 
won't read through the list. But at this time I'll include a 
complete list of bills in the hearing record.
    Senator Udall. Before we begin, well, let me--I'm going to 
set that aside. These are my comments about Senator Portman, 
who is the new ranking member.
    But I did want to say that our subcommittee historically 
has one of the busier legislative workloads. The key to working 
through the large number of bills is having a strong, 
bipartisan, working relationship. I worked with Senator Portman 
recently on his bill to establish a Peace Corps memorial in 
Washington, which the committee reported last month. I look 
forward to working with him on the many bills to come before 
the subcommittee during this Congress.
    If I could take a minute of personal privilege, Senator 
Boxer, my mother enlisted in the Peace Corps at the age of 56. 
She went to Nepal. She served for 4 years. She worked on 
microloan projects for women.
    Senator Boxer. Fabulous. Fabulous.
    Senator Udall. It involved a 2-hour walk to a distant 
village. She's, to this day, a heroine of mine for that public 
service spirit.
    At this point let me turn to my colleagues if they have 
opening statements.
    Senator Manchin or Senator Heinrich.
    [The prepared statement of Senator Alexander follow:]

     Prepared Statement of Hon. Lamar Alexander, U.S. Senator From 
                          Tennessee, on S. 507

    The Manhattan Project is one of the most significant events in 
American history. Today it is impossible to imagine that in September 
1942, in a valley in East Tennessee, 3,000 farmers and their families 
were told to leave their homes to make way for a ``secret city'' that 
would bring 100,000 men and women together to help end World War II and 
forever change the course of human history. The story of the Manhattan 
Project is not only about World War II, it is about the people who 
lived and worked at these sites, the scientific achievements they made, 
and the impact of their work on our Nation's history. I have long 
supported establishing a national historic park to protect the 
Manhattan Project sites because of the project's important role in our 
history, but also because of its importance to the history and people 
of Tennessee. Oak Ridge, which was not listed on a map until 1949, 
became the home for 100,000 scientists, engineers, machinists, 
operators and construction workers. Very few of the scientists knew 
what they were working on, and even fewer knew anything about uranium.
    Many have asked how a valley in East Tennessee became the first 
Manhattan Project site. As Ray Smith, Y-12's Historian, would tell it, 
President Roosevelt needed to convince Congress to spend a large amount 
of money without knowing what is was going to be used for. President 
Roosevelt asked Senator Douglas McKellar, a Democrat from Tennessee, if 
this could be done. Senator McKellar is said to have replied, ``Yes, 
Mr. President, I can do that for you . . .  now just where in Tennessee 
are you going to put that thang?''
    This is one of thousands of stories that tell a small part of a 
full story that communicates the importance of this event in American 
history. As Americans we have a special obligation to preserve and 
protect our heritage, and the Manhattan Project National Historical 
Park will ensure that all Americans learn about the significance of the 
Manhattan Project and how it continues to shape our history.
    In 2004, I joined Senator Bingaman as a cosponsor of the Manhattan 
Project National Historical Park Study Act, which directed the 
Department of Interior to conduct a study of the Manhattan Project 
sites to determine the feasibility of including the sites in the 
National Park System.
    In 2011, following public meetings, extensive assessments of 
potential park boundaries and assessments of the integrity of the 
historical resources, the Department of the Interior found that the 
park was feasible, that it met the suitability requirements for 
establishing a new national park and that the park should be 
established.
    As part of the park's establishment the study recommended the 
creation of a Manhattan Project National Historical Park with units at 
Oak Ridge, Tennessee, Los Alamos, New Mexico, and Hanford, Washington. 
According to Secretary Salazar, Secretary of the Interior, ``the 
Manhattan Project ushered in the atomic age, changed the role of the 
United States in the world community, and set the stage for the Cold 
War.''
    Support for the Manhattan Project National Historical Park Act is 
bipartisan, bicameral, and has the strong support of the Energy 
Communities Alliance and the National Parks Conservation Association.
    I thank the committee for holding this hearing today and I urge my 
colleagues to support this legislation as it moves forward. Thank you.

        STATEMENT OF HON. MARTIN HEINRICH, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Heinrich. I just want to say, I want to recognize 
the work that Senator Bingaman did on the 2 bills relating to 
New Mexico today, Valles Caldera National Preserve and then 
obviously the Manhattan Projects relationship to Los Alamos. We 
wouldn't be this far along if it weren't for all the good work 
that he put in on these two pieces of legislation.
    Senator Udall. Senator Manchin.

          STATEMENT OF HON. JOE MANCHIN, U.S. SENATOR 
                       FROM WEST VIRGINIA

    Senator Manchin. I would just like to thank you for the 
courtesy allowing me since I'm a co-sponsor of S. 486 with 
Senator Burr and Senator Hagan, I appreciate very much you 
allowing me to be here and also to be able to say a few words 
on behalf of S. 486.
    Senator Udall. We're glad to have you here, Senator 
Manchin. You're a member of the full committee. It's only the 
right thing to do to include you in today's hearing. So thank 
you for being here.
    Senator Manchin. Thank you, Chairman.
    Senator Udall. Let me turn to the Chairwoman of the 
Environment and Public Works Committee, my good friend, Senator 
Boxer, for her remarks.
    Senator Boxer, the floor is yours.

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Boxer. Thank you. Thank you for referencing your 
mom in that amazing story. She's, well I could just say, you 
certainly inherited that feeling of public spirit from so many 
people in your family. Enough said on that.
    To say, Senator Heinrich, it's so nice to hear you mention 
Jeff because, you know, it's true that we're a government of 
laws, not men, or people, as I like to say. But people make a 
difference. That one over there just made a difference the 
other day. So it's important to remember that we stand on the 
shoulders of a lot of people, whether they're family or other 
colleagues.
    I don't have a long statement. You'll be happy about that. 
You'll also be happy to know that S. 59, the Distinguished 
Flying Cross National Memorial Act will not cost the Federal 
Government one slim dime. So that's good.
    You'll be happy to know that it passed the House twice. So 
I'm here to kind of tug at your lapels a little bit and say, 
Mr. Chairman, this is kind of a no-brainer. We've got to get it 
done.
    Let me tell you about this bill which I've introduced with 
Senators Feinstein and Nelson.
    The purpose is very simple. It would designate the 
Distinguished Flying Cross Memorial at March Field Air Museum 
in Riverside, California. We'd make it a national memorial, not 
a national park, not a park, a national memorial to recognize 
members of our Armed Forces, who have distinguished themselves 
by heroism in aerial flight.
    The Distinguished Flying Cross is America's oldest military 
award. I didn't know that until I got into this. It's the 
oldest military award for aviation. It's awarded to ``service 
members and select civilians who perform acts of heroism'' I'm 
quoting, ``or extraordinary achievement while participating in 
aerial flight.''
    But unfortunately, believe it or not, our Nation lacks a 
national memorial to appropriately recognize these brave men 
and women. Now March Field Air Museum in California is 
currently the only memorial in the country that honors 
recipients of the Distinguished Flying Cross. It was 
constructed entirely using private funds and was dedicated in 
October 2010.
    I brought a photograph of the memorial to show to you. It's 
quite, quite, quite, beautiful.
    My bill would simply designate this memorial as a national 
memorial in order to honor the bravery and the sacrifice of the 
thousands of Americans who've received this prestigious award. 
Let me reiterate, there is no other site in the country 
dedicated to these American heroes. Again this legislation 
would not cost the government a single dime. The memorial would 
not be a unit of the National Park System and no Federal funds 
could be used for any purpose related to the memorial.
    So it's really a designation. That designation means a lot 
to the community and to the people who put this together. I'm 
so proud this bill has wide support within the military and 
veterans communities.
    So I'll conclude by reading you some of those who support 
this.
    The Distinguished Flying Cross Society.
    The Military Officers Association of America.
    The Air Force Association.
    The Air Force Sergeant's Association
    The Association of Naval Aviation.
    The Vietnam Helicopter Pilots Association.
    The China-Burma-India Veterans Association.
    Again, the House of Representatives, overwhelmingly, passed 
this legislation in the 111th and 112th. So it is really time 
for the Senate to act. Unless someone comes up with some good 
reason why we wouldn't, I would think we could get this done 
via a hotline with your blessing and that of my colleagues who 
are here and hopefully Senator Portman and the others.
    So unless you have any questions, I will let you do the 
rest of your work. I thank you.
    Senator Udall. Thank you, Senator Boxer.
    Senator Boxer. Thank you.
    Senator Udall. Thank you for drawing attention, again, to 
the importance of achieving this goal. It looks like a striking 
sight.
    Senator Boxer. Yup.
    Senator Udall. A sight which would pay homage in honor of 
those who've served us.
    Thank you.
    Senator Boxer. It's beautiful. It's in Riverside, 
California. I welcome you to come see it with me, anytime, 
after we make it a national memorial.
    Thank you very much.
    Senator Udall. Thank you, Senator Boxer.
    As Senator Boxer departs, we could call our administration 
witnesses to the table. We will look forward to hearing your 
testimony.
    So we have been joined by Ms. Peggy O'Dell, who is the 
Deputy Director of Operations for the National Park Service. 
Ms. O'Dell, nice to see you. You're not a stranger to the 
committee.
    We've also been joined by Ms. Ingrid Kolb, Director of the 
Office of Management at the U.S. Department of Energy.
    Ms. O'Dell, why don't I turn to you and the floor is yours.
    We operate generally within a 5 minute timeframe, but there 
are 14 bills. If you need a little bit more time to express the 
variety of points of view that are appropriate, please take the 
time you need.
    The floor is yours.

  STATEMENT OF PEGGY O'DELL, DEPUTY DIRECTOR FOR OPERATIONS, 
       NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Ms. O'Dell. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before you and the subcommittee to 
present the Department of Interior's views on the 14 bills on 
today's agenda.
    I'd like to submit our full statements on each of these 
bills for the record and summarize the Department's views.
    It's a pleasure to appear on the same panel with the 
Department of Energy's Office of Management, Director Ingrid 
Kolb, who is testifying on S. 507, authorizing the 
establishment of the Manhattan Project National Historical 
Park. We worked with DOE on the study for this proposal and 
look forward to continuing our partnership with DOE if this 
legislation is enacted.
    The Department supports the following 9 bills.
    S. 156, which would allow for the harvest of gull eggs by 
the Huna Tlingit people within Glacier Bay National Park in 
Alaska.
    S. 225, which would authorize a study to determine the most 
effective ways to increase understanding and public awareness 
of the critical role that the Buffalo Soldiers played in the 
early years of the National Parks.
    S. 285, which would designate the Valles Caldera National 
Preserve in New Mexico as a unit of the National Park System.
    S. 305, which would authorize the addition of 3 separate 
battlefield sites to Vicksburg National Military Park to tell 
the remarkable story of the Union Army's capture of the city of 
Vicksburg during the Civil War.
    S. 349, which would authorize a study of river segments in 
the Wood Pawcatuck watershed in Connecticut and Rhode Island 
for their potential for designation as National Wild and Scenic 
Rivers.
    S. 371, which would establish the Blackstone River Valley 
National Historical Park in Massachusetts and Rhode Island.
    S. 476, which would extend the authority to operate the 
Chesapeake and Ohio Canal National Historical Park Commission 
until January 8, 2021.
    S. 507, which would authorize the establishment of the 
Manhattan Project National Historical Park in Los Alamos, New 
Mexico, Hanford, Washington and Oak Ridge, Tennessee. The park 
would be administered in partnership with the Department of 
Energy.
    Last, S. 615, which would authorize the establishment of 
the Coltsville National Historical Park in Hartford, 
Connecticut.
    The reasons for our support for these bills are explained 
in our full statements. For several of the bills I just 
mentioned we are requesting that the committee make minor 
amendments to the bill language. Explanation of those are also 
contained in the full statements. We request the opportunity to 
work with the committee on those amendments.
    The Department supports with--excuse me, the Department 
supports the objectives of S. 219 and S. 228, which would 
establish the Susquehanna Gateway National Heritage Area in 
Pennsylvania and the Sacramento-San Joaquin Delta National 
Heritage Area in California, respectively. However, the 
Department recommends Congress pass National Heritage Area 
program legislation before designating any additional new 
areas.
    Regarding S. 155, which would designate a mountain the 
State of Alaska as Denali, the department does not object to 
this bill and appreciates the long history and public interest 
for both the name Mount McKinley and the traditional Athabascan 
name, Denali.
    Regarding S. 486, which would reinstate the 2007 Interim 
Strategy Governing Off-Road Vehicle Use at Cape Hatteras 
National Seashore, the Department strongly opposes this 
legislation. The ORV management plan that took effect in 
February 2012 brought the Seashore into compliance with 
applicable laws, policies and executive orders after many years 
of non-compliance. This plan is accomplishing the objectives of 
allowing appropriate use and access at the seashore to the 
greatest extent possible while also ensuring protection for the 
wildlife there.
    Regarding S. 59, which would designate a Distinguished 
Flying Cross National Memorial at the March Field Air Museum in 
Riverside, California, the Department defers to the Department 
of Defense on a position since the purpose of the legislation 
is to honor military personnel at a site that is not under the 
jurisdiction of the Department of the Interior.
    Mr. Chairman, that concludes my statement. We're happy to 
take questions.
    [The prepared statement of Ms. O'Dell follows:]

  Prepared Statement of Peggy O'Dell, Deputy Director for Operations, 
      National Park Service, Department of the Interior, on S. 59

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
59, a bill to designate a Distinguished Flying Cross National Memorial 
at the March Field Air Museum in Riverside, California.
    The Department would defer to the Department of Defense for a 
position on S. 59 since the purpose of the legislation is to honor 
military personnel who have been awarded the Distinguished Flying Cross 
at a site that is not under the jurisdiction of the Department.
    The Distinguished Flying Cross is awarded to a member of the United 
States armed forces who distinguishes himself or herself in support of 
operations by ``heroism or extraordinary achievement while 
participating in an aerial flight.'' It is the oldest military award in 
the United States for achievements in aviation. We applaud the effort 
of the March Field Air Museum to create a suitable memorial to the 
honor, bravery, and sacrifice of members of our Armed Forces who have 
earned this medal.
    This legislation explicitly states that this memorial is not a unit 
of the National Park System. As this language makes clear, the use of 
the title ``national memorial'' creates a reasonable expectation among 
the general public that it must have an affiliation with the National 
Park Service, which currently administers 29 national memorials across 
the country. This is not the first time this issue has arisen, nor is 
it likely to be the last, and the Department respectfully encourages 
only the most thoughtful and judicious designation of any future 
``national'' memorials or other similar sites.

                               ON S. 155

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 155, a bill to designate a 
mountain in the State of Alaska as Denali.
    The National Park Service appreciates the long history and public 
interest for both the name Mount McKinley and the traditional 
Athabascan name, Denali. The Department respects the choice made by 
this legislation, and does not object to S. 155.
    Located in what is now Denali National Park and Preserve, the 
highest peak in North America has been known by many names. The 
National Park Service's administrative history of the park notes that, 
``The Koyukon called it Deenaalee, the Lower Tanana named it 
Deenaadheet or Deennadhee, the Dena'ina called it Dghelay Ka'a, and at 
least six other Native groups had their own names for it.
    ``In the late 18th century various Europeans came calling, and 
virtually everyone who passed by was moved to comment on it. The 
Russians called it Bulshaia or Tenada, and though explorers from other 
nations were less specific, even the most hard-bitten adventurers were 
in awe of its height and majesty.
    ``No American gave it a name until Densmore's Mountain appeared in 
the late 1880s, and the name that eventually stuck--Mount McKinley--was 
not applied until the waning days of the nineteenth century,'' a 
gesture of support to then-President William McKinley.
    In 1975, the State of Alaska officially recognized Denali as the 
name of the peak, and requested action by the U.S. Board on Geographic 
Names to do the same.
    In 1980, Congress changed the name of Mount McKinley National Park 
to Denali National Park and Preserve (P.L. 96-487, Section 202), but 
did not act on the name change for the mountain.
    Mr. Chairman, this concludes my testimony, and I would be happy to 
answer any questions you or other members may have.

                               ON S. 156

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 156, 
the Huna Tlingit Traditional Gull Egg Use Act.
    This legislation provides for the restoration of an important 
cultural connection to Glacier Bay by the Huna Tlingit, and provides 
for the environmentally preferred action identified in our studies. As 
such, the Department supports enactment of S. 156 with an amendment.
    Glacier Bay National Park is the traditional homeland of the Huna 
Tlingit who harvested eggs at gull rookeries in Glacier Bay prior to, 
and after the park was established in 1925. Egg collection was 
curtailed in the 1960s as Migratory Bird Treaty Act and National Park 
Service (NPS) regulations prohibited the activity.
    The Glacier Bay National Park Resource Management Act of 2000 (P.L. 
106-455) directed the NPS to study whether gull egg collection could 
resume without impairing the biological sustainability of the gull 
population in the park. The NPS conducted the study, wrote an 
environmental impact statement, and in August 2010 issued a record of 
decision which found that collection under certain conditions would be 
sustainable. Those conditions, addressing the frequency of harvest and 
an annual harvest plan, are reflected in S. 156.
    Section 2 (b) of the bill contains a condition for the Secretary of 
the Interior to develop an annual harvest plan jointly with the Hoonah 
Indian Association. To clarify that the Hoonah Indian Association's 
role is purely advisory, we recommend the attached amendment.
    The Department appreciates the opportunity to testify on this 
matter. I will be glad to answer any questions.
AMENDMENT TO S.156
    On p. 2, line 8, strike ``jointly by the Secretary and the Hoonah 
Indian Association.'' and insert ``by the Secretary in consultation 
with the Hoonah Indian Association.''.

                                ON S.219

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 219, a bill to establish the 
Susquehanna Gateway National Heritage Area in Pennsylvania.
    The Department supports the objectives of S. 219. The Susquehanna 
Gateway area has been found to meet the National Park Service's interim 
criteria for designation as a National Heritage Area. However, the 
Department recommends that Congress pass program legislation that 
establishes criteria to evaluate potentially qualified National 
Heritage Areas and a process for the designation, funding, and 
administration of these areas before designating any additional new 
National Heritage Areas.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas.
    Flowing for 441 miles, the Susquehanna River is the longest river 
on the East Coast and the largest contributor of fresh water to the 
Chesapeake Bay. The portions of the river flowing through Lancaster and 
York Counties in Pennsylvania exhibit exceptional natural and 
recreational value and traverse landscapes of historical importance to 
our nation.
    The region of the proposed Susquehanna Gateway National Heritage 
Area was first inhabited by Native Americans who left evidence of their 
occupation in a myriad of archeological sites, as well as rock art at 
several petroglyph sites. When Captain John Smith journeyed up the 
Susquehanna River in the summer of 1608, he sent emissaries to the 
Susquehannock town located on the east side of the river near present 
day Washington Boro in Lancaster County. Tribal leaders there entered a 
trade alliance, opening to the English a trade network extending 
hundreds of miles.
    In 1668, William Penn set the tone for religious tolerance in 
Pennsylvania and brought colonists who settled the great fertile valley 
of the Susquehanna Gateway region, beginning its long history as an 
abundant agricultural center. Serving as an important transportation 
corridor, the river provided opportunities for commerce and invention. 
It was here that John Elgar constructed the first iron steamboat in 
America. The birthplace of Robert Fulton, the original inventor of 
steam powered boats, is a National Historic Landmark in Lancaster 
County. Here, too, Phineas Davis designed and built the first practical 
coal burning steam locomotive, thereby revolutionizing railroad 
transportation.
    The region is the home ground of the ``Plain People''--the Amish 
and Mennonites. Their religious values, simple way of life, and well-
tended farms speak to the deepest feelings that Americans have about 
ourselves and our national experience.
    In this region, visitors also find evidence of our Revolutionary 
War past. Lancaster and York Counties served as venues for the 
Continental Congress when it left Philadelphia upon the British 
occupation of that city. In the courthouse in York, the Congress 
approved the Articles of Confederation and Perpetual Union, the 
nation's ``first constitution,'' and sent it forth to the states for 
ratification. In the summer of 1781, Continental Army General James 
Wood established Camp Security, housing more than a thousand British 
soldiers from General John Burgoyne's army, which had surrendered at 
Saratoga.
    The region also has an abundance of natural resources including 
migratory bird nesting sites, remnants of old growth forests, and areas 
of both ecological diversity and scenic quality. Ferncliff, known for 
its wildflowers, and the Susquehanna Gorge are both designated National 
Natural Landmarks. Recreational resources abound in the region, 
including the Kelly's Run and Susquehanna River Water Trails, both 
National Recreation Trails.
    S. 219 designates the Susquehanna Heritage Corporation, a non-
profit organization, as the local coordinating entity for the 
Susquehanna Gateway National Heritage Area. This organization has 
served as the coordinator for the state heritage area covering this 
region designated in 2001. The Susquehanna Heritage Corporation has 
demonstrated success in coordinating diverse partners in Lancaster and 
York Counties. Over the past nine years, the Corporation has been 
effective in facilitating preservation, interpretative, and educational 
projects and in leveraging community participation and funding. The 
heritage area has strong support from the public and from a myriad of 
state, local, federal, and non-governmental partners throughout the 
area. In 2008, the Corporation prepared a national heritage area 
feasibility study that was reviewed by the National Park Service and 
found to meet the interim criteria for potential designation found in 
the National Heritage Area Feasibility Study Guidelines.
    If the committee decides to act on S. 219, we would like to 
recommend language to make the bill more consistent with other National 
Heritage Area legislation enacted most recently and also to simply the 
criteria for approval of management plans.

                               ON S. 225

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S.225, to authorize the Secretary of the Interior 
to conduct a study of alternatives for commemorating and interpreting 
the role of the Buffalo Soldiers in the early years of the national 
parks, and for other purposes.
    The Department supports S. 225. However, we feel that priority 
should be given to the 31 previously authorized studies for potential 
units of the National Park System, potential new National Heritage 
Areas, and potential additions to the National Trails System and 
National Wild and Scenic River System that have not yet been 
transmitted to Congress.
    S. 225 would authorize a study to determine the most effective ways 
to increase understanding and public awareness of the critical role 
that the Buffalo Soldiers, segregated units composed of African-
American cavalrymen, played in the early years of the national parks. 
It would evaluate the suitability and feasibility of a National 
Historic Trail along the routes between their post at the Presidio of 
San Francisco and the parks they protected, notably Yosemite and 
Sequoia. The study would also identify properties that could meet the 
criteria for listing in the National Register of Historic Places or 
designation as National Historic Landmarks. We estimate that this study 
will cost approximately $400,000.
    President Obama recognized the legacy of the Buffalo Soldiers in 
issuing a proclamation on March 25, 2013, designating the Charles Young 
home in Wilberforce, Ohio, as a national monument. The Charles Young 
Buffalo Soldiers National Monument is now the 401st unit of the 
National Park System. The Presidential proclamation that established 
this national monument authorizes the NPS to complete a management plan 
that would include interpreting the struggles and achievements of the 
Buffalo Soldiers in their service to the United States. We note that, 
if S. 225 is enacted, there will be overlap with the Presidential 
proclamation, as this bill directs the NPS to complete a study to 
increase understanding and public awareness of the critical role that 
the Buffalo Soldier played in the early years of the national parks. 
However, this bill goes beyond the direction in the Presidential 
Proclamation by additionally authorizing a study of the suitability and 
feasibility of a national historic trail and identification of National 
Register of Historic Places National Historic Landmarks properties 
related to the Buffalo Soldiers. If enacted, the NPS will coordinate 
the completion of the study and the management plan.
    African-American 19th and 20th century Buffalo Soldiers were an 
important, yet little known, part of the history of some of our first 
national parks. These cavalry troops rode hundreds of miles from their 
post at the Presidio of San Francisco to Sequoia and Yosemite National 
Parks in order to patrol and protect them. The journey across the state 
took sixteen days of serious horseback riding averaging over twenty 
miles a day. Once in the parks, they were assigned to patrol the 
backcountry, build roads and trails, put a halt to poaching, suppress 
fires, stop trespass grazing by large herds of unregulated cattle and 
sheep, and otherwise establish roles later assumed by National Park 
rangers.
    The U.S. Army administered Sequoia and Yosemite National Parks from 
1891 to 1914, when it was replaced by civilian management. The National 
Park Service (NPS) was not created until 1916, 25 years after these 
parks were established. Commanding officers became acting military 
superintendents for these national parks with two troops of 
approximately 60 cavalry men assigned to each. The troops essentially 
created a roving economy-infusing money into parks and local 
businesses-and thus their presence was generally welcomed. The presence 
of these soldiers as official stewards of park lands prior to the NPS's 
establishment brought a sense of law and order to the mountain 
wilderness. Lesser known, however, is the participation of African-
American troops of the 24th Infantry and 9th Cavalry, the Buffalo 
Soldiers, who protected both Sequoia and Yosemite National Parks in 
1899, 1903, and 1904. These troops and their contributions should be 
recognized and honored, and this bill does just that.
    The most notable Buffalo Soldier was Colonel Charles Young, who 
served as a captain in the cavalry commanding a segregated black 
company at the Presidio of San Francisco. Born in Kentucky during the 
Civil War, Charles Young had already set himself a course that took him 
to places where a black man was not often welcome. He was the first 
black to graduate from the white high school in Ripley, Ohio, and 
through competitive examination he won an appointment to the U.S. 
Military Academy at West Point in 1884. He went on to graduate with his 
commission, only the third black man to do so. Colonel Young's story 
and leadership are emblematic of the experience of the Buffalo Soldiers 
during difficult and racially tense times. When the new military 
superintendent arrived in Sequoia National Park in the summer of 1903, 
he had already faced many challenges. Young and his troops arrived in 
Sequoia after a 16-day ride from the Presidio of San Francisco to find 
that one of their major assignments would be the extension of the wagon 
road. Hoping to break the sluggish pattern of previous military 
administrations, Young poured his considerable energies into the 
project. Young and his troops built as much road as the combined 
results of the three previous summers, as well as building a trail to 
the top of Mt. Whitney-the highest point in the contiguous United 
States.
    The soldiers also protected the giant sequoias from illegal 
logging, wildlife from poaching, and the watershed and wilderness from 
unauthorized grazing by livestock. A difficult task under any 
circumstances, the intensity was undoubtedly compounded by societal 
prejudice common at the turn of the century. They also produced maps 
and assisted tourists in the area.
    Although Colonel Charles Young only served one season as an acting 
superintendent of a national park, he and his men have not been 
forgotten. The energy and dignity they brought to this national park 
assignment left a strong imprint. The roads they built are still in use 
today, having served millions of park visitors for more than eighty 
years. The legacy they left extends far beyond Sequoia National Park, 
as they helped lay the foundation for the National Park System, which 
continues to inspire and connect people of all backgrounds to public 
lands and natural treasures to this day.

    In recent years the NPS has made an effort to chronicle the 
achievements of these men. In the Presidio of San Francisco, Golden 
Gate National Recreation Area and the Presidio Trust have developed an 
education program using the historic stables that the Buffalo Soldiers 
actually used to house their horses. In Yosemite National Park, a park 
ranger portrays one of the U.S. Army's Buffalo Soldiers as part of his 
interpretation of Yosemite's history. Sequoia National Park has a giant 
sequoia named for Colonel Young in honor of his lasting legacy in that 
park. These isolated, but important efforts to educate the public on 
the important role of the Buffalo Soldiers could be heightened by this 
consolidated study.
    There is a growing concern that youth are becoming increasingly 
disconnected with wild places and our national heritage. Additionally, 
many people of color are not necessarily aware of national parks and 
the role their ancestors may have played in shaping the national park 
system. The NPS can help foster a stronger sense of awareness and 
knowledge about the critical roles of African-American Buffalo Soldiers 
in the protection and development of some of our nation's natural 
treasures. As the 2016 centennial of the NPS approaches, it is an 
especially appropriate time to conduct research and increase public 
awareness of the stewardship role the Buffalo Soldiers played in the 
early years of the national parks.

                               ON S. 228

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 228, a bill to establish the 
Sacramento-San Joaquin Delta National Heritage Area.
    The Department supports the objectives of S. 228. The Sacramento-
San Joaquin Delta (Delta) area has been found to meet the National Park 
Service's interim criteria for designation as a National Heritage Area. 
However, the Department recommends that Congress pass program 
legislation that establishes criteria to evaluate potentially qualified 
National Heritage Areas and a process for the designation, funding, and 
administration of these areas before designating any additional new 
National Heritage Areas.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas.
    S. 228 would establish the Sacramento-San Joaquin Delta National 
Heritage Area within the counties of Contra Costa, Sacramento, San 
Joaquin, Solano, and Yolo, in the State of California, with the Delta 
Protection Commission designated as the Heritage Area's management 
entity.
    The Sacramento-San Joaquin Delta is a rare inland/inverse delta at 
the confluence of the Sacramento and San Joaquin Rivers, the largest 
estuary on the West Coast of the Americas. Its vast size, unique shape, 
and geographic location in the heart of California have produced a 
heritage of habitat and community diversity, industry, innovation, and 
unique infrastructure.
    After the last ice age 10,000 years ago, a rapid rise in sea level 
inundated the alluvial valley of the Sacramento River and formed the 
Delta, an extensive system of freshwater and brackish marshes, 
grassland, oak woodland, savannah, chaparral, and riparian habitat rich 
with wildlife. Native Americans built villages and trading posts, and 
early fur traders such as Jedediah Smith trekked into the region in 
search of otter, mink and beaver.
    Then, gold seekers on their way from San Francisco to the gold 
fields in the Sierra Nevada recognized the fertility of the Delta's 
soils. Beginning in the 1880s, with significant contributions from 
Chinese, Japanese, Filipino, East Indian, Portuguese and Italian 
immigrants, and the development of innovative equipment, one of the 
largest scale reclamation projects in the United States converted the 
vast marshes into the landscape that characterizes the Delta today.
    The Delta is the lynchpin of a vast watershed, linking waterways 
originating in the Cascade, Coastal and Sierra Nevada mountain ranges 
with the San Francisco Bay and the Pacific Ocean. While the Delta today 
is predominantly agricultural, it also encompasses diverse habitats--
intertidal, non-tidal, and seasonal wetlands, rivers, sloughs, riparian 
woodland, scrub, grasslands, floodplains--that support hundreds of 
species of flora and fauna. The Delta is a key stopover on the Pacific 
Flyway and an important anadromous fish corridor.
    The Delta's heritage values are inextricably linked to its economic 
activities. As one of the most productive agricultural regions in the 
country, the Delta irrigates over seven million acres of the State's 
farmland, contributes billions of dollars to the California economy, 
and exports crops throughout the world. The Delta also supplies two-
thirds of California's residents with drinking water.
    Recreation and tourism are also important economic drivers, and a 
Delta National Heritage area has the potential to increase access to 
many resource-based recreational opportunities, such as boating and 
fishing, both for regional residents and large, nearby, urban 
populations in the San Francisco Bay area and Great Central Valley. 
Opportunities to watch wildlife are abundant on the Delta's quiet 
waterways, and many influential artists reside in the Delta, attracted 
by the slower pace of life. Planning for the Great Delta Trail is 
underway, and agritourism projects and programs--local markets, farm 
stays, and wineries--are springing up to showcase and share the 
region's agricultural traditions.
    A Feasibility Study for a Sacramento-San Joaquin Delta National 
Heritage Area was completed and published by the Delta Protection 
Commission in July 2012. The National Park Service conducted a review 
of the Commission's study for consistency with the interim National 
Heritage Area Feasibility Study Guidelines, found that it meets these 
criteria, and informed the Delta Protection Commission of this finding 
in a letter dated July 11, 2012.
    The mission for the Delta National Heritage Area would be to 
recognize, enhance and promote ``Delta as Place'' to help cultivate and 
retain appreciation and understanding of the Delta as an ecological, 
agricultural, recreational, historical and cultural treasure. According 
to the feasibility study, ``The center of the Delta's story is that of 
a young nation encouraging the reclamation of swampland to create some 
of the world's most productive farmlands in the center of California, 
from which spawned innovations, technologies, and infrastructure unique 
to the development of the State, as well as other parts of the nation 
and world.''
    The proposed National Heritage Area would promote a wide range of 
partnerships among governments, organizations and individuals to 
educate the public about ``Delta as Place'' and build more support for 
its preservation, protection and enhancement. It would support economic 
development by drawing visitors to designated partner sites and other 
recreation and visitor facilities. It would promote heritage tourism, 
ecotourism, and agri-tourism consistent with existing activities, 
infrastructure, and land uses in the Delta. As the proposed management 
entity for a Delta heritage area, the Delta Protection Commission is 
already working to establish partnerships and to further projects in 
the region compatible with a national heritage area, such as a 
historical resources and recreation inventories, development of the 
Great California Delta Trail, and a Delta narratives project. Through 
partnerships and community engagement it has the 3 potential to connect 
and unite citizens in the conservation and increased resilience of the 
natural, historic, scenic and cultural resources of the Delta, while 
sustaining the area's economic vitality.
    If the committee decides to act on S. 228, we recommend that the 
bill be amended to address the following matters: 1) to change the 
bill's map reference to a map that is fully consistent with the 
feasibility study boundary recommendation; 2) to change ``management 
entity'' to ``local coordinating entity'' throughout the bill; and 3) 
to make the bill language more consistent with other National Heritage 
Area legislation enacted most recently.

                               ON S. 285

    1Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 285, to designate the Valles Caldera National 
Preserve as a unit of the National Park System, and for other purposes. 
The Department supports S. 285 with an amendment described later in 
this statement. The Valles Caldera National Preserve (Preserve) has 
been found to meet the National Park Service's criteria for inclusion 
in the National Park System, and this legislation would provide a 
feasible plan for transferring management responsibility for the 
Preserve from the Valles Caldera Trust (Trust) to the National Park 
Service.
    S. 285 would designate the Valles Caldera National Preserve in New 
Mexico as a unit of the National Park System and would transfer 
administrative jurisdiction of the Preserve to the Secretary of the 
Interior (Secretary) for administration by the National Park Service 
(NPS). The bill would terminate the Trust 180 days after enactment 
unless the Secretary determines that the termination date should be 
extended to facilitate the transitional management of the Preserve. All 
assets and liabilities of the Trust would be transferred to the 
Secretary. The bill would also authorize the Secretary to coordinate 
management and operations of the Preserve with Bandelier National 
Monument and produce a management plan no later than three fiscal years 
after funds are made available. If S. 285 is enacted, we look forward 
to working with the Trust, the Secretary of Agriculture, Indian Tribes 
and Pueblos, State and local governments, and the public to develop a 
management plan and capitalize on the proximity of Bandelier National 
Monument for efficiency of operations, while applying Service First 
principles of sharing resources as appropriate with the surrounding 
Santa Fe National Forest.
    S. 285 would authorize grazing, hunting, and fishing to continue 
within the Preserve. It would also require the Secretary to ensure the 
protection of traditional cultural and religious sites, including 
providing tribal access to the sites and temporarily closing specific 
areas of the Preserve to protect traditional uses, in accordance with 
applicable law. The NPS has a long history of consultation with Native 
Americans in the preservation and continuation of traditional 
practices.
    Finally, S. 285 would require that eligible Trust employees be 
retained for at least 180 days from the date of enactment. The 
Secretary and the Secretary of Agriculture would be authorized to hire 
Trust employees on a noncompetitive basis for comparable positions at 
the Preserve or other areas or offices under the jurisdiction of the 
two Secretaries.
    The Valles Caldera National Preserve is an 88,900 acre unit of the 
National Forest System located in the Jemez Mountains of north central 
New Mexico. The Preserve was established by Public Law 106-248, the 
Valles Caldera Preservation Act of 2000, and is managed by the Valles 
Caldera Trust, a wholly owned government corporation established under 
the Act. The Trust is charged with mixing elements of both private and 
public administration while working to achieve resource protection, 
public enjoyment, and financial self sufficiency goals. The Valles 
Caldera is considered to be one of the world's best intact examples of 
a resurgent caldera (the remains of a huge and ancient volcano with a 
prominent uplift at its center, in this case present-day Redondo Peak) 
and is of sufficient size and configuration to allow for long-term 
sustainable resource protection and visitor enjoyment. The geologic 
features of the Preserve retain a high degree of integrity and the 
Preserve's unique setting of expansive grasslands and montane forests 
provides outstanding scenic values and an array of opportunities for 
public recreation, reflection, education, and scientific study. The 
Preserve also would expand and enhance the diversity of volcanic sites 
represented within the National Park System.
    The national significance of the geological resources of the Valles 
Caldera was formally recognized in 1975 when the area was designated a 
National Natural Landmark. Moreover, Valles Caldera offers the 
opportunity to illustrate the connection of human history in the region 
that is showcased at Bandelier National Monument with the geologic 
history that shaped the surrounding mesa and canyon landscape.
    As early as 1899, the area around Valles Caldera was studied for 
national park designation, and the resulting report proposed that 
153,620 acres be set aside for ``Pajarito National Park.'' A portion of 
this area later became Bandelier National Monument, established in 
1906. Additionally, the Valles Caldera was the subject of site 
investigations and new area studies that were completed by the NPS in 
1939, 1964, 1977, and 1979. An Update Report on the NPS 1979 New Area 
Study was completed by the NPS in December 2009, at the request of 
Senator Tom Udall and former Senator Jeff Bingaman. All of these 
studies found that the Valles Caldera was nationally significant, 
suitable and feasible for designation as a unit of the National Park 
System, and the 2009 Update Report reaffirmed the results of the prior 
studies.
    Under S. 285, Valles Caldera would be managed in accordance with 
the 1916 Organic Act and other Acts that have guided the NPS for nearly 
one hundred years ``to provide for the enjoyment of the same in such 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations'', with recognition that the bill 
allows for continued, sustainable grazing, hunting, and fishing. The 
NPS has experience with these activities in our other nineteen 
designated preserves.
    Based on current expenses for Valles Caldera and the cost to 
operate park units comparable in size and assets, we anticipate the 
annual cost to operate and manage the park would be approximately $22 
million for developmental costs and $4 million for annual operational 
costs, although more complete cost estimates would be developed through 
the general management plan. In addition, our 2009 Update Report 
identifies five parcels of private property within the proposed park 
boundaries, totaling 40 acres. Although appraisals have not been 
completed, the expected costs to acquire this private property and any 
transfer costs are not expected to be great. Funds would be subject to 
the availability of appropriations and NPS priorities.
    We recommend that the bill be amended to reference a map, which 
would provide certainty about the boundary and make the bill consistent 
with most other laws and pending bills designating new units of the 
National Park System. The NPS would be pleased to provide the committee 
with language for that amendment.

                               ON S. 305

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 305, a bill to authorize the acquisition of core battlefield land at 
Champion Hill, Port Gibson, and Raymond for addition to Vicksburg 
National Military Park.
    The Department supports S. 305 with a technical amendment, which is 
attached to this statement. This bill would enable the National Park 
Service to add three separate battlefield sites to Vicksburg National 
Military Park, which would each make significant contributions to 
telling the story of the remarkable campaign that resulted in the Union 
Army's capture of the city of Vicksburg during the Civil War.
    The battlefields at Champion Hill, Port Gibson, and Raymond are 
sites of military engagement associated with the 1863 Vicksburg 
Campaign. The campaign was a major milestone on the road that led to 
the final success of the Union army in the war and the ultimate 
reunification of the nation. The strategies and tactics of Major 
General Ulysses S. Grant during the campaign continue to be studied by 
modern military leaders as examples of excellence in generalship.
    The proposed addition of campaign battlefields to Vicksburg 
National Military Park is based on the study authorized by Public Law 
106-487, the Vicksburg Campaign Trail Battlefields Preservation Act. 
That law directed the Secretary of the Interior to complete a study to 
determine what measures should be taken to preserve Civil War 
battlefields along the Vicksburg Campaign Trail. The Vicksburg Campaign 
Trail Feasibility Study, transmitted to Congress in 2006, identified 
Champion Hill, Port Gibson, and Raymond as ``Tier 1'' sites, placing 
them among the 19 highest-ranked resources out of the more than 500 
Vicksburg Campaign-related resources evaluated by the study. The study 
recommended Champion Hill and Port Gibson for addition to the National 
Park System. Raymond was viewed as adequately protected by the Friends 
of Raymond, a local non-profit group.
    All three battlefields continue to exhibit a very high degree of 
historical integrity. Most essential features remain intact, and modern 
intrusions are limited. Acquisition of the battlefields would allow the 
National Park Service to ensure long-term preservation of the cultural 
landscape and other cultural resources, and to better interpret the 
stories of the Vicksburg Campaign. The renewed public interest in the 
need to protect Civil War battlefields that is being generated by Civil 
War Sesquicentennial activities makes this legislation particularly 
timely. In addition, this legislation would advance the vision of 
safeguarding our historic and cultural heritage that the President 
committed to through the America's Great Outdoors Initiative.
    The battlefield at Port Gibson marks the first engagement of 
Grant's operations against Vicksburg after his army landed on 
Mississippi soil. After a day of battle, the Confederate army left the 
field and Grant secured his beachhead. The proposed boundary at Port 
Gibson encompasses about 3,810 acres. The State of Mississippi owns 14 
acres in fee, and holds a preservation easement on 609 acres. The 
historic Schaifer House, a Civil War-era home, is extant on the 
property owned by the state. Many roads within the battlefield remain 
very similar in appearance to the mid-19th century and provide a strong 
sense of how Civil War troops moved.
    Eleven days after the battle at Port Gibson, the Union and 
Confederate armies met again on the field at Raymond. After a day of 
heavy fighting, Federal forces again prevailed and General Pemberton's 
troops withdrew to Jackson. The proposed boundary at Raymond 
encompasses about 1,520 acres. The Friends of Raymond owns 140 acres of 
this land in fee, and holds a preservation easement on an additional 6 
acres. The battlefield remains largely pristine, and holds high 
potential for interpretation.
    Following the battle at Raymond and the subsequent occupation of 
Jackson, General Grant turned his army towards the west. On May 16, 
Union and Confederate forces met again, this time at Champion Hill. The 
battle was the largest, bloodiest, and most decisive engagement of the 
Vicksburg Campaign. By the end of the day, the Confederates were in 
full retreat towards Vicksburg. The proposed boundary at Champion Hill 
includes approximately 6,350 acres. The State owns 836 acres in fee, 
and holds a preservation easement on an additional 558 acres. The Civil 
War Trust also owns 60 acres in fee. The historic Coker House, a Civil 
War-era home, is extant on the property owned by the State.
    In total, S. 305 authorizes the addition of up to 11,680 acres to 
Vicksburg National Military Park. The State of Mississippi, Civil War 
Trust, and Friends of Raymond cumulatively own about 1,050 acres in 
fee, and hold preservation easements on about 1,172 acres of land. Each 
of these entities has expressed the desire to transfer its interests to 
the National Park Service. Acquisition costs for these properties would 
be nominal, since they would be donated. Based on current assessed 
property values, the acquisition costs for other lands in these areas 
are expected to average between $1,700 and $3,000 per acre (depending 
on the presence, if any, of marketable timber), totaling approximately 
$16 million to $28 million, for acquisition in fee. The National Park 
Service would also seek to protect land through less costly means, such 
as conservation easements. Additional management planning involving 
public participation would be necessary to best determine the level of 
facilities needed to serve the visiting public and to identify 
important battlefield protection strategies for these new lands. The 
capital investment needed to support infrastructure and recurring 
operational costs, consequently, have not been defined in detail. In 
gross terms, annual operational costs have been estimated at $1 million 
to $1.5 million.
    Under S. 305, the properties identified for potential acquisition 
by the National Park Service would not be added to the boundary of, or 
managed as part of, Vicksburg National Military Park unless and until 
they are actually acquired.
    S. 305 enjoys strong local and national support. Mississippi 
Governor Phil Bryant and leadership at the Mississippi Department of 
Archives and History are on record as supporting the transfer of state 
lands to the National Park Service. The Civil War Trust and Friends of 
Raymond have expressed support for the legislation, as have elected 
officials and community leaders in Hinds and Claiborne Counties and the 
communities of Raymond and Port Gibson. This bill would help guarantee 
the preservation, protection, restoration, and interpretation of these 
important lands for current and future generations.

Proposed amendment to S. 305, Vicksburg National Military Park 
        Battlefield Additions
    On page 2, line 7: Strike ``October 2010'' and insert ``July 
2012''.
    Explanation.--This amendment substitutes a revised map of the three 
battlefield areas that would be eligible for acquisition by the 
National Park Service. The new map is substantively identical to the 
map referenced in the bill as introduced, but it shows more detail 
(i.e., more roads, public land survey lines) in order to provide more 
certainty about the lands that could potentially be acquired under this 
legislation.

                               ON S. 349

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 349, 
a bill to amend the Wild and Scenic Rivers Act to designate a segment 
of the Beaver, Chipuxet, Queen, Wood, and Pawcatuck Rivers in the 
States of Connecticut and Rhode Island for study for potential addition 
to the National Wild and Scenic Rivers System.
    The Department supports enactment of S. 349. The river segments and 
tributary areas proposed for study, which comprise the Wood-Pawtucket 
Watershed, exhibit the types of qualities and resource values that 
would make it a worthy and important candidate for potential addition 
to the National Wild and Scenic Rivers System. However, we feel that 
priority should be given to the 31 previously authorized studies for 
potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic Rivers System that have not yet been 
transmitted to Congress.
    S. 349 directs the Secretary of the Interior to study named 
segments of the Pawcatuck, Beaver, Chipuxet, Queen and Wood Rivers. The 
bill also specifies that the headwaters segments of the Wood and Queen 
Rivers include all tributaries, ensuring that virtually the entire 
Wood-Pawtucket Watershed is assessed. The bill requires the study to be 
completed and transmitted to Congress within three years after funding 
is made available for it.
    Several segments of the Pawcatuck, Wood and Chipuxet Rivers are 
listed on the Nationwide Rivers Inventory (NRI) as potential candidates 
for Wild and Scenic River designation. These NRI-listed segments were 
the focus of a 1980s planning and conservation study undertaken through 
the National Park Service's Rivers and Trails Conservation Assistance 
program, which concluded in part, ``The Wood and Pawcatuck Rivers 
corridor is Rhode Island's least developed and most rural river system. 
Its waters are the cleanest and purest and its recreational 
opportunities are unparalleled by any other river system in the 
state.'' The Queen and Beaver Rivers have been recognized for their 
pristine headwaters nature, critical to the high water quality and 
biological diversity of the upper Pawcatuck, and have been the focus of 
significant conservation efforts by the Nature Conservancy and Rhode 
Island Audubon Society, among others. In 2004, the legislatively-
established Rhode Island Rivers Council classified the Wood-Pawcatuck 
watershed as ``Rhode Island's premier freshwater recreational 
resource.''
    If enacted, the National Park Service intends to undertake the 
study in close cooperation with the affected communities, the relevant 
agencies of the states of Rhode Island and Connecticut, and interest 
groups such the Wood-Pawcatuck Watershed Association through a 
partnership-based study approach. This is the approach that has been 
used since the 1980s for studies of rivers located in New England and 
other parts of the Northeast Region. The partnership-based approach is 
recognized in Section 10(e) of the Wild and Scenic Rivers Act as a 
means of encouraging state and local governmental participation in the 
administration of a component of the National Wild and Scenic Rivers 
System. The partnership-based approach also allows for development of a 
proposed river management plan as part of the study, which helps 
landowners and local jurisdictions understand their potential future 
roles in river management should Congress decide to designate part or 
all of the rivers being studied.

                               ON S. 371

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 371, a bill to establish the Blackstone River Valley National 
Historical Park, to dedicate the Park to John H. Chafee, and for other 
purposes.
    The Department supports S. 371.
    S. 371 would establish a new unit of the National Park System, the 
Blackstone River Valley National Historical Park (Park) within the 
existing, bi-state, Blackstone River Valley National Heritage Corridor 
(Corridor) that extends from Worcester, Massachusetts, to Providence, 
Rhode Island. The bill directs the Secretary of the Interior 
(Secretary) to establish a park boundary after acquiring a sufficient 
amount of land or interests in land containing the historic resources 
to constitute a manageable park unit. The bill allows the Secretary to 
include in the boundary resources that are subject to a cooperative 
agreement with either of the two states or their political 
subdivisions. It authorizes the Secretary to enter into cooperative 
agreements with nonprofit organizations, including the coordinating 
entity for the Corridor, as well as state and local governments, for 
the purpose of collaborating on programs, projects, and activities that 
further the purposes of the Park. It also permits the acquisition of up 
to 10 acres in Woonsocket, Rhode Island for the development of 
facilities for the Park.
    The bill directs the Secretary to complete a General Management 
Plan for the Park within three years after funds are made available. 
Among other things, the plan must seek to make maximum practicable use 
of certain named visitor facilities in the Corridor that are operated 
by Corridor partners, many of which were developed with significant 
investment of federal funds. The bill also allows the Secretary to 
provide technical assistance, visitor services, interpretive tours and 
educational programs to sites outside the boundary of the Park that are 
within the Corridor. And, the bill dedicates the Park to former Senator 
John H. Chafee and requires the Secretary to display an appropriate 
memorial to him.
    Finally, the bill amends the authorization for the John H. Chafee 
Blackstone River Valley National Heritage Corridor to provide for a 
non-profit organization, the Blackstone River Valley National Heritage 
Corridor, Inc., to be the local coordinating entity for the Corridor. 
This entity would assume the responsibility for coordinating activities 
for the Corridor that have rested with the Blackstone River Valley 
Heritage Corridor Commission since the National Heritage Area was first 
established. The new coordinating entity would be eligible to receive 
National Heritage Area funding for through the end of fiscal 2016.
    S. 371 reflects the findings of the special resource study that the 
National Park Service (NPS) completed in accordance with Public Law 
109-338, which directed the NPS to conduct the study to ``evaluate the 
possibility of (A) designating one or more sites or landscape features 
as a unit of the National Park System; and (B) coordinating and 
complementing actions by the [Corridor] Commission, local governments, 
and State and Federal agencies, in the preservation and interpretation 
of significant resources within the Corridor.'' The NPS consulted with 
Native American tribes associated with the Blackstone River Valley in 
the preparation of the study.
    The study evaluated a broad range of sites, features and resources 
throughout the Blackstone River Valley and concluded that the following 
meet the criteria for designation as a unit of the National Park 
System: Old Slater Mill National Historic Landmark district in 
Pawtucket, Rhode Island, the historic mill villages of Ashton and 
Slatersville in Rhode Island, and Hopedale and Whitinsville in 
Massachusetts; the Blackstone River and its tributaries; and the 
Blackstone Canal. The study also evaluated various management 
alternatives with different scopes and levels of NPS involvement. The 
preferred alternative was a new unit of the National Park System that 
consists of these sites and features, and that would partner with the 
coordinating entity for the Corridor and others to undertake the 
protection and interpretation of these resources.
    If established based upon the management alternative recommended in 
the study, we estimate that the cost to create the Park would be $6.1 
million in one-time expenditures on research, planning, construction 
and/or rehabilitation, and exhibits. When the Park is fully 
established, operational costs are estimated to be $3.5 million 
annually for salaries, supplies and equipment. All funds would be 
subject to NPS priorities and the availability of appropriations.
    We would like to thank the sponsor, Senator Reed, and the committee 
for working with us in making changes to last Congress' version of this 
legislation. We appreciate that this legislation now includes a 
matching requirement for the expenditure of Federal funds under 
cooperative agreements, authority to acquire land for administrative 
purposes in Woonsocket, where the NPS currently has office space, and 
an appropriate recognition for Senator John H. Chafee's role in 
preserving the resources of the Blackstone River Valley that does not 
set a precedent in naming the park for a congressional sponsor, as the 
previous version would have done.

                               ON S. 476

    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 476, a bill that would amend the Chesapeake and Ohio Canal 
Development Act to extend the authority of the Chesapeake and Ohio 
Canal National Historical Park Commission.
    The Department supports S. 476. The establishment of the Chesapeake 
and Ohio Canal National Historical Park Commission (Commission) on 
January 8, 1971, stemmed in part from the unique nature of the canal. 
It is unlike most areas administered by the National Park Service as it 
is a linear park running along a 185-mile stretch of river shoreline 
and is flanked by the nation's capital, suburban communities, and 
numerous small towns.
    S. 476 would change the termination date of the Commission from 40 
years to 50 years after the effective date of January 8, 1971. The 
Commission's authority to operate terminated on January 8, 2011. S. 476 
would extend the authority to operate to January 8, 2021.
    The Chesapeake and Ohio Canal, begun in 1828 and completed in 1850, 
runs continuously 185 miles from Georgetown in the District of Columbia 
through Maryland and West Virginia to Cumberland in Maryland. 
Originally planned to link Washington, D.C., and Pittsburgh, 
Pennsylvania, as part of this nation's canal-building era, the canal 
was constructed to be a major commercial route. While the canal 
operated until 1924 when it was abandoned, competition from the newly 
constructed railroad and the National Road resulted in much less 
commercial success than its builders had hoped. In 1938, the United 
States purchased the narrow canal right-of-way from Georgetown to 
Cumberland, Maryland, and partially restored the lower end of the 
canal.
    In 1961, the C & O Canal Monument was created by Presidential 
Proclamation No. 3391 but no funding was provided to develop the area 
or acquire adjacent lands. A proposal to construct a highway along the 
canal's route met considerable public opposition led by U.S. Supreme 
Court Justice William O. Douglas. His support for preserving the canal 
ultimately led to the establishment of the Chesapeake and Ohio Canal 
National Historical Park, running the length of the original canal.
    When the park was established in 1971, the Chesapeake and Ohio 
Canal National Historical Park Commission was created. The 19-member 
Commission served to link the various jurisdictions along the length of 
the park. Under the 1971 legislation, the Secretary of the Interior or 
designee was directed to meet and consult with the Commission at least 
annually on general policies and specific matters related to the 
administration and development of the park.
    The Commission performed a valuable service during its first 40 
years in advising and assisting the National Park Service in the 
administration and development of the park. In the early years, the 
Commission served as the vehicle for public meetings in the development 
of the park's general plan and several site-specific development 
concept plans. In the years since, the Commission has served as the 
public forum for discussing implementation of plans along the 185 miles 
of the park.
    The Commission represented not only the local park neighbors, but 
the national constituency as well. Many Commission members had a 
lifelong interest in the C & O Canal and the National Park Service. The 
Commission met quarterly and Commission members were only compensated 
for reimbursement of actual expenses for meetings. Individual members 
of the Commission served on various volunteer groups and participated 
in park-sponsored events throughout the year. The commissioners 
communicated directly with the park superintendent during meetings and 
individually throughout the year regarding park issues.
    The need for the Commission continues because the park is spread 
across 19 political jurisdictions. The Commission assisted park staff 
in reaching out to these numerous constituencies and ensuring that all 
their views were heard. As the work of managing C & O Canal National 
Historical Park continues, the public connection to park management 
through the Commission should continue as well. We understand that the 
appointments for the existing commissioners have expired. If enacted, 
the Secretary would appoint or reappoint commissioners in accordance 
with the Act.

                               ON S. 486

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 486, a bill entitled ``to authorize pedestrian 
and motorized vehicular access in Cape Hatteras National Seashore 
Recreational Area, and for other purposes.''
    The Department strongly opposes S. 486. This bill would reinstate 
the 2007 Interim Protected Species Management Strategy (Interim 
Strategy) governing off-road vehicle (ORV) use at Cape Hatteras 
National Seashore (Seashore).
    The Department supports allowing appropriate public use and access 
at the Seashore to the greatest extent possible, while also ensuring 
protection for the Seashore's wildlife and providing a variety of 
visitor use experiences, minimizing conflicts among various users, and 
promoting the safety of all visitors. We strongly believe that the 
final ORV Management Plan / Environmental Impact Statement (EIS) and 
special regulation are accomplishing these objectives far better than 
the defunct Interim Strategy. Contrary to some reports, there is not 
now and never has been a ban on ORVs at the Seashore. The great 
majority of the beach is open to ORVs, visitation is rising, and 
tourist revenues are at record levels. At the same time, beach-nesting 
birds and sea turtles are finally showing much-needed improvements.
    The Seashore stretches for about 67 miles along three islands of 
the Outer Banks of North Carolina. It is famous for its soft sandy 
beaches, outstanding natural beauty, and dynamic coastal processes that 
create important habitats, including breeding sites for many species of 
beach-nesting birds, among them the federally listed threatened piping 
plover, the state-listed threatened gull-billed tern, and a number of 
species of concern including the common tern, least tern, black 
skimmer, and the American oystercatcher. Long a popular recreation 
destination, Cape Hatteras attracts about 2.3 million visitors a year 
who come to walk the beach, swim, sail, fish, use ORVs, and enjoy the 
ambiance of the shore. In the towns that dot the Outer Banks, a major 
tourism industry has developed to serve visitors and local beachgoers, 
including fishermen. In 2011, visitors to the three islands spent 
approximately $121 million (an increase of $13 million from 2010), and 
supported about 1,700 jobs.
    Under the National Park Service Organic Act, the Endangered Species 
Act, the Migratory Bird Treaty Act, the Seashore's enabling act, and 
National Park Service (NPS) regulations and policies, the NPS has an 
affirmative responsibility to conserve and protect wildlife, as well as 
the other resources and values of the Seashore. Executive Order 11644 
(1972), amended by Executive Order 11989 (1977), requires the NPS to 
issue regulations to designate specific trails and areas for ORV use 
based upon resource protection, visitor safety, and minimization of 
conflicts among uses of agency lands.
    The special regulation that went into effect on February 15, 2012, 
brings the Seashore into compliance with applicable laws, policies, and 
Executive Orders after many years of non-compliance. In addition to 
resource impacts, the approved plan addresses past inconsistent 
management of ORV use, user conflicts, and safety concerns in a 
comprehensive and consistent manner.
    The Interim Strategy was never intended to be in place over the 
long-term. When it was developed, the Seashore had no consistent 
approach to species protection and no ORV management plan or special 
regulation in place. While the Interim Strategy took an initial step 
toward establishing a science-based approach, key elements such as 
buffer distances for American oystercatchers and colonial waterbirds, 
and the lack of night driving restrictions during sea turtle nesting 
season, were inconsistent with the best available science. The 2006 
U.S. Fish and Wildlife Service (USFWS) biological opinion for the 
Interim Strategy indicated that it would cause adverse effects to 
federally listed species, but found no jeopardy to those species mainly 
because of the limited duration of implementation (expected to be no 
later than the end of 2009). Similarly, the 2007 NPS Finding of No 
Significant Impact (FONSI) for the Interim Strategy indicated the 
action had the potential to adversely impact federally listed species 
and state-listed species of concern, but found that a more detailed 
analysis (an EIS) was not needed because of the limited period of time 
that the Interim Strategy would be implemented.
    After a lawsuit was filed against the Interim Strategy, a federal 
judge entered a Consent Decree for park management. The species-
specific buffer distances and the night driving restrictions contained 
in both the Consent Decree and in the plan/EIS are based on scientific 
studies and peer-reviewed management guidelines such as the USFWS 
Piping Plover and Loggerhead Turtle Recovery Plans, and the U.S. 
Geological Survey (USGS) Open-File Report 2009-1262 (also referred to 
as the ``USGS protocols,'') on the management of species of special 
concern at the Seashore. Buffer distances for state-listed species are 
based on relevant scientific studies recommended by the North Carolina 
Wildlife Resources Commission, USFWS, and USGS.
    Under the science-based species protection measures of the Consent 
Decree, many of which are incorporated into the ORV management plan and 
special regulation, a trend of improving conditions for beach nesting 
birds and sea turtles has emerged. Although breeding success depends on 
a number of factors including weather, predation, habitat availability, 
and level of human disturbance, there has been a striking improvement 
in the condition of protected beach-nesting wildlife species. The 
Seashore has experienced a record number of piping plover pairs and 
fledged chicks, American oystercatcher fledged chicks, least tern 
nests, and improved nesting results for other species of colonial 
waterbirds. The number of piping plover breeding pairs has increased 
from an annual average of 3.6 pairs from 2000 to 2007 under the Interim 
Strategy to an average of 11.75 pairs between 2008 and 2011 under the 
Consent Decree. In 2012, the NPS documented 15 piping plover breeding 
pairs. The number of sea turtle nests also significantly increased, 
from an annual average of 77.3 from 2000 to 2007 to an average of 129 
from 2008 to 2011. In 2012, sea turtle nesting in the Seashore climbed 
to an all-time high of 222.
    Although the prescribed buffers have resulted in temporary closures 
of some popular locations when breeding activity was occurring, even at 
the peak of the breeding season there have generally been many miles of 
open beach entirely unaffected by the species protection measures. 
Under the Consent Decree from 2007 to 2011, annual visitation at the 
Seashore continued at a level similar to that of 2006 to 2007. In 2012, 
visitation increased 17 percent from 2011, and it was a 6 percent 
increase from the average visitation between 2007 and 2011. Dare 
County, where the Seashore is located, experienced record occupancy and 
meal revenues in 2012, as reported by the Outer Banks Visitor Bureau, 
despite the impacts of Hurricane Sandy that closed or substantially 
limited traffic along North Carolina Highway 12 to Hatteras Island from 
late October to late December 2012. This occupancy revenue has 
continued to climb over the last several years as follows: 2009 ($318 
million), 2012 ($330 million), 2011 ($343 million), 2012 ($382 million 
through the end of November) while meals revenue has also increased as 
follows: 2009 ($185 million), 2010 ($188 million), 2011 ($191 million), 
and 2012 ($201 million though the end of November).
    The final ORV management plan and regulation provide long-term 
guidance for the management of ORV use and the protection of affected 
wildlife species at the Seashore. The plan not only provides diverse 
visitor experience opportunities, manages ORV use in a manner 
appropriate to a unit of the National Park System, and provides a 
science-based approach to the conservation of protected wildlife 
species, but also adapts to changing conditions over the life-span of 
the plan. It includes a five-year periodic review process that will 
enable the NPS to systematically evaluate the plan's effectiveness and 
make any necessary changes.
    During the preparation of the environmental impact statement (EIS) 
for the management plan, the NPS evaluated the potential environmental 
impacts of long-term implementation of the Interim Strategy. The 
analysis determined that if the Interim Strategy were continued into 
the future, it would result in long-term, moderate to major adverse 
impacts to piping plovers, American oystercatchers, and colonial 
waterbirds, as well as long-term, major adverse impacts to sea turtles. 
Impacts to sea turtles and three species of colonial waterbirds had the 
potential to rise to the level of ``impairment,'' which would violate 
the National Park Service Organic Act.
    Moreover, if the Interim Strategy were to be reinstated, it could 
well be counterproductive to visitor access. Under the Interim 
Strategy, popular destinations such as Cape Point and the inlet spits 
still experienced resource protection closures. Several of the beach-
nesting bird species at the Seashore may renest several times during 
the same season if eggs or very young chicks are lost, which is more 
likely when there is a higher level of human disturbance in proximity 
to nests and chicks. Under the Consent Decree, with its science-based 
buffers, there has been a noticeable reduction in the number of these 
renesting attempts for piping plovers and American oystercatchers, 
which means the duration of closures is typically shorter. Because the 
Interim Strategy allows smaller buffers and more disturbance of nests 
and chicks at these key sites, it increases the likelihood that birds 
will renest one or more time at those sites, and so even though the 
closures may seem smaller, they may be in place for a longer time than 
under the ORV plan or Consent Decree. This is even more likely to be 
the case now, because the number of nesting birds has increased 
significantly since 2007.
    The Seashore has taken steps to enhance access in areas favored by 
beach fishermen. Specifically, a bypass below Ramp 44 allows ORV access 
to the eastern side of Cape Point and areas not closed during bird 
breeding season in the event of access blockage on the beach proper, 
whether from weather and tide events or resource closures. At Hatteras 
Inlet, at the end of Hatteras Island, a trail has been created and 
maintained to allow ORV access and the ability to park closer to what 
have traditionally been preferred fishing areas. In the proximity of 
Ramp 4, a pedestrian access trail adjacent to the Oregon Inlet Fishing 
Center to provide access for fishing in the ocean for those visitors 
without ORVs. Also, as a mitigation measure with the building of the 
new Bonner Bridge project, a new access ramp will be installed at 
approximately mile 2.5 that will expedite access to the northern end of 
the park. The Seashore is also in the final stages of completing an 
Environmental Assessment titled ``Proposal to Construct New Development 
that Facilitates Public Access'' which may include additional access 
points to areas that are traditionally closed off due to resource 
closure; these will enhance the fishing/beach driving opportunities.
    In addition to reinstating the Interim Strategy, S. 486 provides 
authority for additional restrictions only for species listed as 
``endangered'' under the Endangered Species Act of 1973, and only for 
the shortest possible time and on the smallest possible portions of the 
Seashore. This would conflict with numerous other laws and mandates 
including the National Park Service Organic Act, the Endangered Species 
Act, the Migratory Bird Treaty Act, the Seashore's enabling act, the 
aforementioned Executive Orders, and NPS regulations implementing these 
laws, which provide for the protection of other migratory bird species 
and other park resources.
    S. 486 also provides that the protection of endangered species at 
Cape Hatteras shall not be greater than the restrictions in effect for 
that species at any other national seashore. Species protection 
measures cannot reasonably be compared from seashore to seashore 
without considering the specific circumstances at each site and the 
context provided by the number and variety of protected species 
involved, the levels of ORV use, and the underlying restrictions 
provided by the respective ORV management plans and special 
regulations. Even though Cape Hatteras has a wider variety of beach 
nesting wildlife species than Cape Cod or Assateague, for example, its 
plan actually allows for a much higher level of ORV use on larger 
portions of the Seashore. It would be neither reasonable nor 
biologically sound for Cape Hatteras to use less protective measures if 
they were designed for a location where the level of ORV use is much 
lower to begin with. Nor does it appear that such an arbitrary approach 
could possibly comply with the ``peer-reviewed science'' requirement 
imposed elsewhere in the bill. The Cape Hatteras plan was specifically 
designed to be effective for the circumstances at Cape Hatteras. The 
bill would require, to the maximum extent possible, that pedestrian and 
vehicle access corridors be provided around closures implemented to 
protect wildlife nesting areas. This concept was thoroughly considered 
during the preparation of the plan and EIS. The plan already allows for 
such access corridors when not in conflict with species protection 
measures. For example, under the current regulation, the Seashore works 
with the communities and has the ability to allow access around a 
turtle nest when the alternative route is between the nest and dunes 
but does not cause impairment to the existing dunes/vegetation.
    Shorebird nesting areas are often close to the shoreline because of 
the Seashore's typically narrow beaches. A concentration of nests occur 
near the inlets and Cape Point, and access corridors cannot always be 
allowed without defeating the fundamental purpose of such closures: 
protecting wildlife. Several species of shorebirds that nest at the 
Seashore have highly mobile chicks, which can move considerable 
distances from nests to foraging sites. Inadequate resource closures in 
the past have resulted in documented cases of human-caused loss or 
abandonment of nests and chick fatalities. Corridors that cut through a 
resource closure area would essentially undermine the function of the 
closure and render it compromised or even useless.
    Finally, the final ORV management plan/EIS and special regulation 
are the products of an intensive five-year long planning process that 
included a high level of public participation through both the National 
Environmental Policy Act (NEPA) process and negotiated rulemaking, 
including four rounds of public comment opportunities. The Negotiated 
Rulemaking Advisory Committee's function was to assist directly in the 
development of special regulations for management of ORVs and met from 
2007 to 2009. Although the committee did not reach consensus on a 
proposed regulation, it provided a valuable forum for the discussion of 
ORV management and generated useful information for the NPS. The NPS 
received more than 15,000 individual comments on the draft plan/EIS and 
more than 21,000 individual comments on the proposed special 
regulation. In completing the final ORV management plan/EIS and special 
regulation, the NPS considered all comments, weighed competing 
interests and ensured compliance with all applicable laws.
    Currently, the ORV management plan/EIS and special regulation are 
the subject of a complaint that was filed by a coalition of ORV 
organizations with the US District Court in the District of Columbia on 
February 9, 2012. The Memorandum of Order to transfer the complaint to 
the US District Court of North Carolina was issued on December 23, 
2012.

                               ON S. 507

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 507, a bill to establish the 
Manhattan Project National Historical Park in Oak Ridge, Tennessee, Los 
Alamos, New Mexico, and Hanford, Washington, and for other purposes.
    The Administration supports S. 507. The development of the atomic 
bomb through the Manhattan Project was one of the most transformative 
events in our nation's history: it ushered in the atomic age, changed 
the role of the United States in the world community, and set the stage 
for the Cold War. This legislation would enable the National Park 
Service to work in partnership with the Department of Energy to ensure 
the preservation of key resources associated with the Manhattan Project 
and to increase public awareness and understanding of this 
consequential effort.
    S. 507 would require the establishment of the Manhattan Project 
National Historical Park as a unit of the National Park System within 
one year of enactment, during which time the Secretary of the Interior 
and the Secretary of Energy would enter into an agreement on the 
respective roles of the two departments. The unit would consist of 
facilities and areas located in Oak Ridge, Los Alamos, and Hanford, as 
identified in the bill and determined by the Secretary of the Interior 
in consultation with the Secretary of Energy, except for the B Reactor 
National Historic Landmark in Hanford, which would be required to be 
included in the park. The National Historical Park would be established 
by the Secretary of the Interior by publication of a Federal Register 
notice within 30 days after the agreement is made between the two 
secretaries.
    The bill would provide authority for the Secretary of the Interior 
to acquire the named resources in Oak Ridge, Los Alamos, and Hanford. 
It would also allow the Secretary to acquire land in the vicinity of 
the park for visitor and administrative facilities. The bill would 
provide authority for the Secretary of the Interior to enter into 
agreements with other Federal agencies to provide public access to, and 
management, interpretation, and historic preservation of, historically 
significant resources associated with the Manhattan Project; to provide 
technical assistance for Manhattan Project resources not included 
within the park; and to enter into cooperative agreements and accept 
donations related to park purposes. Additionally, it would allow the 
Secretary of the Interior to accept donations or enter into agreements 
to provide visitor services and administrative facilities within 
reasonable proximity to the park. The Secretary of Energy would be 
authorized to accept donations to help preserve and provide access to 
Manhattan Project resources.
    S. 507 is based on the recommendations developed through the 
special resource study for the Manhattan Project Sites that was 
authorized by Congress in 2004 and transmitted to Congress in July 
2011. The study, which was conducted by the National Park Service in 
consultation with the Department of Energy, determined that resources 
at Oak Ridge, Los Alamos, and Hanford, met the National Park Service's 
criteria of national significance, suitability, feasibility, and the 
need for Federal management for designation as a unit of the National 
Park System. S. 507 assigns the respective roles and responsibilities 
of the National Park Service and the Department of Energy as envisioned 
in the study; the National Park Service would use its expertise in the 
areas of interpretation and education to increase public awareness and 
understanding of the story, while the Department of Energy would retain 
full responsibility for operations, maintenance, safe access, and 
preservation of historic Manhattan Project properties already under its 
jurisdiction, along with full responsibility for any environmental 
remediation that is deemed necessary related to the properties to 
ensure public safety.
    Because the Department of Energy would maintain and operate, as 
they do currently, the primary facilities associated with the Manhattan 
Project National Historical Park, the study estimated that the National 
Park Service's annual operation and maintenance costs for the three 
sites together would range from $2.45 million to $4 million. It also 
estimated that completing the General Management Plan for the park 
would cost an estimated $750,000. Costs of acquiring lands or interests 
in land, or developing facilities, would be estimated during the 
development of the General Management Plan.
    The Department of Energy has not yet assessed fully the operational 
difficulties in terms of security and public health and safety, 
applicable statutory and regulatory requirements, and the potential new 
cost of national park designation at the sensitive national security 
and cleanup sites, which would be addressed with the context of the 
General Management Plan. The Department anticipates that the initial 
agreement between the two Departments likely would be fairly limited in 
scope, given the bill's one-year timeframe for executing an agreement 
that would enable the Secretary of the Interior to establish the 
Manhattan Project National Historical Park. We appreciate the language 
specifically providing for amendments to the agreement and a broad 
range of authorities for the Secretary of the Interior, as these 
provisions would give the National Park Service the flexibility to 
shape the park over time and to maximize the promotion of education and 
interpretation related to the park's purpose in coordination and 
consultation with the Department of Energy.
    The flexibility is particularly important because managing a park 
with such complex resources, in partnership with another Federal 
agency, at three sites across the country, will likely bring 
unanticipated challenges. Some of the resources that may be included in 
the park may be near facilities that have highly sensitive, ongoing 
national security missions including nuclear weapons production and 
intelligence activities. Also, some of these sites may be on the U.S. 
Environmental Protection Agency's National Priorities List. If this 
legislation is enacted, these issues, among others, will be taken into 
consideration by the Departments in the development of an agreement and 
management plan. The National Park Service has already begun a 
partnership with the Department of Energy regarding the Manhattan 
Project resources through our coordinated work on the study. If this 
legislation is enacted, we look forward to building a stronger 
partnership that will enable us to meet the challenges ahead.

                               ON S. 615

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior regarding S. 615, a bill to establish 
Coltsville National Historical Park in the State of Connecticut, and 
for other purposes.
    The Department supports enactment of S. 615 with the amendments 
discussed later in this statement.
    S. 615 would authorize the establishment of a new unit of the 
National Park System centered on the Coltsville Historic District in 
Hartford, Connecticut. Establishment of the park would depend upon the 
Secretary of the Interior receiving a donation of a sufficient amount 
of land to constitute a manageable unit; the owner of the East Armory 
property entering into an agreement with the Secretary to donate at 
least 10,000 square feet of space in that building for park facilities; 
and the Secretary entering into an agreement with the appropriate 
public entities regarding compatible use and management of publicly 
owned land within the Coltsville Historic District.
    The legislation also authorizes agreements with other organizations 
for access to Colt-related artifacts to be displayed at the park and 
cooperative agreements with owners of properties within the historic 
district for interpretation, restoration, rehabilitation and technical 
assistance for preservation. It provides that any federal financial 
assistance would be matched on a one-to-one basis by non-federal funds.
    S. 615 also provides for the establishment of a commission to 
advise the Secretary on the development and implementation of a general 
management plan for the unit. The advisory commission would terminate 
ten years after the date of enactment of the legislation unless 
extended for another ten years by the Secretary of the Interior 
(Secretary).
    The Secretary designated the Coltsville Historic District a 
National Historic Landmark on July 22, 2008. The manufacturing complex 
and associated resources constitute the site of nationally important 
contributions to manufacturing technology by Samuel Colt and the 
industrial enterprise he founded in 1855--Colt's Patent Firearms 
Manufacturing Company. It includes, among other resources, the armories 
where firearms and other products were made, the home of Samuel and 
Elizabeth Colt, Colt Park, and housing used by factory workers.
    Samuel Colt is most renowned for developing a revolver design which 
revolutionized personal firearms. The Colt's Firearms Company is best 
known for its manufacture of the Peacemaker, a six-shot revolver. Colt 
was a major innovator in the ``American System'' of precision 
manufacturing, replacing the practice of individually crafting each 
component of a product with the use of interchangeable parts. After his 
death in 1862, his wife Elizabeth owned and directed the manufacturing 
complex for 39 years, becoming a major entrepreneur in an age when 
women rarely occupied positions of importance in manufacturing.
    During both World War I and World War II, the Colt Firearms Company 
was one of the nation's leading small arms producers and made vital 
contributions to U.S. war efforts. The company applied its 
interchangeable-parts techniques to a wide variety of consumer products 
and the Colt complex became an ``incubator'' facility for other 
inventors and entrepreneurs. Coltsville is also noteworthy as a fully 
integrated industrial community that includes manufacturing facilities, 
employee housing, community buildings, and landscape features that were 
built largely under the personal direction of Samuel and Elizabeth 
Colt. Colt, whose labor practices were advanced for their time, 
attracted highly skilled laborers to his manufacturing enterprise.
    Pursuant to Public Law 108-94, the Coltsville Study Act of 2003, 
the National Park Service (NPS) conducted a special resource study of 
the resources associated with the Coltsville Historic District. Based 
on Coltsville's National Historic Landmark designation in 2008, the 
study concluded that Coltsville meets the national significance 
criterion. An analysis of comparability to other units of the national 
park system and resources protected by others demonstrated that 
Coltsville is suitable for designation as a unit of the national park 
system. The study was unable, however, to conclude that Coltsville was 
feasible to administer at that time due to the lengthy duration of 
financial issues surrounding the site. In concert with the lack of 
feasibility, the study was also unable to determine the need for NPS 
management, or specifically what the NPS would manage.
    The special resource study did not conclude that the site 
absolutely failed to meet feasibility criteria or require NPS 
management, but rather that that it did not meet feasibility criterion 
with the circumstances present at the time of the study and that it was 
impossible to determine, at that time, the need for NPS management of 
the site. In both cases, the uncertainty of public access and financial 
viability of the financial developer of the privately owned portion of 
the site were at issue.
    Since the time of the study, much progress has occurred, showing 
significant promise for the future of Coltsville and preservation of 
the resources. During a visit in 2011, the Secretary noted the progress 
made in the area since the study was completed, while stating that 
``Coltsville again promises to be an economic engine, producing jobs 
and spurring growth in the Hartford area.'' Significant re-development 
has already begun. Several of the buildings have been rehabilitated and 
are occupied as educational facilities, residential housing, and 
businesses. Negotiations are underway between the developer and the 
city on an agreement for the East Armory building, which would serve as 
the focal point for park visitors. We have been advised the plan has 
designated benchmarks for the project as well as projected funding for 
the development.
    The conditions in S. 615 for establishing Coltsville as a unit of 
the National Park System are intended to assure that the park is 
established only when the development is moving forward and there is 
certainty that the public will have the ability to learn about the 
manufacturing process that took place at the site. However, to ensure 
the viability of the park, we recommend that the conditions include 
additional requirements regarding the evaluation of the financial 
feasibility of the park's operations and management, including 
ownership and financing of Coltsville properties.
    A 2008 Visitor Experience Study developed visitor service scenarios 
identifying a range of potential costs from a very basic scenario 
(small contact station, limited hours, and staff shared with a 
neighboring park unit) estimated at $720,000 to a full site scenario 
estimated at $9.3 million (four level East Armory development, cultural 
landscape plan implementation, and multimedia exhibit construction). If 
a park were established, a comprehensive planning process would assess 
the actual needs for visitor services and staffing, further defining 
the park's operational budget. In addition, there could be significant 
Federal costs in providing financial assistance to restore or 
rehabilitate the properties, as authorized in Section 4(c)(1). All 
funding would be subject to NPS priorities and the availability of 
appropriations.
    We recommend that S. 615 also be amended to eliminate the 
establishment of an advisory commission. The management planning 
process required under section 5 already provides a forum to involve 
key stakeholders and provide a broad representation of interested 
parties, without the need for a commission. In addition, we note that 
the inclusion of an advisory commission in park enabling legislation is 
not as common as it once was. Other bills before this committee that 
would establish new parks, including the two parks honoring Harriet 
Tubman, the park composed of resources in the State of Delaware, the 
park commemorating the Manhattan Project, and the Valles Caldera park, 
do not provide for advisory commissions. This change can be 
accomplished by striking line 20 on page 8 and all that follows through 
the remainder of the bill.
    Mr. Chairman, this concludes my testimony.

    Senator Udall. Ms. O'Dell, that was very helpful. I know 
Senator Manchin has a very busy schedule, as my colleagues 
always do. I wanted to recognize him for questions and 
comments, I think in particular on 486.
    Ms. O'Dell. Thank you.
    Senator Udall. Senator Manchin.
    Senator Manchin. Thank you so much, Chairman.
    Ms. O'Dell, if I may, I had a copy of your submitted 
testimony. That you state the Department of Interior supports 
allowing appropriate public use and access at the Cape Hatteras 
National Search, to the greatest extent possible, I think. 
While balancing the needs to preserve wildlife habitat.
    I agree with you that we need to have a balance here. But 
the final plan that the National Park Service implemented in 
2012, in my estimation and the reason for this bill, doesn't 
strike that balance. It's actually hurting the local economy 
and affecting the experience of vacationers. I would say like 
vacationers like the ones from West Virginia, who really have 
been going there for years. Things are changing drastically.
    As I said at a hearing on this bill before, this committee 
last year when I spoke it is in this instance the Park Service 
is acting as an adversary and not an ally. I've always said 
government should be your partner and your ally, trying to find 
the balance between the economy and the environment. The 
people, I believe, that live there, the people that have always 
lived there, the people that make their living on tourism, are 
still wanting that balance. It doesn't benefit them to 
deteriorate or destroy the natural beauty they have.
    I've joined my friends, Senator Burr and Hagan, as I did 
last year in co-sponsoring this bipartisan legislation of S. 
486 because I believe it strikes the appropriate balance of 
providing access to the seashore, but it also protects the 
habitat of sea turtles and the piping plover. Our legislation 
would reinstate the interim plan. I think you know about the 
interim plan. It would reinstate that plan that was backed by 
113 page biological opinion issued by the U.S. Fish and 
Wildlife Service.
    So what I would ask is, is your Department and how is your 
Department supporting access at the greatest extent possible 
when roughly 26 miles of the beach have been permanently closed 
to motorized beach access?
    Ms. O'Dell. Sir, I would say that we have done our very 
best to create that balance and to find a way to accommodate 
all the interest at the seashore. We have had a year now 
operating under the ORV management plan. We are showing success 
in the numbers of birds that have come back, the numbers of 
turtles that have hatched. We're also showing that the visitor 
bureaus out in North Carolina reported an increase in revenues 
from both meal receipts and occupancy in that area for tourism.
    So we are very hopeful that over time as this plan stays in 
place and we all use it appropriately that we are going to see 
continued improvement in all of those elements.
    Senator Manchin. Do you think----
    Ms. O'Dell. Because we want people to be--to have a great 
experience there.
    Senator Manchin. Do you think it was a plan that was agreed 
upon when it was given to the locals at the time it was. They 
entered into it in a very hastily way, if you will. Then 
basically nothing had happened. There was the court ruling that 
decided this and put it in a whole and different light.
    Ms. O'Dell. I know the interim plan, sir, was created 
hastily because the Park Service had been out of compliance for 
so many years. So the interim plan was put in place and the 
environmental documents that were created with the interim plan 
clearly stated that short term implementation of that plan 
would not do harm to the environment or to the protected 
species.
    But long term use of that interim plan would potentially 
cause impairment for the National Park resources.
    That would be like killing the golden goose if the park has 
no longer, have the wildlife values that people enjoy and go 
there to see, we would be harming tourism even more than some 
people perceive we are now.
    Senator Manchin. You've closed so much of the beach they 
can't even fish. I think they went there more to fish than 
anything else.
    Ms. O'Dell. There are still 41 miles of road open to AT--
Off Road Vehicles out of the 67.
    Senator Manchin. Twenty-six has been closed.
    Ms. O'Dell. Sixty-seven are open to pedestrians full time.
    Senator Manchin. Let me--I know you just said about the 
economic impact. If anything things are improving.
    Have you talked to the local citizens? Have you really sat 
down with the people that live and operate there everyday 
because I just heard from them again yesterday? As a matter of 
fact they are sitting in the audience here.
    They completely differ from what you're saying. They just 
get so--I mean they're to the point they're exasperated that 
you're not paying any attention to them. They're just asking 
for the balance.
    You had a 113 page report which you all basically have 
neglected as far as in what they're saying. Can't you go back 
to the----
    Ms. O'Dell. Sir, after that interim report we were 
operating under a consent decree by the court. That's what led 
to the creation of this new plan. So it was informed by locals. 
It was formed by people who, all across the country, who care 
about it.
    We do have a very wonderful management team in place at 
Cape Hatteras, a new superintendent who is hopefully engaging 
well with the community. We continue to stress with him how 
important it is to be engaged with the local community so that 
we can continue to get feedback on this plan. The management 
plan does require us to take a--to review the plan every 5 
years and to make adjustments to it. The adaptive management 
policies that we have will allow us to do that----
    Senator Manchin. Are you really--and I'm so sorry, Mr. 
Chairman, but are you looking at just the Hatteras and Ocracoke 
areas that are tremendously affected? Directly to them and not 
to the entire, you know, if you look at the span that you're 
talking the 40 some miles. You've closed the most premium 
places that people, I know from West Virginia, would go. 
They're closed.
    You want them to go where the fish aren't, I guess.
    Ms. O'Dell. That would not have been our intent, sir.
    Senator Manchin. But that's what's happened.
    Let me ask you.
    Ms. O'Dell. I would respectfully----
    Senator Manchin. One final question.
    Is other places in the country treated under the same 
parameters that this is being treated down in Hatteras and 
Ocracoke, the amount of, you know, the way you all have written 
the new rules, if you will or complied with?
    Ms. O'Dell. The----
    Senator Manchin. Let's up along the Eastern seaboard 
somewhere.
    Ms. O'Dell. There are off road vehicle plans for other 
national seashores. They were crafted for those specific parks 
with the specific conditions that are present in those areas.
    Senator Manchin. Does any of them have this amount of 
restriction?
    Ms. O'Dell. I would not be able to answer that, sir. But 
I'd be happy to get you any kind of comparison you wanted.
    Senator Manchin. Don't you think there should be a fairness 
to the system? There should be a balance and fairness.
    Ms. O'Dell. It's the balance between what is needed to 
protect the wildlife values and what is needed to----
    Senator Manchin. Whose determination is that? Yours or in 
conjunction with the people that basically live there?
    Ms. O'Dell. It certainly has been informed by feedback from 
the locals and national visitors.
    Senator Manchin. You know that we don't agree because we 
wouldn't be introducing the bill if we agreed with you.
    Ms. O'Dell. That's correct, sir. I understand that.
    Senator Manchin. OK. So we don't think that you're talking 
to the same people we are.
    Ms. O'Dell. I respect your opinion on that, sir.
    Senator Manchin. We just need enough votes now, that's all.
    You're not going to fight this, are you?
    Ms. O'Dell. Am I going to fight it?
    Senator Manchin. Uh huh.
    Ms. O'Dell. I don't have as much power as you all have in 
terms of deciding what happens with this bill, sir.
    Senator Manchin. We want you to find a balance. So just 
meet with them. Find a balance----
    Ms. O'Dell. We will continue to meet with the proponents 
down in the seashore. Our superintendent Barclay Trimble will 
be delighted to continue to meet with them.
    Senator Manchin. You've got the complete--you have this 
complete handout and brochure showing you what you've really 
shut down?
    Ms. O'Dell. I do not know that I have that.
    Senator Manchin. Can I give this to you?
    Ms. O'Dell. I would be----
    Senator Manchin. Because I think it really is shocking to 
see how much of this seashore that we've enjoyed for tens and 
twenty and thirty and forty, fifty years ago that you have 
said, OK West Virginia, don't go to Hatteras or Ocracoke 
anymore because you can't use the areas you did.
    Alright?
    Senator Udall. Senator Manchin, would you provide the 
committee with a copy of that document as well?
    Senator Manchin. I would love to. It would be possible.
    Senator Manchin. Thank you.
    Ms. O'Dell. Thank you, Senator.
    Senator Udall. Thank you, Senator Manchin.
    I thought we'd turn now to Ms. Kolb. I know, Senator 
Heinrich, you've got a busy schedule, but I think her testimony 
is important to your concerns.
    So, Ms. Kolb, the floor is yours for 5 minutes. We look 
forward to hearing your testimony.

   STATEMENT OF INGRID KOLB, DIRECTOR, OFFICE OF MANAGEMENT, 
                      DEPARTMENT OF ENERGY

    Ms. Kolb. Thank you very much.
    Mr. Chairman and members of the subcommittee, my name is 
Ingrid Kolb and I'm the Director of the Office of Management at 
the Department of Energy. I'm pleased to be here today to 
discuss only one bill. That bill is S. 507, for a proposed 
Manhattan Project National Historical Park.
    The Manhattan Project National Park study act, Public Law 
108-340, directed the Secretary of the Interior as well as the 
Department of Energy to conduct a study to determine the 
feasibility of designating one or more Manhattan Project sites 
as a unit of the National Park System. Following extensive 
public meetings and assessments of potential park boundaries 
and historical resources, the Department and the National Park 
Service agreed that a park was feasible, that it met the 
sustainability and suitability requirements for creating a new 
park and that it should be established.
    In October 2010, the National Park Director concurred on 
the study which contained the recommendation for a 3 site park 
at Oak Ridge, Tennessee, Hanford, Washington and Los Alamos, 
New Mexico.
    In March 2011, our Deputy Secretary, Dan Poneman, concurred 
on the findings of the study and provided assurances to the 
National Park Service that the Department would retain full 
control of its properties in accordance with its missions and 
security requirements.
    The Department of Energy is proud of its Manhattan Project 
heritage and recognizes that this partnership with the public 
National Park Service would bring one of the most significant 
accomplishments of 20th century America to a wider public 
audience.
    The establishment of a National Historical Park will 
represent a new era for the Department of Energy, particularly 
in certain areas of our sites that have been largely off limits 
to the public. The Department has not yet fully assessed the 
operational difficulties in terms of security and public health 
and safety and the costs. However, these issues will be 
addressed as we develop the general management plan that is 
called for in the legislation. We will develop this plan in 
partnership with the National Park Service.
    So we welcome the leadership of you, Mr. Chairman, as well 
as the subcommittee in telling the important story of the 
Manhattan Project. We look forward to working with you as this 
legislation advances through the Congress.
    Again, thank you for this opportunity to testify. I'm happy 
to answer any questions you may have.
    [The prepared statement of Ms. Kolb follows:]

  Prepared Statement of Ingrid Kolb, Director, Office of Management, 
                          Department of Energy

    Mr. Chairman and Members of the subcommittee, my name is Ingrid 
Kolb. I serve as the Director, Office of Management, at the U.S. 
Department of Energy. As part of our programmatic responsibilities, the 
Office of Management coordinates cultural resources and historic 
preservation activities across the Department and is the lead office 
coordinating DOE participation in the proposed Manhattan Project 
National Historical Park. I am pleased to be here today to discuss the 
proposed park and S. 507, a bill to establish the Manhattan Project 
National Historical Park.
    The Manhattan Project National Park Study Act, Public Law 108-340, 
directed the Secretary of the Interior, in consultation with the 
Secretary of Energy, to conduct a special resource study to determine 
the feasibility of designating one or more Manhattan Project sites as a 
unit of the National Park System A park, the legislation noted, would 
have to be compatible with ``maintaining the security, productivity, 
and management goals of the Department of Energy,'' as well as public 
health and safety. In preparing the study, the Department's Office of 
Management was an active partner with the National Park Service, and 
its staff participated fully, providing information, input, and 
comments.
    Following public meetings at the sites and extensive assessments of 
potential park boundaries and integrity of historical resources, the 
Department and the National Park Service agreed that a park was 
feasible, met the suitability requirement for creating a new park, and 
should be established. In October 2010, the National Park Service 
Director concurred on the study, which contained the recommendation for 
a three-site park in Oak Ridge, Tennessee, Hanford, Washington, and Los 
Alamos, New Mexico, in partnership with the Department of Energy. The 
Department of Energy would continue to manage and maintain its 
properties and control access to them. The National Park Service would 
provide interpretation and consult with the Department on preservation 
issues
    In March 2011, the Deputy Secretary of Energy concurred on the 
findings of the study and provided assurances to the National Park 
Service that the Department would retain full access control to its 
properties in accordance with its missions and security requirements. 
The Department of Energy is proud of its Manhattan Project heritage and 
recognizes that this partnership with the National Park Service would 
bring one of the most significant events in 20th century America to a 
wider public audience. In July 2011, the Secretary of the Interior 
recommended to Congress the establishment of a three-site Manhattan 
Project National Historical Park.
    The establishment of a National Historical Park will represent a 
new era for the Department of Energy, particularly in certain areas of 
our sites that have been largely off-limits to the public to date due 
to national security concerns and potential impacts to our ongoing 
missions. The Department has not yet assessed fully the operational 
difficulties in terms of security and public health and safety, 
applicable statutory and regulatory requirements, and the potential new 
cost of national park designation at our sensitive national security 
and cleanup sites; but these issues will be addressed as we develop a 
general management plan with the National Park Service. Funding for any 
significant new costs will need to be provided through the budget 
process. The proposed legislation, S. 507, would give the Department of 
Energy and Department of the Interior the flexibility to establish the 
timeline, boundaries, and a suitable management plan for a National 
Historical Park that would allow us to ensure the continuance of public 
safety, national security, and the ongoing missions at our sites. We 
recommend that provisions of Section 5 be clarified so that other sites 
to be identified by the Secretary of the Interior within the city of 
Oak Ridge do not include properties managed by the Department of 
Energy, unless the Secretary of Energy concurs. We welcome the 
leadership of Chairman Udall and the National Parks Subcommittee in 
telling this important story, and we look forward to working with you 
as this legislation advances.
    Again, thank you for this opportunity to testify before the 
subcommittee. This completes my prepared statement. I would be happy to 
answer any questions you may have.

    Senator Udall. Thank you.
    Before I recognize Senator Heinrich, I want to apologize 
for not correctly pronouncing your last name. Is it Kolb?
    Ms. Kolb. It's Kolb, but Kolb is fine too.
    Senator Udall. Kolb. There are----
    Ms. Kolb. I answer to both.
    Senator Udall. We'll make sure the record shows it's Kolb.
    In Senator Heinrich's and Senator Barrasso's part of the 
world there are a couple of famous brothers, the Kolb Brothers, 
who were among those who first ventured down the Colorado River 
through all of its rapids and deep canyons.
    Thank you for your testimony.
    Senator Heinrich, I know these are topics of great 
importance to you and your State and to the country.
    Senator Heinrich. Thank you, Chairman.
    Ms. O'Dell, I wanted to ask you a couple of questions 
regarding the Valles Caldera National Preserve just for the 
record.
    Ms. O'Dell. Yes, sir.
    Senator Heinrich. One has to do with hunting and fishing on 
the preserve. That is one of the ways I've been able to enjoy 
the preserve over the years and just wanted to put on the 
record whether hunting and fishing will continue to be uses 
that the Park Service manages for as should this legislation 
pass.
    Ms. O'Dell. Yes, sir. Hunting and fishing is common on the 
other preserves that we manage throughout the National Park 
System.
    Senator Heinrich. I think it's worth just stating that it's 
one of the reasons why the preserve model was so attractive to 
the community and New Mexico because that is one of the uses 
that really sets this particular unit on the map nationally is 
its values there.
    I also wanted to ask you about the current situation and 
maybe the dichotomy in terms of costs into the future. The 
current body called there a Board of Trustees 2009 report said 
that the preserve currently spends about 20 times more per 
individual visitor than similar National Park Service units. I 
understand that the Park Service Feasibility Study also found 
that cost savings would be likely if the unit were managed 
under the Park Service in conjunction with nearby Bandolier 
National Monument.
    Can you provide any additional details on what kind of cost 
savings we might be able to expect if this bill passes?
    Ms. O'Dell. I can't give you specific figures yet. We don't 
really have that information prepared yet. But we certainly can 
expect to get some savings because we will be using many of the 
services out of Bandolier National Monument. Many of the 
administrative services, loaning some of the maintenance types 
of equipment instead of having to purchase, many kinds of 
economies like that would be able to be achieved.
    Senator Heinrich. Once again, I think this is one of the 
things that makes this attractive is the per unit cost of doing 
a national preserve as a one off has proven to be incredibly 
expensive. I think taking advantage of those economies of scale 
is very attractive as well.
    Finally, the Valles Caldera includes a lot of sites that 
are sacred to native neighboring pueblo tribes. I wanted to ask 
if the Park Service would ensure that those sites are protected 
from inappropriate use to begin with and also accessible to 
tribal members for religious and cultural purposes.
    Ms. O'Dell. We would welcome consultation with the tribes 
to understand their traditional uses of the land and work with 
them to ensure that those can continue.
    Senator Heinrich. I think that's going to be very important 
just to make sure that those kind of cultural traditions are 
preserved as part of the fabric of this preserve moving 
forward.
    I'm going to shift gears real quickly and just ask you to 
elaborate on something that Senator Manchin brought up. Were 
the closures that Senator Manchin asked about, were they 
closures, complete closures to the public including pedestrians 
and including fishing or is it only a closure to off road 
vehicle use or motorized access?
    Ms. O'Dell. The entire 67 miles remains open to 
pedestrians.
    Senator Heinrich. OK.
    Ms. O'Dell. Fourty-three miles remain open to ORV use.
    Senator Heinrich. OK.
    How much of that is open to fishing?
    Ms. O'Dell. People can fish anywhere.
    Senator Heinrich. Anywhere? So even the areas that are 
closed to vehicular access are open to fishing?
    Ms. O'Dell. Yes, sir.
    Senator Heinrich. Great.
    Thank you very much.
    Senator Udall. Senator Heinrich, thank you for your 
questions and interest.
    Senator Barrasso is recognized.
    Senator Barrasso. Thank you, Mr. Chairman.
    Ms. O'Dell, S. 486 supported by North Carolina, both 
Senators, Republican and Democrat and so both Senators support 
as well as Representative Walter Jones, Republican, who 
represents North Carolina's third district, home to Cape 
Hatteras. Here we have an example of an entire delegation, 
elected by the people who live and work and recreate in an area 
supporting the same legislation, bipartisan. When I see 
legislation like this with unanimous support for land 
management policy from the elected delegation, I believe it's 
significant.
    Every effort, I believe, should be made by the 
Administration and Members of Congress to support the desires 
of the local people, the delegation. Do you believe a 
delegation's views should or should not be given particular 
consideration when determining land management policy within 
their home State and district?
    Ms. O'Dell. Certainly they should be given consideration, 
sir.
    Senator Barrasso. OK.
    The National Park Service currently reports a maintenance 
backlog of about $11 billion. However, a number of the bills in 
front of the subcommittee today enjoy Park Service support 
despite the fact that these new units would increase 
liabilities and responsibilities. So I ask you, Ms. O'Dell, 
would you purchase 3 or 4 new houses if you couldn't afford the 
mortgage on your current home?
    Ms. O'Dell. Personally, I probably wouldn't do that, sir.
    Senator Barrasso. So it just doesn't make sense then to me 
that and to many other Americans for the Park Service to 
support obtaining further properties, further expenses and 
liabilities when the Park Service can't open parks on time and 
can't maintain their existing parks. I mean, this is now 
happening in Wyoming with Yellowstone and Grand Teton National 
Parks.
    Do you as the Deputy Director of Operations believe it's a 
sound financial decision for existing park units for the agency 
to acquire more land and more liabilities?
    Ms. O'Dell. We make our position based on the fact that 
Congress has asked us to study these areas. All of these areas 
met the criteria for significance, feasibility and suitability 
for management of National Parks. With the economic benefit 
that comes to a community, we believe, that a national park is 
an investment in a community as well.
    Senator Barrasso. So is it time for the Park Service to 
begin prioritizing funding? What's a higher priority for the 
National Park System operating dollars to keep the existing 
parks open or adding to the park system?
    Ms. O'Dell. We address that every year in the President's 
Annual Budget, sir. That's where the priorities are set by the 
Department for activities in the National Park Service.
    Senator Barrasso. So we have 4 new parks proposed here 
today. Are any of these parks a greater priority than the 11 
billion dollars maintenance backlog?
    Ms. O'Dell. Unfortunately it's all a priority, sir.
    Senator Barrasso. So which 1 of these 4? You say all 4 of 
these are a greater priority than the 11 billion maintenance 
backlog or equal or?
    Ms. O'Dell. That's a very difficult question to answer at 
any moment in time. But we support the fact that they are 
nationally significant. If Congress sees fit to pass a bill to 
put them into the National Park Service, we will do our best to 
set our financial priorities to support those assets that the 
Congress wants to see in the National Park Service.
    Senator Barrasso. It seems to me that the Park Service is 
supporting new units and they--I'm still trying to decide 
from--hear from you clearly, if they are or not a greater 
priority than the existing parks in the 11 billion dollar 
maintenance backlog?
    Ms. O'Dell. I would say that they are all of priority to 
us, sir. As we have our budget and we dole it out every year. 
We try and distribute it appropriately to deal with the 
immediate priorities before any given park at any moment in 
time.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Barrasso.
    I would for the record like to ask unanimous consent that 
Senator Alexander's statement on the Manhattan Project National 
Historic Park be included in the record.
    Without objection, it shall be done.
    Senator Udall. I appreciate Senator Barrasso's comments.
    I also want to point out that the legislation that's in 
front of us, I should say the 14 various pieces of legislation, 
have in many cases, almost every case been generated by those 
delegations, by those communities who see the value in the 
utility in additional designations. I do think it's important 
that the Congress take into account Senator Barrasso's 
concerns. But I also don't want to diminish the excitement and 
the interest that is generated in many of these areas when 
there's an opportunity to protect the national memorial that 
celebrates the Distinguished Flying Cross or the Valles 
Caldera. The list, of course, is a long one here today. But 
that's the--the committee has some work to do.
    I'd also like to comment on the bill to designate Mount 
McKinley a National Monument. If you look at the history the 
State of Alaska has officially recognized Denali as the name of 
the peaks since 1975. Congress in 1980 changed the name of the 
National Park to Denali National Park. But we didn't act on the 
name change for the mountain.
    I've had the great opportunity, although some people 
question my sanity, to actually climb Mount McKinley or Denali, 
depending on the way in which you want to direct the name 
toward it. I think the idea of designating Denali keeps faith 
with the native people. There's a long history and of course, 
Denali, with all due respect to President McKinley, means the 
``Great White One.''
    I know Senator Portman, I think hails from--I know he hails 
from Ohio, thinks President McKinley was an Ohioan. So we may 
have to work with Senator Portman and make sure that President 
McKinley continues to receive the kind of respect and attention 
that he deserves. I think this is a suitable step we could 
take.
    That's my personal opinion. We'll see what the committee 
decides to do and the Senate as a whole.
    Thank you both again for taking the time to be here.
    Oh, Senator Portman has just arrived. I was about to 
adjourn. But I wanted to, as I'll let Senator Portman settle 
himself, thank Senator Portman for his willingness to serve as 
the ranking member for what I believe, and I think he believes, 
is the most important subcommittee in the entire U.S. Senate.
    Senator Portman has a long history of connection with the 
National Parks. He served on the Centennial Commission that 
looked at the 100 year anniversary of the National Parks and 
put forth some ideas as to how we celebrate and nurture and 
maintain and enhance the National Park experience. I'm very 
much looking forward to working with him.
    I was pleased, as I said earlier, to be able to work with 
him on his Peace Corps Memorial effort. I know Senator Portman 
knows my mother's history, which I mentioned earlier, that is 
she served in the Peace Corps for 4 years. That's personal to 
me. It's an important memorial. It's, I think, one of America's 
best ideas, the Peace Corps.
    With that I'd like to recognize Senator Portman for any 
remarks he might have, general or questions on the various 
legislative vehicles that have been in front of us.

          STATEMENT OF HON. ROB PORTMAN, U.S. SENATOR 
                           FROM OHIO

    Senator Portman. Great. Thank you, Mr. Chairman. I 
apologize that I'm late.
    I got detained over in the Capitol. They were trying to get 
a lot of things done this week before we go on a recess next 
week. So I apologize not to be here sooner.
    Thank you for convening this hearing. I talked to Senator 
Manchin, said he was here. I know you all have talked about 
some of the legislation that's before you. I think we have 13 
bills before the committee. We appreciate getting the 
Administration's feedback on them.
    I also want to thank Chairman Udall for being willing to 
take on this task. He is uniquely qualified to be the Chairman 
of the Park Subcommittee because he has climbed mountains in 
all of the parks that have peaks over about 5,000 feet. He's 
kayaked rivers in the other ones. So he understands the 
importance of our parks and the need for us here at the 
Centennial to ensure that we are providing the parks the 
resources they need and also expanding the number of people who 
can take advantage of the parks which is one of my reasons for 
being on this subcommittee.
    I did enjoy being on the Commission for a short period of 
time before I got back into this business. Also when I was at 
OMB worked on the Centennial Initiative and the Centennial 
Challenge. The notion is, in part, to get even more people 
involved and interested in the parks.
    We have a great urban park in Ohio, the Cuyahoga National 
Park which is, I think, top 10 in the country, maybe number 6 
now in terms of visitation and partly it's because it's near an 
urban area. So I think that's part of the future of the parks 
is bringing more and more people in and more public/private 
partnerships as we try to do the Centennial Challenge.
    Of the 14 bills that were before the committee today all 
have received hearings in the previous Congress, I'm told. Some 
were even marked up in full committee. So we do have a lot of 
momentum.
    I want to just take a moment, if I could, Mr. Chairman, 
talk about 2 of them.
    One you just mentioned which is the Peace Corps 
Commemorative Foundation that you and I introduced last year. 
This is again, to build a memorial to commemorate the mission 
of the Peace Corps here in Washington, DC, on Federal land. 
It's already passed out of committee by unanimous consent. I 
thank the members of our committee for their support in that.
    But it does not involve additional Federal funds. It's 
something that I would hope that we could enact quickly working 
with the House where's there's also a strong interest in it, as 
I understand.
    We're also reintroducing a bill to allow a plaque to be 
placed on the World War II memorial inscribed with the words of 
Franklin Roosevelt that he prayed with the Nation on D-Day, 
June 6 1944. This is legislation that Joe Lieberman and I 
worked through the system last go around. We didn't get it 
done.
    It did pass the House with a large margin. We appreciate 
the Administration working with us on this, the Department of 
Interior and the folks on the Mall and the Commemorative Works 
Commission, as I recall. I do hope, again, that's one thing we 
can also get done this year and move forward. Again, it was a 
very major bipartisan victory in the House. It's something that 
I think deserves our support as well. Very inspirational words 
that Senator Lieberman and I spoke on the Floor of the Senate 
last year.
    So again, thank the witnesses for being here. I don't have 
any additional questions for them. I don't want to hold you up, 
Mr. Chairman.
    But again, thank you for holding this hearing. I look 
forward to our work going forward.
    Senator Udall. Thank you, Senator Portman. With that let me 
point out if there are no further questions I want to thank 
both of you for being here this afternoon. Some members of the 
committee may submit some additional questions in writing. If 
so, we may ask you to submit answers for the record.
    We'll keep the hearing record open for 2 weeks to receive 
any additional comments.
    Senator Udall. With that the subcommittee is adjourned.
    [Whereupon, at 3:10 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Peggy O'Dell to Questions From Senator Murkowski
                               on s. 155

    Question 1. Most Alaskans refer to Mt. McKinley as Denali. While 
reviewing your written testimony I noticed that the National Park 
Service's official position on S.155 is that it does not object to the 
proposal. Can you outline the reasoning behind this position? Are there 
any changes to the legislation that I can make to get the Park Service 
to support this bill?
    Answer. The National Park Service (NPS) appreciates the long 
history and local interest in the traditional Athabascan name, Denali. 
We also recognize that for many years, members of Ohio's congressional 
delegation have sought to retain the name Mount McKinley out of respect 
for President McKinley, a native of Ohio. The NPS respects both of 
these positions and therefore does not want to take a position on S. 
155 more supportive than ``does not object to.''

                                 S. 156

    Question 1. The National Park Service assisted my staff in drafting 
this legislation. Can you please tell me why the National Park Service 
now feels the proposed amendment is necessary?
    Answer. As testimony was being prepared in 2011 on the version of 
the bill introduced last Congress, the question of whether having the 
Hoonah Indian Association share equal authority with the Secretary in 
preparing the harvest plan was a Constitutionally improper conferral of 
Federal authority to a non-Federal entity was raised. To ensure that 
there would be no question about this issue, we recommended that Hoonah 
Indian Association's role be advisory.
    Question 2. Wouldn't the proposed amendment weaken the position of 
the Hoonah Indian Association? The very folks who we are trying to work 
with and help with this proposal?
    Answer. The NPS respects the importance of this traditional 
cultural activity. If this amendment is adopted, the NPS will endeavor 
to accommodate the wishes and concerns of the Hoonah Indian 
.Association to the greatest extent possible while ensuring the 
sustainability of gull populations in the park.
    Question 3. Once this legislation is adopted and passed into law, 
how long will it be before the first gull egg harvest takes place?
    Answer. According to the 2010 Record of Decision, a first harvest 
could occur at each of the open sites on or before the 5th day 
following the onset of laying, as determined by NPS staff monitoring a 
reference site.

Maintenance Backlog

    Question 1. Given our current state of affairs, there is no room 
for budget increases-in fact, hard cuts will have to be made across the 
board. However even with its current budget the Park Service is $10 
billion behind on projects needed just to maintain existing National 
Parks. What kinds of plans does the Park Service have to address this 
shortfall?
    Answer. The NPS is addressing the $11.5 billion deferred 
maintenance backlog through a variety of fund sources, including repair 
and rehabilitation, line-item construction, recreation fee revenue, and 
appropriations available to us through the Department of 
Transportation/Federal Highways Administration. We expect to continue 
our policy of requesting construction funding for critical life, 
health, safety and resource protection projects, many of which address 
deferred maintenance, and not for the construction of new facilities. 
With relatively limited funding available to address the maintenance 
backlog, our Capital Investment Strategy (CIS) focuses funding on our 
most important assets and pursues disposal of non-mission critical 
assets in serious disrepair.
    Question 2. Are there other asset sales or transfers that could 
reduce this amount?
    Answer. While sales or transfers are considered when assets are no 
longer needed, most are in very poor condition and in areas with 
limited access. If a sold or transferred asset were to remain within a 
park, it could create usage conflicts with the NPS mission or impose 
other costs. As an example, if an asset is sold and remains within the 
park, the owner would have access rights, creating infrastructure 
maintenance and law enforcement costs for the Federal Government.
    Question 3. What are the largest maintenance projects on this list?
    Answer. There are many large-scale projects on the NPS list of 
deferred maintenance needs. Starting with the FY 2014 budget request, 
the five-year line-item construction program totals $415 million. 
Examples of the largest deferred maintenance projects currently 
identified for funding in the 5-year plan include: Grand Canyon 
National Park, Replacement of the Transcanyon Water Distribution 
Pipeline; Yosemite National Park, Correction of Critical Safety Hazards 
and Rehabilitation of the Historic Ahwahnee Hotel; and Chesapeake and 
Ohio Canal National Historical Park, phased Rehabilitation and 
Restoration of Canals and Locks. Work and funding for these types of 
large-scale projects are typically phased over a number of years.
    Question 4. Are major maintenance projects regularly completed?
    Answer. Yes, although some of the largest projects seem to take a 
very long time because they are usually done in phases. Phasing is 
utilized when possible in order to allow other critical projects to be 
accomplished at the same time. Examples of major completed projects 
include: safety upgrades and stabilization at the Statue of Liberty 
National Memorial ($50 million); repairs to the Reflecting Pool at the 
National Mall and Memorial Parks ($38 million); the preservation and 
rehabilitation project at Tuskegee Ainnan National Historic Site ($28 
million); and replacement of unsafe deteriorated utility systems at 
various parks. Many of the recent major maintenance projects were 
completed using the American Recovery and Reinvestment Act (ARRA) 
funding, which provided a one-time boost for NPS construction funding.
    Question 5. Our National infrastructure is aging, as I imagine that 
many of our Park facilities are as well. Is this backlog expected to 
grow? What is the Park Service doing to limit this growth?
    Answer. The maintenance backlog at parks will likely continue to 
grow. Currently, less than half of the amount needed annually to hold 
the backlog at a ``steady state'' is appropriated. However, the NPS 
uses available funding to target the critical systems of the highest 
priority (mission-critical or mission-important) assets; this strategy 
will maintain a large number of important assets.
    Question 6. Is creating new National Park units a greater priority 
than the $13 billion maintenance backlog? If not, should we then wait 
until the backlog is paid down before this new. unit is created or we 
expand other National Park Units?
    Answer. The mission of the National Park Service is to protect and 
preserve cultural and natural resources for the enjoyment of the public 
and future generations. There are many sites currently unprotected and 
vulnerable to development or degradation that may be as important to 
our American story as resources already under NPS protection. The 
proposed new national park units would be important additions to the 
National Park System. The $11.5 billion deferred maintenance backlog is 
a significant concern to the NPS, but the designation of these new 
units should not have to be postponed because of the backlog.
    Question 7. Can you please outline the costs associated with the 
crea.tion of each of the new park proposals before us today?
    Answer. Four new units of the National Park System would be 
established by bills under consideration at this hearing. The cost 
estimates for these parks are as follows:

Valles Caldera National Monument:
Operations: $4 million annually
Development: $26 million

Land Acquisition: undetermined, expected to be minimal
Blackstone River Valley National Historical Park:
Operations: $2.6 million
Development: $6.1 million
Land Acquisition: $4.8 million

Manhattan Project National Historical Park:
Operations: $2.4 million to $4 million annually
Development: $750,000 (general management plan) and unknown costs for 
the Department of Energy
Land Acquisition: undetermined

Coltsville National Historical Park:
Operations: undetermined
Development: undetermined- potential range is from $720,000 to $9.3 
million
Land acquisition: undetermined

    Question 8. What will the new annual operating costs for each of 
the parks be? Which maintenance backlog projects would these funds have 
gone to if this park were not created?
    Answer. The anticipated operating costs are noted in the question 
above. However, in the initial years of operation, the parks would 
likely receive less than $200,000 annually. Any proposed funding for 
newly authorized units of the National Park System, and any proposed 
funding for reducing the maintenance backlog, would be determined 
through the Administration's budget priority-setting process. Spending 
for new units would not necessarily offset spending for the maintenance 
backlog.

                                 S. 285

    Question 1. Can you give me an estimate on the amount of funds the 
Park Service has expended on the Valles Caldera Preserve since 2000 in 
hard appropriated funding as well as services-in-kind work?
    Answer. The National Park Service has not received any appropriated 
funding to directly support the Valles Caldera National Preserve 
(Preserve). The NPS does, however, provide in-kind support to the 
Preserve. The superintendent of Bandelier National Monument (NM) serves 
as a member of the current Valles Caldera Trust (Trust). In that role 
he attends meetings three times a year and consults with other board 
members regularly. In addition, Bandelier NM park staff participate in 
the Collaborative Forest Landscape Restoration Program with local land 
managers including the Trust; the park's fire ecologist and fire 
management officer participate in a regional fire ecology group that 
helps to manage the regional fire management response; the park's chief 
of resources is a member of an ecology group, which is composed of 
staff from various federal agencies; and, there are other regional 
activities that involve local land management agencies and their 
interests. All told, it is estimated that the Bandelier NM staff have 
contributed roughly $100,000 of in-kind work to the Preserve since 
2001.
    In addition, the NPS Intermountain Regional Office's Planning 
Division, in conjunction with various partners, including Bandelier NM, 
the Trust, and the U.S. Forest Service (USFS) completed the Update 
Report on the NPS 1979 New Area Study in December2009 at the request of 
Senator Tom Udall and former Senator Jeff Bingaman. This report cost 
the NPS approximately $22,000 in employee time and travel.
    Question 2. Can you give me an estimate on the cost of bringing the 
property up to Park Service standards, including the cost of new 
infrastructure such as a visitor's center, etc.
    Answer. Based on current expenses for the Preserve and the cost to 
operate comparable NPS units, we anticipate the annual cost to operate 
and manage the Preserve would be approximately $4 million, although 
more complete cost estimates would be developed through a General 
Management Plan. The costs to develop infrastructure, which may include 
a visitor center, a maintenance facility, trails, roads, parking, and 
exhibits, could be approximately $22 million, but would depend largely 
on the planning process and public input into that process.
    Question 3. Can you compare and contrast the Santa Fe National 
Forest's firefighting capabilities with that of the Bandelier National 
Park's firefighting capabilities?
    Answer. Bandelier National Monument shares firefighting 
capabilities and has agreements in place with the Santa Fe National 
Forest, the Bureau of Indian Affairs, the Los Alamos National 
Laboratory, New Mexico State Forestry, and other partners in the Santa 
Fe Zone to utilize interagency resources during fires.
    The structure of Bandelier's fire management division is somewhat 
different from the Santa Fe National Forest. In addition to suppression 
resources, Bandelier hosts aviation, fuels management, a wildland fire 
module, and a fire ecology program, which supports a fire effects crew. 
The fire ecology program and fire effects crew are key contributors to 
basing our fire management objectives on science-based adaptive 
management. These functions all reside within the Bandelier NM Division 
of Fire Management and help integrate fire management activities within 
the monument and on an interagency basis.
    For the past 10 years, Bandelier NM has been a key player in the 
Santa Fe Zone. Bandelier manages the Santa Fe Zone Interagency Fire 
Center Heliport and the Type 3 contract helicopter. The interagency 10-
person crew that serve the Santa Fe Zone are assigned to this facility.
    Question 4. Can you compare the fire fighting capability of the 
Forest Service to that of the National Park Service's fire fighting 
capability?
    Answer. Federal wildfrre response requires an interagency and 
intergovernmental response, and therefore, it is difficult to make 
comparisons between the firefighting capabilities of the two agencies. 
Both the NPS and the USFS are members of the National Wildland Fire 
Coordinating Group, which establishes standards for firefighters and 
firefighting assets. The NPS assets meet established national standards 
and training, as do all assets from Department of Interior agencies and 
from the USFS. In number, the NPS firefighting assets are only a 
fraction of the USFS assets; however, all of the land management 
agencies work across boundaries on an interagency basis. This 
coordination is critical to wildland fire management and safety.
    Question 5. I understand that the best agency needs to manage the 
land for the mission involved, but clearly the mission for Valles 
Caldera is multiple use. I believe that many members of the Jemez tribe 
and northern New Mexico stockmen are in agreement and are concerned 
with potential NPS management, so please tell me what the NPS is a 
better choice to manage this land than the Forest Service?
    Answer. Numerous studies, including the updated new area study 
completed in 2009, at the request of Senator Tom Udall and former 
Senator Jeff Bingaman, found that Valles Caldera meets the criteria for 
designation as a unit of the National Park System.

                                 S. 59

    Question 1. Are there any other examples of private museums being 
designated as ``National Memorials?''
    Answer. We are not aware of any private museums that have been 
designated by Congress as National Memorials. We note that the bill 
would not designate the March Field Air Museum itself as a national 
memorial, bt rather it would bestow this title upon a memorial on the 
grounds of the museum.
    Question 2. Is there any estimation of the fmancial benefits and 
increased patronage that will accrue to this private museum as a result 
of the designation?
    Answer. As the March Field Air Museum is not affiliated with, nor 
proposed to have any relationship with, the National Park Service, we 
have not conducted any analysis or evaluation of the effects of the 
proposed designation.

                                 S. 305

    Question 1. This bill expands the size of Vicksburg National 
Military Park more than 6 times over. Why is this expansion necessary 
now, over 100 years after the creation of the original park?
    Answer. The Vicksburg Campaign Trail Feasibility Study, completed 
by the National Park Service in 2005, recommended that the battlefields 
at Champion Hill and Port Gibson be added as units to Vicksburg 
National Military Park to protect and preserve sites connected with 
this turning point of the Civil War. The study also recognized the 
significance of the Raymond Battlefield, which was not recommended as 
an addition to Vicksburg National Military Park at the time of the 
study because the non-profit that manages the site had planned to 
continue to do so indefinitely.
    It is not accurate that the bill would expand Vicksburg National 
Military Park by more than six times its current size. The bill would 
not allow any expansion of the park unless and until battlefield land 
is actually acquired by the NPS. The likelihood that all the acreage 
eligible to be acquired would be acquired is very small.
    Question 2. Given the proximity of this land to established 
development, acquisition costs for this proposed addition must be very 
high. Do you believe that the estimate of approximately $20 million is 
accurate?
    Answer. Most of the land that would be eligible for acquisition is 
rural and remote from dense development. The value per acre has been 
estimated between $1,700 and $3,000. If the bill is enacted, the NPS 
expects to receive donation of the land held by the state of 
Mississippi, the Friends of Raymond, and the Civil War Trust.
    The value presumes that the agency would acquire all private land 
within those identified areas in fee, which is the most costly 
approach. The NPS often pursues scenic easements and other less-costly 
options for protecting land. In addition, it often takes many years 
from the time the agency is given the authority to acquire land to the 
time funding is appropriated for that purpose.


                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Maureen Finnerty, Chair, Executive Council, Coalition of 
               National Park Service Retirees, on S. 371

    Mr. Chairman and Members of the subcommittee, thank you for this 
opportunity to present the views of the Coalition of National Park 
Service Retirees on S. 371, a bill to establish the Blackstone River 
Valley National Historical Park, to dedicate the park to John H. 
Chafee, and for other purposes. We are submitting this to be 
incorporated for the record with other testimony of your Hearing of 
April 23, 2013.
    This is important legislation. We strongly support the enactment of 
S. 371. It would create a Blackstone River Valley National Historical 
Park based on its real significance to the nation, and sustained by 
mutually supportive partnerships.
    It is the ``wholeness'' of the Blackstone Valley that makes it 
significant. It is the reason S. 371 is structured as it is. Few places 
exist where such a concentration of integrated historic, cultural and 
natural resources has survived and can be made accessible by 
interpretation, preservation and management strategies. This resource 
tells the story of a watershed that depicts every phase of industrial 
development and environmental interaction from colonial times to the 
present era of revitalization. Much can be learned here about what 
makes a landscape environmentally and economically sustainable. In one 
small area of approximately 700,000 acres between Worcester, 
Massachusetts and Providence, Rhode Island--a river basin of only about 
45 miles long and 22 miles wide--you can still see on the landscape 
evocative layers of nearly every phase of American development in the 
Northeast.
    The streams and tributaries of the Blackstone River descend 450 
feet from the hills in and above Worcester, Massachusetts to the 
Narragansett Bay, or 10 feet a mile--a faster descent than the Colorado 
River through Grand Canyon National Park. Through the work of people 
and the power of this geography, the river and its tributaries became 
the first place in the United States to experience the widespread use 
of waterpower for industry; the Valley became the center of industrial 
innovation for the nation, the Silicone Valley of its time.
    The first layer you can see along these waterways is evidence of 
Native American settlements, early transportation routes, and 
vocabulary of resource features highlighting the significance of the 
waterways. These waterways are fed by what The New Yorker magazine 
called ``large and spectacular wetlands.''\1\ Surrounding the wetlands 
you can see important concentrations of colonial rural landscape 
development including hilltop villages with village commons, and 
crossroad villages and colonial transportation systems. The industrial 
and waterpower period followed, with riverside industrial villages and 
cities, including large parts of the 2nd and 3rd largest cities of New 
England, and then continued layers to our time. You can see the affect 
of landscape on culture, and culture on landscape at every stage. You 
even can perceive a sense of the way forward toward the future, or at 
least the choices and the opportunities for the future.
---------------------------------------------------------------------------
    \1\ `` . . . the Blackstone Valley (was) the first area in North 
America to be industralized. The  . . . Massachusets part, which is 
bordered by large and spectacular wetlands, stayed mostly undeveloped, 
but in Rhode Island mill villages dotted the hillsides . . . Every town 
on the river was supported by a mill, and every waterall on the river 
had a mill next to it.  . . . ``The New Yorker magazine, ``Encountering 
The Countryside,'' August 28, 1989, pp. 37-63.
---------------------------------------------------------------------------
    The rolling farmlands lined with classic New England stone walls 
remind you that the dawn of industry led to the revitalization of 
farming--just one of many unexpected interrelationships this park will 
be able to illustrate and interpret. With the concentration of 
distinctive resources across an entire landscape, this park could be 
understood as a natural resource. With the unique survival here of 
representatives elements of entire 18th and 19th century production 
systems, this Valley can be seen as a machine--a watershed harnessed as 
one integrated machine. For many national historical parks with one or 
two primary resources a compact park and legislative framework may work 
best. For the Blackstone Valley, a combination of parkland 
administration and partnership collaboration is needed, as provided by 
S 371.
    This reshaping of the river basin, its physical and social 
response, the creation of sustainable wealth and community, its 
economic and environmental decline and more recently its pathway to 
restoration is the major significance of the Blackstone River Valley. 
The story it tells of America is both compelling and potentially 
redeeming.
    This Valley has high integrity, is compact, and capable of 
supporting the very best of interpretation and public programming in a 
living, working cultural landscape.
    It is certainly much more, and much more interesting to visitors, 
than the probably-misnamed ``Birthplace of the American Industrial 
Revolution.'' Describing these resources as exclusively industrial or 
of a narrow period of industrial history truly misses and seriously 
understates what makes the Blackstone River Valley significant on a 
national scale.
    Rather than a park boundary to include the whole watershed--the 
complete resource--as we and others originally proposed, this bill is a 
brilliant solution to the key issue of landscape and boundary. 
Brilliant, in the sense of a more modest, efficient and cost effective 
framework while still centered on the ``wholeness'' of the Blackstone 
River Valley. S. 371 accomplishes this by relying on the local 
jurisdictions and private sector involvement, and especially on 
partnering with the surrounding National Heritage Corridor, to enable a 
much smaller park.
    As called for by the Special Resource Study (SRS) the park would be 
anchored in the essential 5 representative historic districts and, as 
its spine and network, the Blackstone River with its tributaries and 
canal. S. 371 would enable the state of Rhode Island to donate the 
Blackstone River State Park within in the Ashton historic mill village, 
as needed in the opinion of the NPS to be the robust anchor of NPS 
administration and the link to other park partnership districts.
    We recommend that the committee's report specifically state that 
the public overwhelmingly identified the river and tributaries as 
essential park resources because they are essential to the story of 
waterpower, they are the spine holding the Valley together, and they 
offer an important way to view and enjoy the park. They also represent 
the natural environment that always has been seen by the local public 
as the first purpose of the preservation efforts in the Valley, even as 
far back as the 1980's in the first survey conducted by National Park 
Service for the first management plan.
    Therefore, we strongly urge the committee to include in the park 
all the key resource areas identified in the Special Resource Study, as 
are found in S. 371 as written.
    We will say more at the conclusion about the goals of our 
Coalition, but at this point let me say simply that a primary 
responsibility of the Coalition of National Park Service Retirees is to 
provide insight on how legislation and policy and practice REALLY 
affect things in the Field, where as everyone knows, the rubber meets 
the road. We appreciate how difficult it can be to get beyond theory 
and `what if's' to what really can work.
    To that end, our judgment is that the National Park Service is to 
be congratulated for the distinction and insight of the Blackstone 
River Valley Special Resource Study, the basis of this legislation. The 
Valley is as important and as complex a landscape as may be found, and 
the National Park Service responded with many elegant and essential 
resource preservation solutions in this SRS. In addition to the 
interests of multiple federal agencies, this park plan engaged two 
sovereign states and over 20 New England towns and cities and 40 
historic villages. The SRS team did the work, worked with the public 
and really listened, and to be noted, they also read and assessed all 
the voluminous evaluations and analysis, the plans and their results 
that you find in the SRS Bibliography. It is a remarkable demonstration 
of strength that the team understood and articulated the special needs 
of this resource.
    The SRS calls for NPS expenditures on the same order of magnitude 
as the last 20 years. As the Conservation Study Institute report 
demonstrates, if the existing energy and imagination and partnerships 
in the Valley from the NPS' past experience are incorporated into this 
new national park, the costs will be very modest. We believe that the 
higher vision established by S. 371 will attract motivated partners, 
and that unequivocally enabling collaboration will attract significant 
investments by the private sector, by State and local government, and 
by other federal agencies.
    The National Park Service has demonstrated over the past 20 years 
that it and its partners have developed the right balance among the 
private sector, the local governments and the federal government. None 
of the communities or businesses has raised concerns over any loss of 
authority. No community has ever asked to be deleted from the heritage 
area. In fact, other communities keep asking to join. During the public 
review of the SRS, the overwhelming community response was in support 
of the park, with nearly all those who spoke at the public meetings 
calling for including the river and its tributaries in the park. This 
comes from placing the public at the center of decision making, of 
getting the balance of incentives right, but above all by the power of 
the Meaning of the resource and power of an exciting park story people 
identify with. This legislation builds from those positive 
relationships.
    The Coalition of National Park Service Retirees strongly supports 
the provision to dedicate the Blackstone River Valley National 
Historical Park to the late Senator John H Chafee. Senator, Chairman, 
Governor, Secretary of the Navy and Marine John H. Chafee will be as 
inspiring to park visitors as he is to us. He worked extremely well 
with all the other Massachusetts and Rhode Island Members of Congress 
in support of the Blackstone Valley. His successful efforts to 
revitalize the nation's air and water may be seen as a microcosm for 
the same in the Blackstone Valley. He knew that a healthy nation and a 
healthy economy require a healthy environment, as is also reflected in 
history of the Valley and the purpose of the National Heritage 
Corridor, now named for Senator John H Chafee.
    Thank you for considering this testimony of the Coalition of 
National Park Service Retirees.
    The more than 800 members of the Coalition of National Park Service 
Retirees are all former employees of the National Park Service (NPS) 
with more than 26,000 years of stewardship of America's most precious 
natural and cultural resources. In their personal lives, CNPSR members 
maintain their professional outlook. Just as the national parks are 
supported by the broad spectrum of the American people, the CNPSR 
members reflect the broad spectrum of political affiliations. CNPSR 
members now offer their professional experience and integrity as they 
speak out for national park solutions that uphold law and policy. Our 
members also support the mission of the National Park Service through 
public education.
                                 ______
                                 
                             Los Amigos, De Valles Caldera,
                                      Santa Fe, NM, April 23, 2013.
David Brook,
Counsel, Senate Energy and Natural Resources Committee, Washington DC.
Re: SB285

    Dear Mr. Brooks: As this bill comes up in front of the National 
Parks Subcommittee, we would like to reiterate some of our previous 
concerns (letter to Senators Bingaman and Udall, Feb- ruary 24, 2010, 
June 27, 2010 Testimony re SB3452, and letter to Sen. Bingaman May 10, 
2011), as well as mention some new ones.
    We are Los Amigos de Valles Caldera, a 501(c)(3) non-profit 
organization incor- porated in New Mexico on September 30, 2006 by 
former members of the Board of Trustees of the Valles Caldera National 
Preserve and others. The Valles Caldera National Preserve, formerly the 
privately owned ``Baca Ranch,'' is an 89,000-acre property located in 
the Jemez Mountains in northern New Mexico purchased by the federal 
government in 2000 under the Valles Caldera Preservation Act and placed 
under the management of the Valles Caldera Trust.
    Los Amigos' mission is to support the Valles Caldera National 
Preserve for present and future generations through outreach, 
education, restoration, and collaboration.
    Los Amigos currently has over 200 members. Los Amigos is supported 
by govern- ment grants, grants from private foundations, and individual 
contributions. These individual contributions have ranged from $25 to 
$1,000 and have come from a wide variety of people across the country. 
We have brought in over $1 million in restoration funding.
    Los Amigos was created to support the Preserve, and we plan to 
continue with that mission, no matter who is managing the Preserve. 
However, we have a number of concerns about the proposed legislation to 
transfer the Preserve from the Trust to the Park Service:
    One.--The fourth and final criterion used by the Park Service in 
determining whether they should manage an important natural resource 
when it is already being managed by another federal agency was 
noticeably left unanswered in the NPS report regarding the Valles 
Caldera. According to National Park Service Management Policies 2006: 
``To receive a favorable recommendation from the Service, a proposed 
addition to the national park system must (1) possess nationally 
significant natural or cultural resources, (2) be a suitable addition 
to the system, (3) be a feasible addition to the system, and (4) 
require direct NPS management instead of protection by other public 
agencies or the private sector. These criteria are designed to ensure 
that the national park system includes only the most outstanding 
examples of the nation's natural and cultural resources. These criteria 
also recognize that there are other management alternatives for 
preserving the nation's outstanding resources. . . . There are many 
excellent examples of the successful management of important natural 
and cultural resources by other public agencies, private conservation 
organizations, and individuals. The National Park Service applauds 
these accomplishments and actively encourages the expansion of 
conservation activities by state, local, and private entities and by 
other federal agencies. Unless direct NPS management of a studied area 
is identified as the clearly superior alternative, the Service will 
recommend that one or more of these other entities assume a lead 
management role, and that the area not receive national park system 
status.'' According to the letter transmitting the NPS report regarding 
the Preserve, ``The scope of this report is limited to the first three 
criteria, and the need for NPS management is not addressed.'' So we 
wonder, how and in what way could they do a better job than the Trust? 
With all due respect, this crucial question needs to be directly faced 
and addressed. As articulated by the Park Service, this last criterion 
is not a political decision, but rather a matter of history, financial 
resources, and staffing of the Service itself.
    Two.--The answer to the fourth criterion would have to take into 
account the Park Service's current budget problems. Under the 
Sequester, the NPS is taking a $63 million cut, which they say will 
mean 900 positions will go unfilled. Even before this cut, the NPS 
budget has been cut several times since the original of this bill was 
introduced. It is common knowledge that the NPS is unable to meet its 
backlog of maintenance at its current units. This has been cited in 
articles in the press as well as in GAO reports. The Park Service 
indicated in their testimony in 2011 regarding the earlier iteration of 
this bill that $32 million would be needed immediately after the 
Preserve went to the Park Service, for infrastructure. Then another $4 
million would be needed annually for administration. It is unclear how 
this could be accomplished under the cuts from the Sequester. The Los 
Alamos Monitor reported that there will be furloughs at Bandelier 
National Monument, and that they may be cutting off some access to the 
backcountry because of the Sequester.
    The Trust is currently not having this problem. As they showed in 
the 2012 State of the Preserve, they have increased visitation (110,000 
in 2012), revenue, and restoration. They are now ``in the black'' in 
the livestock program. They are obtaining 30 percent of their total 
operating costs through fees and donations. They will not be 
furloughing any employees under the Sequester, and they will not be 
eliminating programs.
    Three.--Since the introduction of the original bill in 2010, the 
Preserve and its neighbors have been the victims of a large and 
devastating fire, the Las Conchas Fire of 2011. A third of the Preserve 
was burned, and although some of that was beneficial, a lot of it was 
not and still continues to have impacts on streams and wetlands. 
Therefore, everyone agrees that the most critical work to be 
accomplished on the Preserve in the foreseeable future is the 
restoration of the forest ecosystem to a manageable condition and the 
restoration of the wetlands damaged in part by the Las Conchas Fire.
    The Southwest Jemez Mountains Collaborative Forest Landscape 
Restoration Program (CFLRP) Project has been funded by the Department 
of Agriculture. That project is designed to improve the resilience of 
ecosystems on the Preserve and on the Santa Fe National Forest to 
recover from wildfires and other natural disturbances and sustain 
healthy forests and watersheds by thinning and prescribed burning to 
restore more natural fire regimes.
    If the Preserve goes to the Park Service, in the Department of the 
Interior, that money will be lost, along with our best opportunity to 
help prevent any further fires in the Preserve. This is a major concern 
to Los Amigos, the Trust, and the neighbors of the Preserve. If forest 
restoration is not significantly accomplished in the near future, the 
Preserve will be at great risk for a further catastrophic fire. We in 
New Mexico are beginning another dangerous fire season. The moisture at 
the Preserve is at only 65 percent of normal for this time of year. 
This is frightening, given the forecast for continued lack of 
significant precipitation in the area.
    We hope that the subcommittee will consider these points. We feel 
that this may not be the best time for a change in management. The 
Trust seems to be making significant progress toward the goals set for 
it in the Valles Caldera Preservation Act. We hope that Congress will 
give them the time to meet all of those goals and to show the potential 
benefits from a new kind of public land management.
    We appreciate the committee's ongoing willingness to consider our 
concerns. Thank you.
            Very truly yours,
                                               Doug Fraser,
            Chair, Board of Directors Los Amigos de Valles Caldera.
                                 ______
                                 
 Statement of George Dini, Mayor, City of Yerington, Nevada, on S. 159

    Chairman Manchin, members of the subcommittee, I appreciate the 
opportunity to offer testimony in favor of S. 159, the Lyon County 
Economic Development and Conservation Act introduced by Senator Heller, 
Cosponsored by Senator Reid, and supported by the entire Nevada 
Congressional Delegation.
    I am proud to serve as the Mayor of Yerington, Nevada. I am joined 
today by Lyon County Manager Jeff Page on behalf of the Lyon County 
Commission, to jointly express the support of the 3,156 citizens of 
Yerington and 52,000 citizens of Lyon County and to urge the committee 
to pass this bill. This land sale represents the economic future of our 
City and County.
    I also express the support of Nevada Governor Sandoval, and a 
multitude of local and regional support.
    The City of Yerington is located in Northern Nevada in the Mason 
Valley and we have a long proud history of mining and agriculture. 
However, our current economy is in bad shape. Our unemployment in Lyon 
County has averaged over 15 percent during the past year and our 
citizens are suffering greatly. Over the past 10 years, we have been 
fortunate to receive over $20 million in Federal funding that has been 
critical to maintaining our public infrastructure; however, this is not 
how our citizens want to survive as a community. We seek jobs and the 
ability to work hard to raise our families in a growing and vibrant 
community. We need long-term stable jobs for our citizens and an 
industry that will provide sustainable economic growth for decades.
    S. 159 mandates the fair market sale of approximately 10,400 acres 
of federal lands--just 1 percent of 975,000 acres of federal lands in 
Lyon County--to the City of Yerington for economic development, a 
recreation events center and open space purposes.
    The lands that will be conveyed have no current important uses. 
There is no threatened or endangered species habitat, no water 
resources, and no significant cultural resources. This is barren land 
that has few redeeming natural qualities.
    The purchase of these lands will allow the City of Yerington to 
annex the Pumpkin Hollow Mine site, sell water and sewer services to 
the mine operation, benefit from taxes paid by the mine, allows the 
City to grow economically and benefit from greatly needed recreation, 
cultural and economic development lands.
    The legislation also designates land for the Wovoka Wilderness, 
which is located in the South Pine Grove Hills. The land was identified 
as part of a local consultation process. In addition to wilderness, the 
legislation protects the County against a potential listing of the sage 
grouse on the Endangered Species List, protects existing grazing 
interests, maintains public access on existing roads, and provides 
continued access to recreation and hunting. On December 3, 2012, the 
Lyon Board of County Commissioners unanimously approved a resolution 
supporting the designation as outlined in S. 159. I also support this 
designation.
    For over four years, the City of Yerington has been working with 
Nevada Copper to craft a development plan for the Pumpkin Hollow Mine 
that will ensure the City of Yerington will economically benefit from 
the development of the mine creating a sustainable future for our City. 
The Pumpkin Hollow Copper mine that sits on private lands near the City 
of Yerington. With or without this legislation, Nevada Copper will 
develop and produce millions of tons of valuable minerals. The question 
really is whether the Yerington will benefit from this new mining 
project.
    Nevada Copper proposes to start full project development--an 
investment of approximately $1 billion--starting in 2013. In March, the 
company secured $200 million to initiate the development of the 
underground mine and mineral processing facilities at Pumpkin Hollow. 
The company would like to invest another $800 million to build out the 
much larger integrated open pit and underground mining operation. 
However, that level of financing will only happen subject to passage of 
S. 159.
    The integrated mine operation facilitated by this legislation will 
create over 800 direct mine operations jobs and up to 500 construction 
jobs. Using the current published jobs multipliers a total of over 
2,000-3,000 direct and indirect jobs would be created by the mine.
    The timely passage of this legislation cannot be over-stated. We 
are operating on a tight timeline. With the financing they have 
received, Nevada Copper is initiating detailed siting, engineering and 
design of project infrastructure. This legislation will allow Yerington 
to work with the Nevada Copper to locate infrastructure for water, 
sewer, and power for both mine development and the other uses 
contemplated by the City. Both the City and Lyon County will be able to 
share in property, sales, utility and net proceeds of mines taxes from 
mine operations. If this legislation is not successful, the mine will 
proceed, but as in the past, Yerington will simply have to deal with 
the impacts with no real benefits to the City other than some jobs for 
citizens.
    As importantly, with this contiguous block of land, the City and 
Nevada Copper can begin to plan for the future, long after mining is 
complete. The development agreement between the City and Nevada Copper 
will ensure that the Company leaves behind resources and assets that 
will provide sustainable economic growth for the City. S. 159 
solidifies the critical partnership that will provide economic 
enhancement for decades-and at no cost to the American taxpayer.
    Some of the lands will also be utilized for economic development as 
commercial and light industrial needs increase to support the 
operations of the mine. Also, the City is proposing a portion of the 
lands be utilized for renewable energy development such as solar 
energy. Lastly, some of the lands will be utilized by Nevada Copper to 
maximize the mining operations on their patented lands.
    As you can see, the sale of these lands to the City of Yerington 
will have a dramatic, positive impact by increasing jobs, the 
investment in Nevada, and increased tax revenues for the City, Lyon 
County and the State of Nevada. It will also generate jobs and economic 
activity in over 20 states nationwide for equipment, materials and 
supplies.
    Mr. Chairman, the City of Yerington is not asking Congress to give 
the City some public lands in the hope of attracting economic 
development. We are asking to pay fair market value to acquire a very 
small percentage of federal lands that have little or no use to the 
public in order to enhance and increase development that is already 
occurring at the Pumpkin Hollow site. I cannot express enough the 
importance of this project to the future of our City and I urge the 
Committee to support S. 159.
                                 ______
                                 
   Statement of Derb. S. Carter, Jr., Director of the North Carolina 
     Offices of the Southern Environmental Law Center, on H.R. 819

    This testimony is submitted on behalf of Audubon North Carolina and 
Southern Environmental Law Center (SELC). In addition, SELC has 
represented Defenders of Wildlife in litigation prompting the 
rulemaking process, in the rulemaking process itself, and in 
intervening in litigation on the side of the National Park Service to 
defend the Final Rule that would be abolished by HR 819. SELC also 
represents National Parks Conservation Association in defending the 
Final Rule.
    We strongly oppose HR 819. We support the National Park Service's 
Final Rule to manage off-road vehicle use on Cape Hatteras National 
Seashore in North Carolina. The bill would abolish the Final Rule which 
was adopted by the National Park Service after extensive public review 
and comment. The bill would eliminate sensible safeguards to preserve 
Cape Hatteras National Seashore for current visitors and future 
generations to explore and enjoy. In the one year of management under 
the Final Rule, visitation to the Seashore increased, tourism set 
record highs, and wildlife on the Seashore continued to rebound.

          Passage of HR 819 would ignore and undermine:
Extensive public involvement in adoption of the Final Rule:
    The public process informing the National Park Service's management 
plan included numerous public meetings, a negotiated rulemaking process 
that included opportunity for public comment at each meeting, and two 
public comments periods, during which 21,258 written comments were 
received on the draft Final Rule and its supporting environmental 
impact statement. The vast majority of commenters wrote in favor of 
stronger wildlife protections and more stringent off-road vehicle (ORV) 
restrictions than even those contained in the Final Rule. The National 
Park Service weighed all the comments and public input and struck a 
careful and fair balance among competing uses of the Seashore, which is 
embodied in the Final Rule. The Final Rule should be given a chance to 
succeed.

Detailed economic and environmental review
    The Park Service's extensive review culminated in lengthy economic 
reports and cost-benefit analyses, an environmental impact statement 
that examined six alternatives to the Final Rule, and a detailed 
biological opinion issued by the U.S. Fish & Wildlife Service, all of 
which supported the Final Rule as it was written. The management 
measures in the Final Rule are based on a robust scientific record 
supported by leading experts.

Balanced access for pedestrians and ORV users provided by the Final 
        Rule
    The Final Rule provides a balanced approach to Seashore visitation, 
designating 41 miles (28 year-round and 13 seasonal) as ORV routes of 
the Seashore's 67 miles of beaches. Only 26 miles of beaches are 
designated as year-round vehicle-free areas for pedestrians, families, 
and wildlife, to promote pedestrian access and reduce user conflicts 
between motorized and non-motorized visitors. While limiting off-road 
vehicular traffic in these areas, the new plan will also provide new 
parking facilities and access ramps to facilitate visitor access to 
beaches.
    The Final Rule and management plan only closes beaches when 
necessary to protect nesting waterbirds and sea turtles from 
disturbance. Today, one hundred percent of the Seashore beaches are 
open to pedestrians and 61 percent of the beaches are open to ORV and 
pedestrian use. The remaining 39 percent of the beaches are reserved 
for pedestrian use only. During the breeding season for waterbirds 
(late April through July) only those areas where birds are attempting 
to nest are closed when prescribed disturbance buffers require closure. 
Once nesting is completed, these areas are opened.
    Most other national seashores either have regulations in place to 
manage and restrict ORV use or do not allow ORV use at all; only one 
national seashore continues to allow beach driving without a regulation 
in place. Four national seashores have long prohibited ORVs entirely, 
while four others have regulations restricting ORV use. All of those, 
except Padre Island, allow driving on a much smaller percentage of 
their beaches than does the Cape Hatteras Final Rule. Thus, the number 
of miles Cape Hatteras's beach set aside for ORV use in the Final Rule 
is significantly more extensive than most other national seashores.

The overwhelming weight of scientific authority
    In contrast to the utter dearth of science to support HR 819, an 
extraordinary amount of scientific evidence shows that the Final Rule's 
beach driving restrictions are warranted and are the minimum necessary 
to preserve the natural resources of the Seashore for future 
generations. The rulemaking record includes hundreds of peer-reviewed 
articles, the peer-reviewed protocols developed by the government's own 
scientists at the U.S. Geological Survey, and the support of scientists 
at the U.S. Fish & Wildlife Service and the North Carolina Wildlife 
Resource Commission. Arguments for ORV use on the entire Seashore are 
not only contradicted by substantial scientific studies at the Seashore 
and other locations, they are not supported by any scientific evidence 
in the record.

Five years of thriving tourism:
    In the four years under reasonable wildlife protections and ORV 
restrictions similar to those implemented in the Final Rule\1\ and one 
year under the Final Rule, tourism has thrived, park visitation has 
held steady and increased in some years, and tourism revenues grew. 
Notably, in the last two years, new records have been set for visitor 
occupancy and tourism revenue in Dare County, North Carolina, where 
much of the Cape Hatteras National Seashore land is located.
---------------------------------------------------------------------------
    \1\ These wildlife protections were established in a consent decree 
was entered by the U.S. district Court for the Eastern District of 
North Carolina in the federal lawsuit entitled Defenders of Wildlife et 
al. v. National Park Service et al. (E.D.N.C. case no. 2:07-CV-45). It 
imposed protections and beach driving restrictions beginning in 2008 
that are very similar to those in the Final Rule.
---------------------------------------------------------------------------
    With the exception of 2011, when Hurricane Irene cut off access to 
Hatteras Island for nearly two months, visitation to Cape Hatteras 
National Seashore has remained steady or increased for the past nine 
years, from a low of 2,125,005 (in 2006) and a high of 2,302,040 in 
2012. In the first year of management under the Final Rule, Seashore 
visitation was the highest since 2003.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Dare County, NC, where the majority of the Seashore is located, 
reports that visitor occupancy tax receipts for each year under the 
court ordered ORV restrictions (2008 to 2012) exceeded receipts in 2007 
and prior years, with 2008, 2010, 2011, and 2012 setting successive 
records for all-time high receipts. Tourism revenue for Hyde County, NC 
(the Ocracoke Island portion of Cape Hatteras National Seashore) has 
held steady or increased since 2005, to a record high $31.69 million in 
2011. The chart below shows tourism revenue data for Hyde and Dare 
Counties, both before the court ordered ORV restrictions went into 
effect in 2008 and afterwards:

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The majority of the national seashore is on Hatteras Island in Dare 
County. Dare County reports that occupancy revenue from hotels, rental 
homes, campgrounds, etc. on Hatteras Island was seven percent higher in 
2012 (the first year under the Final Rule) than in 2007 (the year that 
the Interim Management Strategy, to which HR 819 would return the 
Seashore, was in effect). This was true despite the fact that access to 
Hatteras Island was cut off after Hurricane Sandy for nearly two months 
in late 2012. Occupancy receipts have been steadily rising in recent 
years under reasonable wildlife protections and ORV restrictions 
similar to those implemented in the Final Rule. The Dare County 
Visitor's Bureau reports that Hatteras Island visitors spent a record-
setting $27.8 million on lodging during the month of July 2010 
(surpassing July 2009 by 18.5 percent). July 2011 occupancy receipts on 
Hatteras Island then set a new high of $29.6 million. Then July 2012 
set yet another new all-time occupancy high on Hatteras Island at 
$30,577,703. July has the maximum restriction on ORV use due to 
seasonal safety ORV closures in front of villages, breeding bird 
closures, and night driving restrictions for nesting sea turtles. The 
occupancy receipts for June and September 2012, the first year under 
the Final Rule, also exceeded the levels for the prior years posted on 
Dare County's Visitor's Bureau website, and may also represent all-time 
records. (See http://www.outerbanks.org/outerbanks-statistics/ (graphs 
for ``Occupancy by District'')).
    Although only 4-5 percent of Seashore visitors have an interest in 
driving on the beaches, these visitors have this opportunity at all 
times under the Final Rule. Since the Final Rule went into effect on 
February 15, 2012 (through March 4, 2013), the National Park Service 
has issued 32,893 permits to operate an ORV on Seashore beaches (9,086 
annual and 23,807 weekly permits). Permits require an applicant to view 
a short educational video on safe driving on the beaches. In the first 
year under the permit system instituted by the Final Rule, speeding 
violations on the beaches decreased by 88 percent from 200 in the prior 
year to 23.

Recovery of protected species under reasonable ORV restrictions:
    The various federally endangered, federally threatened, and state-
protected species of shorebirds, water birds, and sea turtles that live 
and/or breed on Cape Hatteras National Seashore beaches have rebounded 
in the five years under court ordered ORV restrictions and the Final
    Rule.--These species are sensitive to human disturbance during the 
nesting season. All species had declined--and some had even disappeared 
from the Seashore--under the prior plan that HR 819 seeks to reinstate. 
Under the court ordered ORV restrictions and Final Rule, records have 
been set for the number of sea turtle nests, piping plover breeding 
pairs, piping plover fledge chicks, American oystercatcher fledged 
chicks, least tern nests, and gull-billed tern nests.
    Sea turtle nests on Seashore beaches have nearly tripled from 82 in 
2007 to a record 222 in 2012. The number of breeding pairs of 
threatened piping plovers increased from 6 pairs in 2007 to 15 in 2012. 
The number of nests of beach nesting colonial waterbirds including 
terns and black skimmers has quadrupled, from 314 nests in 2007 to 1314 
nests in 2012. By all measures, the ORV use restrictions during the 
nesting season from May to July have been an unqualified success in 
restoring wildlife to the Seashore.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
The requirements of numerous federal laws:
    Executive Order 11644 and 36 C.F.R. Sec.  4.10 require all public 
land managers to adopt special regulations to authorize ORV use and 
requires that those plans not harm wildlife or degrade wildlife 
habitat.
    The Park Service Organic Act declares that national parks and 
seashores must be managed ``to conserve the scenery and the natural and 
historical objects and the wildlife therein and to provide for the 
enjoyment of the same in such a manner and by such means as will leave 
them unimpaired for the enjoyment of future generations.'' 16 U.S.C. 
Sec.  1. If a conflict exists between recreational uses and natural 
resource protection, natural resource protection predominates.
    The enabling legislation for Cape Hatteras National Seashore 
declares that it shall be ``permanently preserved as a primitive 
wilderness'' and that ``no development of the project or plan for the 
convenience of visitors shall be undertaken which would be incompatible 
[] with the preservation of the unique flora and fauna of the 
physiographic conditions now prevailing in the area.'' 16 U.S.C. Sec.  
459a-2.
    The Endangered Species Act requires that all federal agencies 
provide for the recovery of endangered species. 16 U.S.C. Sec.  
7(a)(1). HR 4094, in contrast, prescribes that any management plan for 
the Seashore only provide minimum protection to endangered species, but 
not recovery.
    The National Environmental Policy Act requires preparation of an 
environmental impact statement (EIS) for federal actions that 
significantly affect the environment. The Final Rule is supported by an 
EIS, but the Interim Strategy mandated by HR 4094 is not.

Conclusion
    In marked contrast to the National Park Service's Final Rule, HR 
819 would return Cape Hatteras National Seashore to the failed 
protocols of the Interim Protected Species Management Strategy that 
were proven to be devastating to birds, sea turtles, other natural 
resources, and the public's enjoyment of the Cape Hatteras National 
Seashore beaches prior to the introduction of the consent decree. Even 
the Interim Strategy itself states that it was not developed as a long-
term solution for managing ORV use at Cape Hatteras National Seashore, 
but rather expressly and repeatedly states that it was intended only to 
be implemented temporarily until the Final Rule was in place. The 
Biological Opinion for the Interim Strategy reiterates that it will 
negatively impact the natural resources of the Seashore in the long-
term.
    In contrast to the Final Rule, the Interim Strategy that HR 819 
seeks to reinstate:

          1. Was not supported by the same degree of public 
        participation and contradicts the wishes of the vast majority 
        of people who commented on the Final Rule;
          2. Is not supported by any data or evidence that it will have 
        a greater positive impact (or avoid a negative impact) on 
        tourism than the Final Rule;
          3. Is not supported by an environmental impact statement or 
        extensive economic studies, as the Final Rule is;
          4. Will reserve an extraordinary percentage of the miles of 
        Seashore beaches for a small minority of park users, to the 
        exclusion of the majority of park users who prefer to enjoy the 
        Seashore without the danger, visual blight, noise, and odor of 
        trucks monopolizing the beach;
          5. Is not supported by the great weight of scientific 
        literature, as the Final Rule is;
          6. Was responsible, in part, for the decline in population of 
        the many protected species at the Seashore by 2007; and
          7. Will violate and undermine the requirements of the federal 
        laws listed above.

    In sum, the National Park Service's Final Rule is a balanced plan 
to manage ORV use on Cape Hatteras National Seashore while providing 
areas for wildlife, and the vast majority of visitors who come to walk 
and not drive on the Seashore's beaches.
    Please oppose HR 819, and instead support the National Park 
Service's balanced and common sense management plan for Cape Hatteras 
National Seashore.
                                 ______
                                 
                                                      CREC,
                                      Hartford, CT, April 25, 2013.
Hon. Richard Blumenthal,
U.S. Senator, Washington, DC.
Hon. Christopher Murphy,
U.S. Senator, Washington, DC.
Hon. John Larson,
U.S. Representative, Washington, DC.
RE: S. 615/ HR 1259 the Coltsville National Historical Park Act

    Dear Senator Blumenthal, Senator Murphy, and Congressman Larson:
    I am writing to offer CREC's support for the passage of S. 615/ HR 
1259 the Coltsville National Historical Park Act, and our sincere 
endorsement for the designation of the Coltsville Historic District as 
a National Park. The people of Hartford and Connecticut deserve to have 
this historic site preserved. Establishing Coltsville National 
Historical Park in the State of Connecticut is an important step 
towards revitalizing our capital city. It will aid in the continued 
growth and redevelopment of the area, will bring new jobs and revenues 
to our city, and will provide generations of children and families 
access to this important historic landmark.
    CREC currently operates three magnet schools in the Coltsville 
Historic District: the CREC Greater Hartford Academy of the Arts High 
School, serving students in grades 7-12; the CREC Two Rivers Magnet 
High School, serving students in grades 9-12; and the CREC Greater 
Hartford Academy of the Arts Middle School, serving students in grades 
6-8. We have further plans to develop additional portions of the 
Coltsville site, including the complete renovation of one of the 
buildings in the north part of the complex.
    CREC is committed to the success and stability of the Coltsville 
Historic District. We recognize the great economic and educational 
potential that the site has for our state, and CREC is grateful to be 
part of the ongoing renovation and revitalization of the District. We 
offer our full support for the Coltsville Historic District receiving 
National Park designation, and we look forward to our continued 
partnership in this endeavor.
    Thank you for your unwavering dedication to our state.
            Sincerely,
                                   Bruce E. Douglas, Ph.D.,
                                                Executive Director.
                                 ______
                                 
                                                  CT TRUST,
                                         Hamden, CT, April 6, 2013.
Hon. Richard Blumenthal,
U.S. Senator, Washington, DC.
Hon. Christopher Murphy,
U.S. Senator, Washington, DC.
Hon. John Larson,
U.S. Representative, Washington, DC.
RE: S. 615/ HR 1259 a bill to establish the Coltsville National 
Historical Park Act

    Dear Senator Blumenthal, Senator Murphy and Representative Larson:
    On behalf of the Connecticut Trust for Historic Preservation, I am 
writing to urge your support of the National Park land package that 
includes establishing Coltsville as a National Historic Park: S. 615/
HR. 1259 a bill to establish the Coltsville National Historical Park 
Act.
    For the Connecticut Trust, Coltsville National Park will be the 
culmination of almost two decades of advocacy to see the buildings 
restored and the complex recognized and offered as a public resource. 
The extraordinary national importance of the Coltsville story of 
precision manufacturing, innovative approaches to mechanization and the 
many contributions Elizabeth Colt, as a widow, made to ensure the 
development of a culturally vibrant capital will be part of the 
national consciousness, where it finally deserves to be.
    There is no better time for a National Park to be established at 
Coltsville. The old industrial complex, with its various armories and 
outbuildings, is hopping with activity. One by one, the buildings have 
been and are being renovated. Tenants range from residents to students 
to manufacturing workers and restaurateurs. The Coltsville complex is 
emerging as the best there can be in reimagining our old industrial 
complexes and making them work for the 2151 century. A National Park in 
this vibrant mix will bring visitors who will not only be immersed in 
the history of Coltsville but will also experience firsthand the return 
to life that an old industrial complex can undergo. Coltsville is a 
happening place that will become a centerpiece for Hartford and 
Connecticut once designated a National Park.
    The Connecticut Trust stands ready now and in the future to assist 
the National Park Service, the State of Connecticut, the City of 
Hartford and other local partners in making Coltsville a successful 
National Park in Hartford. The Trust is a partner of the National Trust 
for Historic Preservation which has a strong interest in this project.
    Thank you for taking the leadership to ensure the designation of 
Coltsville as a National Historic Park.
            Sincerely,
                                             Helen Higgins,
                                                Executive Director.
                                 ______
                                 
                        Department of the Interior,
                                     National Park Service,
                                      Washington, DC, May 15, 2013.
Hon. Ron Wyden,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
    The Department strongly opposes S. 486. As stated in testimony 
given before the Subcommittee on National Parks on April 23, 2013 
(enclosed), the bill would reinstate the 2007 Interim Protected Species 
Management Strategy governing off-road vehicle (ORV) use at Cape 
Hatteras National Seashore, replacing the final ORV Management Plan/
Environmental Impact Statement and special regulation.
    The final plan and regulation, the product of an intensive five-
year long planning process that included a high level of public 
participation, not only provides diverse visitor experience 
opportunities, manages ORV use in a manner appropriate to a unit of the 
National Park System, and provides a science-based approach to the 
conservation of protected wildlife species, but also adapts to changing 
conditions over the life-span of the plan.
    The Department supports allowing appropriate public use and access 
at the Seashore to the greatest extent possible, while also ensuring 
protection for the Seashore's wildlife and providing a variety of 
visitor use experiences, minimizing conflicts among various users, and 
promoting the safety of all visitors. We strongly believe that the 
final ORV Management Plan/ Environmental Impact Statement and special 
regulation are accomplishing these objectives far better than the 
defunct Interim Strategy.
    We urge the committee to oppose S. 486.
            Sincerely,
                                        Jonathan B. Jarvis,
                                                          Director.
                                 ______
                                 
           Coalition to Strengthen the Sheldon/Charter Oak 
                                    Neighborhood (CSS/CON),
                                      Hartford, CT, April 12, 2013.
Hon. Richard Blumenthal,
U.S. Senator, Washington, DC.
Hon. Christopher Murphy,
U.S. Senator, Washington, DC.
Hon.  John Larson,
U.S. Representative, Washington, DC.
RE: S. 615/ HR 1259 the Coltsville National Historical Park Act

    Dear Senators Blumenthal and Murphy and Congressman Larson:
    On behalf of the Board of Directors of the Sheldon/Charter Oak NRZ, 
I wish to reiterate our very strongest support for Coltsville National 
Historic Park. Our neighborhood, in which Coltsville is located, has 
always supported this plan and has been an active member of the 
Coltsville Ad Hoc Committee since the idea was conceived.
    While the name Sam Colt is synonymous with Hartford and the 
firearms industry, the story of Coltsville is much bigger and more 
interesting than simply the manufacturing of guns. Sam Colt built a 
model factory, which employed the most advanced manufacturing 
technology and precision engineering of the day. Coltsville is 
nationally important in American industrialization and a leader in the 
interchangeability of parts and mechanization of virtually all aspects 
of manufacturing. The Colts created more than a factory. They designed 
a planned urban industrial district, including housing, recreational 
facilities, meeting halls, and churches. Much of this fabric remains 
today within the Coltsville area under consideration.
    The significance of Coltsville is so much bigger than the sum of 
its physical parts. It's the story of a widow (Elizabeth) running a 
multi-national company; a springboard for entrepreneurs who honed their 
skills at Colt and went on to create typewriters, automobiles, sewing 
machines, bicycles, aircraft parts, and more; and it's the story of 
epic philanthropy as evidenced by massive art collections, memorials, 
and parkland donated to the public realm.
    I urge you, and all your fellow Senators and Congressmen, to 
support S. 615/HR 1259. Our organization hopes to welcome the world to 
Coltsville through the experience of a National Park, so that they too 
might learn of the good that came from here, not just the production of 
guns.
            Sincerely,
                                           Lynn H. Ferrari,
                                                         President.
                                 ______
                                 
 Statement of Maureen Finnerty, Chair, Executive Council, Coalition of 
                     National Park Service Retirees
                               on s. 371
    Mr. Chairman and Members of the subcommittee, thank you for this 
opportunity to present the views of the Coalition of National Park 
Service Retirees on S. 371, a bill to establish the Blackstone River 
Valley National Historical Park, to dedicate the park to John H. 
Chafee, and for other purposes. We are submitting this to be 
incorporated for the record with other testimony of your Hearing of 
April 23, 2013.
    This is important legislation. We strongly support the enactment of 
S. 371. It would create a Blackstone River Valley National Historical 
Park based on its real significance to the nation, and sustained by 
mutually supportive partnerships.
    It is the ``wholeness'' of the Blackstone Valley that makes it 
significant. It is the reason S. 371 is structured as it is. Few places 
exist where such a concentration of integrated historic, cultural and 
natural resources has survived and can be made accessible by 
interpretation, preservation and management strategies. This resource 
tells the story of a watershed that depicts every phase of industrial 
development and environmental interaction from colonial times to the 
present era of revitalization. Much can be learned here about what 
makes a landscape environmentally and economically sustainable. In one 
small area of approximately 700,000 acres between Worcester, 
Massachusetts and Providence, Rhode Island--a river basin of only about 
45 miles long and 22 miles wide--you can still see on the landscape 
evocative layers of nearly every phase of American development in the 
Northeast.
    The streams and tributaries of the Blackstone River descend 450 
feet from the hills in and above Worcester, Massachusetts to the 
Narragansett Bay, or 10 feet a mile--a faster descent than the Colorado 
River through Grand Canyon National Park. Through the work of people 
and the power of this geography, the river and its tributaries became 
the first place in the United States to experience the widespread use 
of waterpower for industry; the Valley became the center of industrial 
innovation for the nation, the Silicone Valley of its time.
    The first layer you can see along these waterways is evidence of 
Native American settlements, early transportation routes, and 
vocabulary of resource features highlighting the significance of the 
waterways. These waterways are fed by what The New Yorker magazine 
called ``large and spectacular wetlands.''\1\ Surrounding the wetlands 
you can see important concentrations of colonial rural landscape 
development including hilltop villages with village commons, and 
crossroad villages and colonial transportation systems. The industrial 
and waterpower period followed, with riverside industrial villages and 
cities, including large parts of the 2nd and 3rd largest cities of New 
England, and then continued layers to our time. You can see the affect 
of landscape on culture, and culture on landscape at every stage. You 
even can perceive a sense of the way forward toward the future, or at 
least the choices and the opportunities for the future.
---------------------------------------------------------------------------
    \1\ `` . . . the Blackstone Valley (was) the first area in North 
America to be industrialized. The  . . . Massachusetts part, whic is 
bordered by large and spectacular wetlands, stayed mostly undeveloped, 
but in Rhode Island mill villages dotted the hillsides . . . Every town 
on the river was supported by a mill, and every waterfall on the river 
had a mill next to it . . . ``The New Yorker magazine, ``Encountering 
The Countryside,'' August 28, 1989, pp. 37-63.
---------------------------------------------------------------------------
    The rolling farmlands lined with classic New England stone walls 
remind you that the dawn of industry led to the revitalization of 
farming--just one of many unexpected interrelationships this park will 
be able to illustrate and interpret. With the concentration of 
distinctive resources across an entire landscape, this park could be 
understood as a natural resource. With the unique survival here of 
representatives elements of entire 18th and 19th century production 
systems, this Valley can be seen as a machine--a watershed harnessed as 
one integrated machine. For many national historical parks with one or 
two primary resources a compact park and legislative framework may work 
best. For the Blackstone Valley, a combination of parkland 
administration and partnership collaboration is needed, as provided by 
S 371.
    This reshaping of the river basin, its physical and social 
response, the creation of sustainable wealth and community, its 
economic and environmental decline and more recently its pathway to 
restoration is the major significance of the Blackstone River Valley. 
The story it tells of America is both compelling and potentially 
redeeming.
    This Valley has high integrity, is compact, and capable of 
supporting the very best of interpretation and public programming in a 
living, working cultural landscape.
    It is certainly much more, and much more interesting to visitors, 
than the probably-misnamed ``Birthplace of the American Industrial 
Revolution.'' Describing these resources as exclusively industrial or 
of a narrow period of industrial history truly misses and seriously 
understates what makes the Blackstone River Valley significant on a 
national scale.
    Rather than a park boundary to include the whole watershed--the 
complete resource--as we and others originally proposed, this bill is a 
brilliant solution to the key issue of landscape and boundary. 
Brilliant, in the sense of a more modest, efficient and cost effective 
framework while still centered on the ``wholeness'' of the Blackstone 
River Valley. S. 371 accomplishes this by relying on the local 
jurisdictions and private sector involvement, and especially on 
partnering with the surrounding National Heritage Corridor, to enable a 
much smaller park.
    As called for by the Special Resource Study (SRS) the park would be 
anchored in the essential 5 representative historic districts and, as 
its spine and network, the Blackstone River with its tributaries and 
canal. S. 371 would enable the state of Rhode Island to donate the 
Blackstone River State Park within in the Ashton historic mill village, 
as needed in the opinion of the NPS to be the robust anchor of NPS 
administration and the link to other park partnership districts.
    We recommend that the Committee's report specifically state that 
the public overwhelmingly identified the river and tributaries as 
essential park resources because they are essential to the story of 
waterpower, they are the spine holding the Valley together, and they 
offer an important way to view and enjoy the park. They also represent 
the natural environment that always has been seen by the local public 
as the first purpose of the preservation efforts in the Valley, even as 
far back as the 1980's in the first survey conducted by National Park 
Service for the first management plan.
    Therefore, we strongly urge the Committee to include in the park 
all the key resource areas identified in the Special Resource Study, as 
are found in S. 371 as written.
    We will say more at the conclusion about the goals of our 
Coalition, but at this point let me say simply that a primary 
responsibility of the Coalition of National Park Service Retirees is to 
provide insight on how legislation and policy and practice REALLY 
affect things in the Field, where as everyone knows, the rubber meets 
the road. We appreciate how difficult it can be to get beyond theory 
and `what if's' to what really can work.
    To that end, our judgment is that the National Park Service is to 
be congratulated for the distinction and insight of the Blackstone 
River Valley Special Resource Study, the basis of this legislation. The 
Valley is as important and as complex a landscape as may be found, and 
the National Park Service responded with many elegant and essential 
resource preservation solutions in this SRS. In addition to the 
interests of multiple federal agencies, this park plan engaged two 
sovereign states and over 20 New England towns and cities and 40 
historic villages. The SRS team did the work, worked with the public 
and really listened, and to be noted, they also read and assessed all 
the voluminous evaluations and analysis, the plans and their results 
that you find in the SRS Bibliography. It is a remarkable demonstration 
of strength that the team understood and articulated the special needs 
of this resource.
    The SRS calls for NPS expenditures on the same order of magnitude 
as the last 20 years. As the Conservation Study Institute report 
demonstrates, if the existing energy and imagination and partnerships 
in the Valley from the NPS' past experience are incorporated into this 
new national park, the costs will be very modest. We believe that the 
higher vision established by S. 371 will attract motivated partners, 
and that unequivocally enabling collaboration will attract significant 
investments by the private sector, by State and local government, and 
by other federal agencies.
    The National Park Service has demonstrated over the past 20 years 
that it and its partners have developed the right balance among the 
private sector, the local governments and the federal government. None 
of the communities or businesses has raised concerns over any loss of 
authority. No community has ever asked to be deleted from the heritage 
area. In fact, other communities keep asking to join. During the public 
review of the SRS, the overwhelming community response was in support 
of the park, with nearly all those who spoke at the public meetings 
calling for including the river and its tributaries in the park. This 
comes from placing the public at the center of decision making, of 
getting the balance of incentives right, but above all by the power of 
the Meaning of the resource and power of an exciting park story people 
identify with. This legislation builds from those positive 
relationships.
    The Coalition of National Park Service Retirees strongly supports 
the provision to dedicate the Blackstone River Valley National 
Historical Park to the late Senator John H Chafee. Senator, Chairman, 
Governor, Secretary of the Navy and Marine John H. Chafee will be as 
inspiring to park visitors as he is to us. He worked extremely well 
with all the other Massachusetts and Rhode Island Members of Congress 
in support of the Blackstone Valley. His successful efforts to 
revitalize the nation's air and water may be seen as a microcosm for 
the same in the Blackstone Valley. He knew that a healthy nation and a 
healthy economy require a healthy environment, as is also reflected in 
history of the Valley and the purpose of the National Heritage 
Corridor, now named for Senator John H Chafee.
    Thank you for considering this testimony of the Coalition of 
National Park Service Retirees.
    The more than 800 members of the Coalition of National Park Service 
Retirees are all former employees of the National Park Service (NPS) 
with more than 26,000 years of stewardship of America's most precious 
natural and cultural resources. In their personal lives, CNPSR members 
maintain their professional outlook. Just as the national parks are 
supported by the broad spectrum of the American people, the CNPSR 
members reflect the broad spectrum of political affiliations. CNPSR 
members now offer their professional experience and integrity as they 
speak out for national park solutions that uphold law and policy. Our 
members also support the mission of the National Park Service through 
public education.
                                 ______
                                 
                              Los Amigos de Valles Caldera,
                                      Santa Fe, NM, April 23, 2013.
David Brooks,
Counsel, Senate Energy and Natural Resources Committee, Energy and 
        Natural Resources Committee Office, 304 Dirksen Senate 
        Building, Washington, DC.
Re: SB285

    Dear Mr. Brooks:
    As this bill comes up in front of the National Parks Subcommittee, 
we would like to reiterate some of our previous concerns (letter to 
Senators Bingaman and Udall, February 24, 2010, June 27, 2010 Testimony 
re SB3452, and letter to Sen. Bingaman May 10, 2011), as well as 
mention some new ones.
    We are Los Amigos de Valles Caldera, a 501(c)(3) non-profit 
organization incorporated in New Mexico on September 30, 2006 by former 
members of the Board of Trustees of the Valles Caldera National 
Preserve and others. The Valles Caldera National Preserve, formerly the 
privately owned ``Baca Ranch,'' is an 89,000-acreproperty located in 
the Jemez Mountains in northern New Mexico purchased by the federal 
government in 2000 under the Valles Caldera Preservation Act and placed 
under the management of the Valles Caldera Trust.
    Los Amigos' mission is to support the Valles Caldera National 
Preserve for present and future generations through outreach, 
education, restoration, and collaboration.
    Los Amigos currently has over 200 members. Los Amigos is supported 
by government grants, grants from private foundations, and individual 
contributions. These individual contributions have ranged from $25 to 
$1,000 and have come from a wide variety of people across the country. 
We have brought in over $1 million in restoration funding.
    Los Amigos was created to support the Preserve, and we plan to 
continue with that mission, no matter who is managing the Preserve. 
However, we have a number of concerns about the proposed legislation to 
transfer the Preserve from the Trust to the Park Service:
    One.--The fourth and final criterion used by the Park Service in 
determining whether they should manage an important natural resource 
when it is already being managed by another federal agency was 
noticeably left unanswered in the NPS report regarding the Valles 
Caldera. According to National Park Service Management Policies 2006: 
``To receive a favorable recommendation from the Service, a proposed 
addition to the national park system must (1) possess nationally 
significant natural or cultural resources, (2) be a suitable addition 
to the system, (3) be a feasible addition to the system, and (4) 
require direct NPS management instead of protection by other public 
agencies or the private sector. These criteria are designed to ensure 
that the national park system includes only the most outstanding 
examples of the nation's natural and cultural resources. These criteria 
also recognize that there are other management alternatives for 
preserving the nation's outstanding resources. . . . There are many 
excellent examples of the successful management of important natural 
and cultural resources by other public agencies, private conservation 
organizations, and individuals. The National Park Service applauds 
these accomplishments and actively encourages the expansion of 
conservation activities by state, local, and private entities and by 
other federal agencies. Unless direct NPS management of a studied area 
is identified as the clearly superior alternative, the Service will 
recommend that one or more of these other entities assume a lead 
management role, and that the area not receive national park system 
status.'' According to the letter transmitting the NPS report regarding 
the Preserve, ``The scope of this report is limited to the first three 
criteria, and the need for NPS management is not addressed.'' So we 
wonder, how and in what way could they do a better job than the Trust? 
With all due respect, this crucial question needs to be directly faced 
and addressed. As articulated by the Park Service, this last criterion 
is not a political decision, but rather a matter of history, financial 
resources, and staffing of the Service itself.
    Two.--The answer to the fourth criterion would have to take into 
account the Park Service's current budget problems. Under the 
Sequester, the NPS is taking a $63 million cut, which they say will 
mean 900 positions will go unfilled. Even before this cut, the NPS 
budget has been cut several times since the original of this bill was 
introduced. It is common knowledge that the NPS is unable to meet its 
backlog of main- tenance at its current units. This has been cited in 
articles in the press as well as in GAO reports. The Park Service 
indicated in their testimony in 2011 regarding the earlier iteration of 
this bill that $32 million would be needed immediately after the 
Preserve went to the Park Service, for infrastructure. Then another $4 
million would be needed annually for administration. It is unclear how 
this could be accomplished under the cuts from the Sequester. The Los 
Alamos Monitor reported that there will be furloughs at Bandelier 
National Monument, and that they may be cutting off some access to the 
backcountry because of the Sequester.
    The Trust is currently not having this problem. As they showed in 
the 2012 State of the Preserve, they have increased visitation (110,000 
in 2012), revenue, and restoration. They are now ``in the black'' in 
the livestock program. They are obtaining 30 percent of their total 
operating costs through fees and donations. They will not be 
furloughing any employees under the Sequester, and they will not be 
eliminating programs.
    Three.--Since the introduction of the original bill in 2010, the 
Preserve and its neighbors have been the victims of a large and 
devastating fire, the Las Conchas Fire of 2011. A third of the Preserve 
was burned, and although some of that was beneficial, a lot of it was 
not and still continues to have impacts on streams and wetlands. 
Therefore, everyone agrees that the most critical work to be 
accomplished on the Preserve in the foreseeable future is the 
restoration of the forest ecosystem to a manageable condition and the 
restoration of the wetlands damaged in part by the Las Conchas Fire.
    The Southwest Jemez Mountains Collaborative Forest Landscape 
Restoration Program (CFLRP) Project has been funded by the Department 
of Agriculture. That project is designed to improve the resilience of 
ecosystems on the Preserve and on the Santa Fe National Forest to 
recover from wildfires and other natural disturbances and sustain 
healthy forests and watersheds by thinning and prescribed burning to 
restore more natural fire regimes.
    If the Preserve goes to the Park Service, in the Department of the 
Interior, that money will be lost, along with our best opportunity to 
help prevent any further fires in the Preserve. This is a major concern 
to Los Amigos, the Trust, and the neighbors of the Preserve. If forest 
restoration is not significantly accomplished in the near future, the 
Preserve will be at great risk for a further catastrophic fire. We in 
New Mexico are beginning another dangerous fire season. The moisture at 
the Preserve is at only 65 percent of normal for this time of year. 
This is frightening, given the forecast for continued lack of 
significant precipitation in the area.
    We hope that the Subcommittee will consider these points. We feel 
that this may not be the best time for a change in management. The 
Trust seems to be making significant progress toward the goals set for 
it in the Valles Caldera Preservation Act. We hope that Congress will 
give them the time to meet all of those goals and to show the potential 
benefits from a new kind of public land management.
    We appreciate the Committee's ongoing willingness to consider our 
concerns. Thank you.
            Very truly yours,
                                               Doug Fraser,
                                         Chair, Board of Directors.
                                 ______
                                 
                              State of Connecticut,
                                        Office of Governor,
                                      Hartford, CT, April 19, 2013.
Hon.  Christopher Murphy,
U.S. Senator, Washington, DC.
Hon. Richard Blumenthal,
U.S. Senator, Washington, DC.
Hon. John Larson,
U.S. Representative, Washington, DC.
Re:S. 615/HR 1259 the Coltsville National Historical Park Act

    Dear Senator Murphy, Senator Blumenthaland, Representative Larson:
    For more than a decade,the State of Connecticut has strongly 
supported and invested significantly in the re-development, remediation 
and renovation of Cotlsville, the most significant and visible site in 
our rich precision manufacturing history. As the U.S. Senate Committee 
on Energy and NaturalResources' Subcommittee on National Parks 
considers S.615/HR 1259 the Coltsville National Historical Park Act, I 
pledge the State of Connecticut's continued financial support to the 
Coltsville renovation andre-development, and specifically to Colt's 
East Armory in the near term.
    With three Coltsville buildings fully renovated and nearly fully 
occupied,there is tremendous potential for Coltsville as a National 
Historic Park. This designation and support from the National Park 
Service would propel the Coltsville redevelopment forward,and a 
National Park would have a beneficial effect on our state, and the city 
of Hartford, both in terms of job creation and urban revitalization.
    Furthermore, a National Historical Park at the 17-acre Colt complex 
will bring to life the precision manufacturing and innovative 
approaches to mechanization cultivated and inspired by SamColt. It will 
complement prestigious historic landmarks in Hartford, such as the Mark 
Twain House and the Wadsworth Athenaeum,and expand Connecticut's 
tourism industry, one of the top five job producers in our state. It's 
a vision that everyone can agree on, including former U.S. Interior 
Secretary Ken Salazar, who visited the Colt campus in September of 
2011. After touring the complex, he endorsed the idea of Colt becoming 
a national park because of its role in the Industrial Revolution.
    Connecticut has been and continues to be tremendously supportive of 
the renovation and redevelopment of Coltsville, providing significant 
funding and technical assistance toward the preservation of the 
historic complex. To date,the state has invested $7,705,000 in the Colt 
Gateway Project. The Department of Economic and Community Development 
(DECO) administered $5,605,000 of the funding in the form of a 
$4,500,000 grant for the construction and renovation of utility 
infrastructure, including the power plant. To date,$3,480,000 was used 
to complete the infrastructure projects and the balance of $1,020,000 
was used to install windows in the South and East Armory buildings as 
well as facade and roof replacement for the East Armory building.
    In addition, DECO committed $405,000 for abatement and demolition 
of structures on state-owned property adjacent to the historic Sawtooth 
building in order to provide additional parking to serve the complex. 
DECO also committed $700,000 from the Statewide Revolving Loan Fund for 
remediation of petroleum and hazardous contamination in the courtyard 
area of the former Colt factory complex. Of the $7,705,000,the 
Connecticut Development Authority (CDA) administered a $2,100,000 loan 
to complete the interior build-out of the South Armory.
    The state has made other significant investments in and around 
Coltsville. The Capital Regional Education Council was relocated to 
buildings on the north and south parts of the campus, and DECO provided 
a $500,000 grant to Colt's developer for leasehold improvements so that 
Foley Carrier Services, LLC,a transportation logistics company, could 
move its headquarters into the South Armory. The move brings 110 jobs 
to Hartford immediately, with plans to add up to 70 new jobs within 
three years.
    All this funding demonstrates the significant support Connecticut 
has had for a fully renovated Coltsville and additionalinvestments are 
being considered as the next phase of redevelopment commences. 
Specifically, another $5 million has been allocated for DECO to 
administer as future projects progress.
    A fully renovated Coltsville that includes a National Historic Park 
will be an economic catalyst for Hartford. It is a vision that Iam 
strongly committed to realizing. I have instructed my administration to 
actively work with Coltsville developer Larry Dooley and Hartford to 
craft a financing plan to renovate and re-develop the East Armory that 
will turn Coltsville into a revitalized residentia,l commercial and 
historic destination linked to downtown Hartford.
    Thank you for your steadfast leadership and advocacy to secure the 
designation of Coltsville as a National Historic Park.
            Sincerely,
                                          Dannel P. Malloy,
                                                          Governor.
                                 ______
                                 
                            Hartford Preservation Alliance,
                                      Hartford, CT, April 19, 2013.
Hon. Richard Blumenthal,
U.S. Senator, Washington, DC.
Hon. Christopher Murphy,
U.S. Senator, Washington, DC.
Hon. John Larson,
U.S. Representative, Washington, DC.
Re: S. 615/HR 1259 the Coltsville National Historical Park Act

    Dear Senator Blumenthal, Senator Murphy and Representative Larson:
    The Hartford Preservation Alliance, Inc. is pleased to support S. 
615/HR 1259 theColtsville National Historical Park Act. Coltsville, a 
National Historic Landmark, is listed on the National Register of 
Historic Places and is an integral component of Hartford's historic 
landscape. HPA believes Coltsville to be a prime candidate for National 
Park status for the incredible innovative contributions the site has 
made to U.S. and International history.
    HPA considers Coltsville one of the most recognized sites in the 
Capital City and support for creation of a Coltsville National Historic 
Park certainly aligns with the mission of HPA which is to advocate for 
the preservation and revitalization of Hartford, Connecticut.
            Sincerely,
                                         Tomas J. Nenortas,
                                                Associate Director.
                                 ______
                                 
                                            William Hosley,
                                       Enfield, CT, April 19, 2013.
Hon. Richard Blumenthal,
United States Senator, Washington, DC.
Hon. Christopher Murphy,
United States Senator, Washington, DC.
Hon. John Larson,
United States Representative, Washington, DC.
    Dear Connecticut Congressional Leaders:
    I am writing to support for S. 615/HR 1259 the Coltsville National 
Historical Park Act.
    Since 1986, I have been engrossed in scholarship, public 
programming and historic preservation efforts aimed at saving and 
inspiring future generations with the stories associated with 
Coltsville, one of industrial age America's most fascinating and in 
tact historic sites. I have witnessed a rising tide of public 
acclimation for the Coltsville initiative that cuts across a diverse 
spectrum of concerns, from the usual preservationists, museum and 
tourism officials, to neighborhood residents, school teachers and a 
growing community whose pride of price embraces Hartford's role an 
incubators of the industrial age or, as we sometimes phrase it, the 
Silicon Valley of the 19th Century.
    I am impressed with the sophistication and enthusiasm of the case 
that's been made for its significance by National Park Service 
personnel. With more than 30 Coltera buildings still intact, the built 
environment in Coltsville is remarkable in its beauty, integrity and 
survival. Like most industrial buildings, Colt's East Armory, with its 
famous blue onion dome, has experienced changes over the years. I am 
astonished not by what it has been lost but by how much of what was 
there, remains and by its integrity.
    What has not been widely reported is the even more remarkable 
survival and preservation in the public domain of family and company 
archives and collections (Wadsworth Atheneum, Museum of Connecticut 
History, Connecticut Historical Society, Armsmear, Church of the Good 
Shepherd, Colt Memorial House) that could never be replaced and has a 
market value in excess of $200 million! Because Mrs. Colt had a long 
history of civic philanthropy, she went to extraordinary lengths to 
preserve evidence that is usually lost. As important as the Colt story 
is in American industrial history, it is equally important and more 
unique in the evidence it also preserves of the corresponding 
industrial civilization that is every bit as important to the American 
industrial age story.
    The integrity of this dual asset--industrial buildings, products 
and processes and visual and material evidence of industrial age 
cultural resources, values and initiatives--gives Hartford and anything 
that might happen in conjunction with this site, a huge leg up on other 
places where either the stories are not as compelling, the 
personalities not as colorful, or the buildings AND collections not as 
in tact. Our friends at NPS have argued that Hartford/Springfield have 
the potential to THE PLACE in all the nation, where Americans visit to 
learn about the epic achievement of our first high tech industrial age.
    This is one of the most important historic preservation initiatives 
ever undertaken in Connecticut. At present Connecticut has one small 
National Park site in Weir Farm. Our neighbor immediately to the north 
has 18 National Park sites. It is long past time that this get done and 
given the subject matter--this ought to be an opportunity to cross the 
aisle and get support from potential friends like Sen. Richard Shelby, 
who I am sure understands the value of this as well as we do. Indeed, 
if an offer was made to name some aspect of a visitor center after him 
in conjunction with his impending retirement--I suspect it would be a 
slam dunk!
    Please do whatever it takes to get this done for Connecticut.
            Sincerely,
                                            William Hosley,
                                  Principal, Terra Firma Northeast.
                                 ______
                                 
           Statement of Warren Judge, Chairman, Dare County 
                         Board of Commissioners
    On Tuesday, April 23, 2013, Peggy O'Dell, Deputy Director for 
Operations for the National Park Service, Department of the Interior, 
testified before the Subcommittee on National Parks of the Senate 
Committee on Energy and Natural Resources.
    During her Subcommittee appearance, in response to questions from 
Senator Martin Heinrich, Ms. O'Dell presented misleading and 
contradictory information that warrants correction and clarification. 
Following is a transcript of her misleading remarks----

    Senator Heinrich--Were the closures that Senator Manchin asked 
about, were they complete closures to the public including pedestrians 
and including fishing, or, is it only a closure to off-road vehicle use 
or motorized access?
    Peggy O'Dell--The entire 67 miles remains open to pedestrians, and 
43 miles remain open to ORV use.
    Senator Heinrich--OK, and how much of that is open to fishing?
    Peggy O'Dell--People can fish anywhere.
    Senator Heinrich--Anywhere?
    Peggy O'Dell--Uh-Huh
    Senator Heinrich--OK, so even the areas that are closed to 
vehicular access are open to fishing?
    Peggy O'Dell--Yes sir.
    Senator Heinrich--Great, thank you very much.
    Ms. O'Dell stated that ``people can fish anywhere'' including areas 
that are closed to vehicular access. This ignores the reality of the 
Final ORV Management Plan that is now in place at the Cape Hatteras 
National Seashore Recreational Area. Under this plan, areas designated 
for ORV access are routinely closed when breeding and nesting behavior 
is observed, which precludes fishing and other recreational activities. 
Although Ms. O'Dell insisted that 43 miles remain open to ORV access 
and implied that this access is guaranteed. She failed to disclose that 
considerable ORV areas are immediately closed, without warning, 
whenever breeding or nesting behavior is observed, which can change on 
a day-to-day basis, severely disrupt the visitor experience, and 
adversely impact the local tourism economy.
    This important distinction is noted in the National Park Service 
Publication on ORV Use, which Ms. O'Dell failed to disclose to the 
Subcommittee.

          9. Does the ORV permit guarantee that all ORV routes will be 
        open for me to use? No. There are several reasons that parts of 
        ORV routes may be closed to ORV use:

  <bullet> There are seasonal closures along certain routes from Apr. 
        1-Oct. 31. These are shown on the ORV route map;
  <bullet> Routes may be temporarily closed if the carrying capacity is 
        reached;
  <bullet> Routes may be temporarily closed if there is a specific need 
        for resource protection; and
  <bullet> Routes may be temporarily closed for safety reasons.
          Following is a link to the cited portion:http://www.nps.gov/
        caha/planyourvisit/upload/02-10-12-FAQ-Site-Bulletin-for-CAHA-
        ORV-regulation.pdf

    Ms. O'Dell did not accurately inform the Subcommittee about the 
challenges Americans face gaining ocean access for fishing and other 
activities. The Cape Hatteras National Seashore Recreational Area 
encompasses a vast geographical area that was uniquely designed with a 
system of ramps to provide direct vehicle access to the ocean. This 
system formed a recreational highway that provided access to the ocean. 
In the case of the popular, world-class fishing destination known as 
Cape Point, access to this vital area is not feasible without ORV 
access.
    At the Cape Hatteras National Seashore Recreational Area, the 
purpose for driving on the beach is to gain access to recreational 
areas. This activity is done in a regulated and responsible manner as 
promoted by the County of Dare and grassroots organizations. Motorized 
access is not intended to be a joyride or high-speed excursion. It is a 
practical transportation necessity that is needed to reach the intended 
recreational destination.
                                 ______
                                 
       Statement of George Dini, Mayor, City of Yerington, Nevada
                               on s. 159

    Chairman Manchin, Members of the Subcommittee, I appreciate the 
opportunity to offer testimony in favor of S. 159, the Lyon County 
Economic Development and Conservation Act introduced by Senator Heller, 
Cosponsored by Senator Reid, and supported by the entire Nevada 
Congressional Delegation.
    I am proud to serve as the Mayor of Yerington, Nevada. I am joined 
today by Lyon County Manager Jeff Page on behalf of the Lyon County 
Commission, to jointly express the support of the 3,156 citizens of 
Yerington and 52,000 citizens of Lyon County and to urge the Committee 
to pass this bill. This land sale represents the economic future of our 
City and County.
    I also express the support of Nevada Governor Sandoval, and a 
multitude of local and regional support.
    The City of Yerington is located in Northern Nevada in the Mason 
Valley and we have a long proud history of mining and agriculture. 
However, our current economy is in bad shape. Our unemployment in Lyon 
County has averaged over 15 percent during the past year and our 
citizens are suffering greatly. Over the past 10 years, we have been 
fortunate to receive over $20 million in Federal funding that has been 
critical to maintaining our public infrastructure; however, this is not 
how our citizens want to survive as a community. We seek jobs and the 
ability to work hard to raise our families in a growing and vibrant 
community. We need long-term stable jobs for our citizens and an 
industry that will provide sustainable economic growth for decades.
    S. 159 mandates the fair market sale of approximately 10,400 acres 
of federal lands--just 1 percent of 975,000 acres of federal lands in 
Lyon County--to the City of Yerington for economic development, a 
recreation events center and open space purposes.
    The lands that will be conveyed have no current important uses. 
There is no threatened or endangered species habitat, no water 
resources, and no significant cultural resources. This is barren land 
that has few redeeming natural qualities.
    The purchase of these lands will allow the City of Yerington to 
annex the Pumpkin Hollow Mine site, sell water and sewer services to 
the mine operation, benefit from taxes paid by the mine, allows the 
City to grow economically and benefit from greatly needed recreation, 
cultural and economic development lands.
    The legislation also designates land for the Wovoka Wilderness, 
which is located in the South Pine Grove Hills. The land was identified 
as part of a local consultation process. In addition to wilderness, the 
legislation protects the County against a potential listing of the sage 
grouse on the Endangered Species List, protects existing grazing 
interests, maintains public access on existing roads, and provides 
continued access to recreation and hunting. On December 3, 2012, the 
Lyon Board of County Commissioners unanimously approved a resolution 
supporting the designation as outlined in S. 159. I also support this 
designation.
    For over four years, the City of Yerington has been working with 
Nevada Copper to craft a development plan for the Pumpkin Hollow Mine 
that will ensure the City of Yerington will economically benefit from 
the development of the mine creating a sustainable future for our City. 
The Pumpkin Hollow Copper mine that sits on private lands near the City 
of Yerington. With or without this legislation, Nevada Copper will 
develop and produce millions of tons of valuable minerals. The question 
really is whether the Yerington will benefit from this new mining 
project.
    Nevada Copper proposes to start full project development--an 
investment of approximately $1 billion--starting in 2013. In March, the 
company secured $200 million to initiate the development of the 
underground mine and mineral processing facilities at Pumpkin Hollow. 
The company would like to invest another $800 million to build out the 
much larger integrated open pit and underground mining operation. 
However, that level of financing will only happen subject to passage of 
S. 159.
    The integrated mine operation facilitated by this legislation will 
create over 800 direct mine operations jobs and up to 500 construction 
jobs. Using the current published jobs multipliers a total of over 
2,000-3,000 direct and indirect jobs would be created by the mine.
    The timely passage of this legislation cannot be over-stated. We 
are operating on a tight timeline. With the financing they have 
received, Nevada Copper is initiating detailed siting, engineering and 
design of project infrastructure. This legislation will allow Yerington 
to work with the Nevada Copper to locate infrastructure for water, 
sewer, and power for both mine development and the other uses 
contemplated by the City. Both the City and Lyon County will be able to 
share in property, sales, utility and net proceeds of mines taxes from 
mine operations. If this legislation is not successful, the mine will 
proceed, but as in the past, Yerington will simply have to deal with 
the impacts with no real benefits to the City other than some jobs for 
citizens.
    As importantly, with this contiguous block of land, the City and 
Nevada Copper can begin to plan for the future, long after mining is 
complete. The development agreement between the City and Nevada Copper 
will ensure that the Company leaves behind resources and assets that 
will provide sustainable economic growth for the City. S. 159 
solidifies the critical partnership that will provide economic 
enhancement for decades-and at no cost to the American taxpayer.
    Some of the lands will also be utilized for economic development as 
commercial and light industrial needs increase to support the 
operations of the mine. Also, the City is proposing a portion of the 
lands be utilized for renewable energy development such as solar 
energy. Lastly, some of the lands will be utilized by Nevada Copper to 
maximize the mining operations on their patented lands.
    As you can see, the sale of these lands to the City of Yerington 
will have a dramatic, positive impact by increasing jobs, the 
investment in Nevada, and increased tax revenues for the City, Lyon 
County and the State of Nevada. It will also generate jobs and economic 
activity in over 20 states nationwide for equipment, materials and 
supplies.
    Mr. Chairman, the City of Yerington is not asking Congress to give 
the City some public lands in the hope of attracting economic 
development. We are asking to pay fair market value to acquire a very 
small percentage of federal lands that have little or no use to the 
public in order to enhance and increase development that is already 
occurring at the Pumpkin Hollow site. I cannot express enough the 
importance of this project to the future of our City and I urge the 
Committee to support S. 159.
                                 ______
                                 
                                  Metro Harrtford Alliance,
                                      Hartford, CT, April 16, 2013.
Hon. Richard Blumenthal,
U.S. Senate, Washington, DC.
Hon. Christopher Murphy,
U.S. Senate, Washington, DC.
Hon.  John Larson,
U.S. Congress, Washington, DC.
    Dear Senators Blumenthal and Murphy and Congressman Larson:
    The Alliance serves as the Region's economic development leader and 
the City's Chamber of Commerce, and our investors include businesses of 
all sizes, health care providers and institutions of higher education, 
and 32 municipalities. Our mission is to ensure that the Region 
competes aggressively and successfully for jobs, capital and talent so 
that it thrives as one of the country's premier places for all people 
to live, work, play and raise a family.
    On behalf of the Alliance investors, I write to reiterate our 
strong continued support for the designation of the Coltsville Historic 
District (the ``Distric'') as a National Park. We specifically urge 
your continued efforts on behalf of the passage of S.615/HR 1259, the 
Coltsville National Historical Park Act (the ``Act'').
    As you know, the District is home to one of the nation's first 
precision manufacturing facilities, and the significant contributions 
to technological innovation and manufacturing advancements by Elizabeth 
and Samuel Colt and generations of Colt employees are well documented. 
The Colt legacy of industrial innovation and technological development 
literally changed the landscape of American business, labor relations 
and the entire fabric of a major United States city. Accordingly, the 
District would be an outstanding addition to the existing roster of 
remarkable National Parks as it both defines an important part of the 
American experience and illustrates a class of industry that is 
underrepresented currently in our nation's park portfolio.
    It is clear that the timing for this designation is also of 
critical importance to our local economy. According to McKinsey and 
Company, the leisure and hospitality sector could add between 2.1 and 
3.3 million jobs in this decade. By increasing awareness of Hartford's 
significant natural and cultural attractions, we have the potential to 
expand foreign and domestic visitation, a key job growth at a time when 
job growth is our primary focus.
    The Act carries with it the enhanced benefit of stimulating a 
stagnant economy by improving upon a national treasur. a treasure that 
led the Industrial Revolution and changed the borders of our nation. 
Again, we enthusiastically endorse the request that the District be 
designated a National Park and thank you for your ongoing efforts to 
see that the Act is passed.
            Sincerely,
                                         R. Nelson Griebel,
                                                   President & CEO.
                                 ______
                                 
                                      RIVERFRONT RECAPTURE,
                                      Hartford, CT, April 18, 2013.
Hon. Richard Blumenthal,
U.S. Senator, Washington, DC.
Hon. Christopher Murphy,
U.S. Senator, Washington, DC.
Hon.  John Larson,
U.S. Representative, Washington, DC.
RE: S. 615/HR 1259 the Coltsville National Historical Park Act

    To Whom It May Concern:
    I am writing on behalf of Riverfront Recapture in support of the 
Coltsville Ad Hoc Committee's submission of Coltsville to the National 
Park Service for consideration as a National Historical Park.
    Riverfront Recapture, Inc. is a private, non-profit 501(c)3 that 
was founded in 1981 by a group of corporate and community leaders for 
the purpose of restoring access to the Connecticut River. We have 
raised over $60 million for the capital projects in both Hartford and 
East Hartford that are generating significant benefits to the 
community. Public access to the river is once again possible for local 
residents and tourists, and the riverfront has become a catalyst for 
economic development on land adjacent to the parks on both banks of the 
river.
    Our Riverfront Master Plan, which was adopted by the City of 
Hartford and Town of East Hartford in 1982, envisioned a revitalized 
Coltsville that was home to both small businesses and local residents 
and reunited with the Connecticut River. This reconnection to the river 
was deemed impm1ant because Sam and Elizabeth Colt located their 
factory at that site so they could receive raw materials and ship their 
finished products by water. That historic connection was later blocked 
by the construction of a flood control dike and the interstate highway 
between Coltsville and the river. The restoration of this connection to 
the river will help us complete a three-mile loop system of riverwalks 
connecting Hartford and East Hartford.
    Riverfront Recapture has long supported the owners and developers' 
various efforts to restore Coltsville with the goal of returning the 
historic structure to local prominence. The designation of Coltsville 
as a National Historic Landmark was an important step towards the 
ultimate goal of Coltsville becoming a National Historical Park.
    To support the Coltsville Ad Hoc Committee's efforts, Riverfront 
Recapture will continue the development of our riverfront park system 
including the construction of a new park entrance adjacent to the East 
Armory. The new entrance will include a public plaza, a walkway and an 
operating gate in the dike that will restore the on-grade pedestrian 
connection to the river that was lost when the dike was constructed in 
the 1940's, followed by the highway's construction in the 1950's. The 
walkway will include a history wall, more than 200' in length, that 
will retell Hartford's development along the Connecticut River from the 
early 1700's through the 20111 century, with a significant pot1ion 
dedicated to the Coltsville story as it relates to the river. In 
addition, we plan to mimic architectural details of the East Armory in 
the structures and plaza hardscape which will help tie Coltsville to 
the riverfront.
    For the reasons stated above, we urge the National Park Service to 
look favorably upon the committee's submission of Coltsville as a 
National Historical Park. Thank you for your consideration.
            Sincerely,
                                        Joseph R. Marfuggi,
                                                   President & CEO.
                                 ______
                                 
   Statement for the Manhattan Project National Historical Park Act, 
                               on S. 507
    The Manhattan Project is one of the most significant events in 
American history. Today it is impossible to imagine that in September 
1942, in a valley in East Tennessee, 3,000 farmers and their families 
were told to leave their homes to make way for a ``secret city'' that 
would bring 100,000 men and women together to help end World War II and 
forever change the course of human history. The story of the Manhattan 
Project is not only about World War II, it is about the people who 
lived and worked at these sites, the scientific achievements they made, 
and the impact of their work on our nation's history. I have long 
supported establishing a national historic park to protect the 
Manhattan Project sites because of the project's important role in our 
history, but also because of its importance to the history and people 
of Tennessee. Oak Ridge, which was not listed on a map until 1949, 
became the home for 100,000 scientists, engineers, machinists, 
operators and construction workers. Very few of the scientists knew 
what they were working on, and even fewer knew anything about uranium.
    Many have asked how a valley in East Tennessee became the first 
Manhattan Project site. As Ray Smith, Y-12's Historian, would tell it, 
President Roosevelt needed to convince Congress to spend a large amount 
of money without knowing what is was going to be used for. President 
Roosevelt asked Senator Douglas McKellar, a Democrat from Tennessee, if 
this could be done. Senator McKellar is said to have replied, ``Yes, 
Mr. President, I can do that for you . . .  now just where in Tennessee 
are you going to put that thang?''
    This is one of thousands of stories that tell a small part of a 
full story that communicates the importance of this event in American 
history. As Americans we have a special obligation to preserve and 
protect our heritage, and the Manhattan Project National Historical 
Park will ensure that all Americans learn about the significance of the 
Manhattan Project and how it continues to shape our history.
    In 2004, I joined Senator Bingaman as a cosponsor of the Manhattan 
Project National Historical Park Study Act, which directed the 
Department of Interior to conduct a study of the Manhattan Project 
sites to determine the feasibility of including the sites in the 
National Park System.
    In 2011, following public meetings, extensive assessments of 
potential park boundaries and assessments of the integrity of the 
historical resources, the Department of the Interior found that the 
park was feasible, that it met the suitability requirements for 
establishing a new national park and that the park should be 
established.
    As part of the park's establishment the study recommended the 
creation of a Manhattan Project National Historical Park with units at 
Oak Ridge, Tennessee, Los Alamos, New Mexico, and Hanford, Washington. 
According to Secretary Salazar, Secretary of the Interior, ``the 
Manhattan Project ushered in the atomic age, changed the role of the 
United States in the world community, and set the stage for the Cold 
War.''
    Support for the Manhattan Project National Historical Park Act is 
bipartisan, bicameral, and has the strong support of the Energy 
Communities Alliance and the National Parks Conservation Association. I 
thank the Committee for holding this hearing today and I urge my 
colleagues to support this legislation as it moves forward. Thank you.
                                 ______
                                 
                                        Wadsworth Atheneum,
                                      Hartford, CT, April 17, 2013.
Hon. Christopher Murphy
U.S. Senator, Washington, DC.
Hon. Richard Blumenthal,
U.S. Senator, Washington, DC.
Hon. John Larson,
U.S. Representative, Washington, DC.
Re: S. 615/HR 1259 the Coltsville National Historical Park Act

    Dear Senator Murphy, Senator Blumenthal, and Representative Larson:
    On behalf of the Wadsworth Atheneum Museum of Art, I write to 
reiterate our strong support of the Coltsville Historic National Park 
Act. The Wadsworth Atheneum recognizes Coltsville as an important site 
that documents momentous innovations in America's technological, 
industrial, and cultural development.
    In 1905, Elizabeth Hart Jarvis Colt, wife of Samuel Colt, 
bequeathed to the Wadsworth Atheneum an extraordinary collection of 
artifacts from her husband's firearms factories and their home, 
Armsmear. The Wadsworth's Collection possesses rare and elaborately 
designed patent pistols that pay homage to the genius of Samuel Colt 
and the skilled craftspeople in his factories. In addition, this 
expansive collection preserves the memory of Mrs. Colt's art patronage 
to contemporary artists such as Thomas Cole and Frederic Church, as 
well as her civic leadership in Hartford and the U.S Sanitary 
Commission during theCivil War.
    The establishment of a National Park museum at the Coltsville East 
Armory would be enormously beneficial to the contextual validation and 
interpretation of our museum's collections and th ose in the possession 
of our sister institutions, the Connecticut State Library, the Hartford 
History Museum, and the Connecticut Historical Society. It opens 
extensive opportunities for collaborative programming and a communal 
site for the continual display of materials documenting the Colts' 
public service. The Wadsworth Atheneum looks forward to pmtnering with 
the Coltsville administrators in the development of exhibitions, school 
programs, and community projects that illustrate the Colt story.
    We applaud your legislative efforts as they bring the Coltsville 
project closer to being fully realized and accessible to students, 
tourists, and scholars alike.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
